<html>
<title> - THE ROLE OF NON-GOVERNMENTAL ORGANIZATIONS IN THE DEVELOPMENT OF DEMOCRACY</title>
<body><pre>[Senate Hearing 109-844]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-844
 
   THE ROLE OF NON-GOVERNMENTAL ORGANIZATIONS IN THE DEVELOPMENT OF 
                               DEMOCRACY

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED NINTH CONGRESS



                             SECOND SESSION



                               __________

                         THURSDAY, JUNE 8, 2006

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                    U.S. GOVERNMENT PRINTING OFFICE
34-274                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
NORM COLEMAN, Minnesota              JOHN F. KERRY, Massachusetts
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
LAMAR ALEXANDER, Tennessee           BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
LISA MURKOWSKI, Alaska               BARACK OBAMA, Illinois
MEL MARTINEZ, Florida
                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, prepared 
  statement......................................................    23
Carothers, Thomas, senior associate and director of the Democracy 
  and Rule of Law Project, Carnegie Endowment of International 
  Peace, Washington, DC..........................................    53
    Prepared statement...........................................    56
Gershman, Carl, president, National Endowment for Democracy, 
  Washington, DC.................................................    28
    Prepared statement...........................................    31
Halperin, Dr. Morton H., director of U.S. Advocacy, Open Society 
  Institute, executive director, Open Society Policy Center, 
  Washington, DC.................................................    43
    Prepared statement...........................................    45
Lowenkron, Hon. Barry F., Assistant Secretary for Democracy, 
  Human Rights and Labor, Department of Labor, Washington, DC....     3
    Prepared statement...........................................     5
    Responses to questions submitted by Senator Biden............    85
Lugar, Hon. Richard, U.S. Senator from Indiana, opening statement     1
Palmer, Hon. Mark, vice-chairman, Freedom House, Washington, DC..    36
    Prepared statement...........................................    39

              Additional Material Submitted for the Record

Human Rights First, prepared statement...........................    76
SUMATE, prepared statement.......................................    80

                                 (iii)

  


   THE ROLE OF NON-GOVERNMENTAL ORGANIZATIONS IN THE DEVELOPMENT OF 
                               DEMOCRACY

                              ----------                              


                         THURSDAY, JUNE 8, 2006

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:36 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Richard G. 
Lugar (chairman of the committee) presiding.
    Present: Senators Lugar, Martinez, Biden, and Sarbanes.

  OPENING STATEMENT OF HON. RICHARD LUGAR, U.S. SENATOR FROM 
                            INDIANA

    The Chairman. The hearing of the Senate Foreign Relations 
Committee is called to order. Today the committee will meet to 
examine the role of nongovernmental organizations, that is 
NGOs, in the development of democracy. Support for democratic 
grassroots organizations in many countries around the world has 
become a centerpiece of America's international outreach.
    The American people see this most clearly in the United 
States Government's efforts to set the foundation for democracy 
in Iraq and Afghanistan. Less well known is our Nation's 
broader push for democracy all around the globe. Within the 
past 3 years, the so-called Rose Revolution in Georgia, the 
Orange Revolution in Ukraine, and the Tulip Revolution in 
Kyrgyzstan have opened new space for democracy in those 
nations, thanks primarily to the efforts of civil society 
members and organizations.
    Unfortunately, the success of these generally peaceful 
``color revolutions'' has prompted a counteroffensive by some 
authoritarian regimes against prodemocracy groups. A report I 
commissioned from the National Endowment for Democracy notes, 
and I quote, ``Representatives of democracy assistance NGOs 
have been harassed, offices closed, and staff expelled. Even 
more vulnerable are local grantees and project partners who 
have been threatened, assaulted, prosecuted, imprisoned, and 
even killed,'' end of quote from the NED report. The report, 
entitled ``The Backlash Against Democracy Assistance,'' is 
being made available to the public today.

    [Editor's note.--The report could not be printed in this 
hearing, but will be retained in the permanent record of the 
committee.]

    A number of governments are tightening the legal 
constraints against democracy assistance. In January, President 
Vladimir Putin of Russia signed a controversial new law, 
imposing heightened controls on local and foreign NGOs 
operating in that country. Governments in Kazakhstan, 
Tajikistan, Uzbekistan, and Belarus have followed Russia's lead 
in cracking down on NGO activity.
    Outside the former Soviet states, China has tightened its 
controls against foreign NGOs. And according to the NED report, 
Egypt and Zimbabwe have done so, as well.
    This issue was brought to my personal attention last 
October when I met with Maria Corina Machado, the founder and 
executive director of Sumate, an independent democratic civil 
society group in Venezuela, which monitors the performance of 
Venezuela's electoral institutions. She has been charged with 
treason simply for receiving a grant from our own NED.
    Unfortunately, authorities in Russia, Venezuela, and other 
nations have been able to persuade many of their citizens that 
the work of these NGOs is a form of American interventionism 
and that opposition to the groups is a reaffirmation of 
sovereignty. As the NED report states, NGOs today, compared to 
the situation immediately following 1989, face a new reality, 
one that is dramatically different. Groups that promote 
democracy must come to grips with the fact that they are being 
vilified for allegedly promoting regime change.
    American-funded democracy promoters should underscore that 
democracy is not a singularly American endeavor. The European 
Union, the U.N. Democracy Fund, and NED-like initiatives 
sponsored by Germany, Taiwan, Poland, Slovakia, the Czech 
Republic, and others are part of the democracy-promotion 
community. American democracy groups should stress that they 
often work with such organizations and they should cultivate 
these relationships.
    In this environment, where democracy promoters are 
regularly being accused of crossing the line into domestic 
partisan politics, they must redouble their efforts to be open 
and transparent with the host regimes to assure those regimes 
of their nonpartisan intent. At the same time, when these NGOs 
come under assault and in pursuit of legitimate activities that 
are often protected by international agreements, they should be 
flexible and resourceful in finding ways to continue their work 
and in marshaling support for expanding the democratic space.
    This morning, we are joined by two distinguished panels. 
First, we welcome Barry Lowenkron, Assistant Secretary of State 
for the Bureau of Democracy, Human Rights and Labor.
    On the second panel, we will hear from Carl Gershman, 
president of the National Endowment for Democracy; Ambassador 
Mark Palmer, the current vice chairman of Freedom House; Morton 
Halperin, director of U.S. Advocacy at the Open Society 
Institute; and Thomas Carothers, senior associate and director 
of the Democracy and Rule of Law Project at the Carnegie 
Endowment for International Peace.
    We thank our witnesses for coming to the hearing this 
morning and we look forward to our discussion with them.
    At the time that my distinguished ranking member, Senator 
Biden, appears, we will recognize him, of course, for an 
opening statement, if he has one at that time. I am delighted 
to see Senator Martinez with us today. Do you have any opening 
comments?
    Senator Martinez. No, thank you, Mr. Chairman, only to 
highlight the importance of the issue and to thank you for 
holding this important hearing.
    Thank you.
    The Chairman. Thank you, Senator.
    Mr. Lowenkron, as always, it is good to have you here at 
the hearing; you are an old friend of the committee. And we 
appreciate the opportunity, once again, to hear from you this 
morning and to question you, as the case may be. You may 
proceed.

 STATEMENT OF HON. BARRY F. LOWENKRON, ASSISTANT SECRETARY FOR 
    DEMOCRACY, HUMAN RIGHTS AND LABOR, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Lowenkron. Thank you very much, Chairman Lugar. I am 
particularly grateful for the active interest that you and 
other members of the committee, Senator Martinez and others, 
have shown and are showing on the essential role that NGOs can 
play in defense of freedom and development of democracy 
worldwide.
    President Bush has committed us to seek and support the 
growth of democratic movements and institutions across the 
globe. And the work of NGOs is crucial to reaching that goal. 
If I may, Mr. Chairman, I request that my full testimony be 
entered into the record.
    The Chairman. It will be entered in the record in full.
    Mr. Lowenkron. Thank you.
    When I appeared before this committee, seeking confirmation 
as Assistant Secretary, I stated that one of my highest 
priorities would be to protect the work of NGOs. The activities 
of human rights and democracy NGOs mirror the discussions I had 
with Secretary Rice on three main areas of democracy promotion.
    One, electoral, the right of assembly, free speech, and 
other elements that constitute representative democracy.
    Two, good governance, government that is accountable and 
willing to accept constraints on power and cede it peacefully.
    And three, a flourishing civil society.
    There are those in power, however, who do not welcome such 
NGOs. The work of these NGOs may vary widely. But what they 
have in common is an independent voice distinct from, and at 
times in disagreement with, the government's views.
    I experience this every day as Assistant Secretary. I often 
agree with NGOs; at times, I disagree with them. But I never 
view them as a threat to our democratic way of life. Other 
governments, however, do feel threatened by NGOs' vital work.
    The assessment done by the National Endowment for Democracy 
captures this growing challenge. States are developing tools to 
subvert, suppress, and silence NGOs. They impose burdensome 
registration and tax requirements; charges are vague, 
enforcement is arbitrary, fostering a climate of self-
censorship and fear. And when states find these efforts 
insufficient, they resort to extra-legal forms of persecution. 
Often, these regimes justify their actions by accusations of 
treason, espionage, foreign interference, or terrorism; but the 
real motivation is political.
    From Russia to China to Venezuela, no region has been 
spared this push-back. Russia's new restrictive NGO law is now 
in effect. Recently, the Russian Ministry of Justice issued 
extensive and burdensome regulations, along with dozens of 
forms for NGOs to complete on their financial and programmatic 
activities. Foreign NGOs appeared to be singled out for even 
more extensive reporting requirements.
    The Chinese Government studied the role that NGOs played in 
the ``color revolutions'' and ordered an investigation into the 
activities of foreign and domestic NGOs in China. In Venezuela, 
the leadership of the electoral watchdog, Sumate, awaits trial 
on charges of conspiracy and treason for accepting a $31,150 
grant from the NED for voter education and outreach activities.
    I describe other disturbing cases in my written testimony, 
including Ethiopia, Uzbekistan, Syria, and Egypt.
    Mr. Chairman, when NGOs are under siege, freedom and 
democracy are undermined. How then can we best support and 
defend the work of NGOs worldwide? We need to push back. We 
need to defend the defenders of human rights and democracy. Let 
me suggest seven ways.
    First, we need to speak out. We must counter what I call 
the ``NGO legal equivalency'' argument that all countries 
regulate NGO activity in some fashion. There is an enormous 
difference between giving NGOs the opportunity to register for 
nontax status and demanding that NGOs register to simply 
function.
    Second, we need to ensure that NGO protection is an 
integral part of our diplomacy. We must highlight the 
protection of NGOs in our foreign policy and we must multiply 
our voices. Time and again, NGOs have told me that their work 
would be further protected if others would join us. Russian 
NGOs were heartened that German Chancellor Merkel spoke out in 
defense of NGOs and met with them while she was in Russia 
earlier this year.
    Third, we must expand the role of regional organizations in 
protecting NGOs. We are developing and enhancing partnerships 
with leading regional democracies and working with the European 
Union and others to support the work of NGOs.
    Fourth, we must maximize global opportunities to raise 
concerns about the treatment of NGOs and to take coordinated 
action in their defense. We will work with like-minded members 
of the new U.N. Human Rights Council. NGOs must retain the same 
access to the new body that they had to its predecessor. The 
U.N. Democracy Fund will support projects implemented by NGOs. 
And the time has come to institutionalize the Community of 
Democracies and to use its members to press for the protection 
of civil society, including NGOs.
    Fifth, we must protect and nurture new organizations that 
allow NGOs to flourish. We and our G-8 partners, together with 
countries of the broader Middle East, established the Forum for 
the Future to advance reforms in the region. At the Bahrain 
Ministerial Forum last fall, countries agreed to establish a 
Foundation for the Future to help fund NGO activity. And I am 
pleased to tell you today that Justice Sandra Day O'Connor has 
agreed to the be the U.S. representative on the foundation's 
board.
    Sixth, we must ensure that NGOs have the resources they 
need to carry out their vital work. We, in government, can 
often provide the needed seed money for democracy promotion 
programs or assistance to maintain ongoing programs. Here, I 
would also want to express my appreciation to the Congress for 
its support of the Human Rights and Democracy Fund, a program 
managed by my Bureau. I call it the ``venture capital'' of 
democracy promotion, for it gives us the flexibility to support 
innovative NGO programming targeted at key countries and 
issues.
    Seventh, we should consider elaborating some guiding 
principles by which we would assess the behavior of other 
governments toward NGOs and which we will take into account in 
our bilateral relationships. I would welcome consulting with 
the Congress on the drafting of these principles. The 
principles could be distilled from basic commitments to rights 
enshrined in such documents as the U.N. Universal Declaration 
of Human Rights and other international documents, including 
those of the OSCE.
    We would encourage the embrace of the principles by other 
countries, as well. These principles could include: That an 
individual should be permitted to form, join, and participate 
in NGOs of his or her choosing and peaceful exercise of freedom 
of expression and assembly; that any restrictions that may be 
placed on the exercise of the rights to freedom of expression 
and assembly must be consistent with international law; that 
governments will not take actions that prevent NGOs from 
carrying out their peaceful work without fear of persecution, 
intimidation, or discrimination; that laws, administrative 
measures, regulations, and procedures governing or affecting 
NGOs, should protect, but not impede, the operation of NGOs; 
and that they should never be established or enforced for 
politically motivated purposes; that NGOs, like all other 
elements of a vibrant civil society, should be permitted to 
seek and receive financial support from domestic, foreign, and 
international entities. And perhaps the most important 
principle of all that, whenever NGOs are under siege, it is 
imperative that democratic nations act to defend their rights.
    Mr. Chairman, Senator Martinez, in closing, I want to 
emphasize the value of your active involvement in the worldwide 
defense and support of NGOs. Efforts you make to encourage 
foreign leaders to press these issues would be extraordinarily 
helpful in advancing the goal we all share--a world of 
democracy and freedom.
    Thank you.
    [The prepared statement of Hon. Lowenkron follows:]

Prepared Statement of Hon. Barry F. Lowenkron, Assistant Secretary for 
 Democracy, Human Rights and Labor, Department of State, Washington, DC

    Chairman Lugar, members of the committee. Thank you for your active 
interest in the essential role that nongovernmental organizations play 
in the defense of freedom and the development of democracy across the 
globe. I welcome this opportunity to highlight the contributions of 
NGOs, to share with you our concerns about the restrictions that a 
growing number of governments are placing on NGO activities, and to 
offer suggestions on how we can protect NGOs' vital work.
    I will summarize my prepared remarks, Mr. Chairman, and request 
that my full testimony be entered into the record.
    When I appeared before this committee last September seeking 
confirmation as the Assistant Secretary for Democracy, Human Rights and 
Labor, I stated that, if confirmed, one of my highest priorities would 
be ``to consult and partner closely with the many dedicated and capable 
NGOs working on human rights and democracy.'' I also pledged to ``make 
every effort to protect the work'' of NGOs against efforts by foreign 
governments to constrain, harass, intimidate, and silence their work.''
    As Assistant Secretary, I have had the privilege of meeting with 
many NGOs, both here and abroad, and I have greatly benefited from 
their information, their insights, and their ideas.
    As President Bush stated in his second inaugural address, `` . . . 
it is the policy of the United States to seek and support the growth of 
democratic movements and institutions in every nation and culture, with 
the ultimate goal of ending tyranny in our world.''
    The work of NGOs is crucial to reaching that goal.

                          A WIDE WORLD OF NGOS

    The rise of NGOs as international actors, as well as shapers of 
national policy, is one of the most important trends in international 
relations. NGOs encompass the entire range of civil society--from 
lobbying for better health, protection of the environment, and 
advancement of education for all, to delivering humanitarian relief and 
securing and protecting basic civil and political rights.
    There are NGOs devoted to specific health issues, such as women's 
health care or HIV/AIDS. I note the tireless effort and good work of 
the Whitman Walker Clinic here in the Washington metropolitan area. 
There are also NGOs based thousands of miles away that are battling 
these same concerns. For example, the Kenya AIDS NGO Consortium is a 
coalition of some 600 NGOs and religious organizations that deal with 
AIDS-related activities in Africa. Indeed, the AIDS pandemic has 
spawned a host of indigenous NGOs in sub-Saharan Africa.
    Environmental NGOs in the former Soviet Union and Eastern Europe 
played a vital role in the political, social, and economic changes of 
the 1980s. Today, they continue to have an enormous impact in countries 
across the globe, pushing for governmental transparency and 
accountability which, in turn, can fuel political reform.
     Today, my primary focus will be the so-called political NGOs--
those that advocate for human rights and democratic principles and 
practices. Although they constitute only a small component of the 
global NGO community, they are the ones that draw the most fire from 
governments who view them as a threat to their power.
    These NGOs build on a legacy of championing human rights through 
norm-setting and monitoring. They have helped to shape international 
agreements, instruments, institutions, and human rights mechanisms over 
decades. NGOs were key to shaping the language of human rights and 
fundamental freedoms in the United Nations Charter and of the U.N. 
Universal Declaration on Human Rights itself. These NGOs courageously 
defend human rights activists, often while risking reprisal themselves.
    Together with the increasing worldwide demand for greater personal 
and political freedom often reflected in the work of these NGOs is the 
growing recognition that democracy is the form of government that can 
best meet the demands of citizens for dignity, liberty, and equality.
    Today, all across the globe, NGOs are helping to establish and 
strengthen democracy in three key ways:

  <bullet> First, NGOs are working to establish awareness of and 
        respect for the right of individuals to exercise freedoms of 
        expression, assembly, and association, which is crucial to 
        participatory democracy.
  <bullet> Second, NGOs are working to ensure that there is a level 
        playing field upon which candidates for elective office can 
        compete and that the entire elections process is free and fair.
  <bullet> Third, NGOs are working to build and strengthen the rule of 
        just laws and responsive and accountable institutions of 
        government so that the rights of individuals are protected 
        regardless of which persons or parties may be in office at any 
        given time.

    These efforts by NGOs mirror the discussions I have had with 
Secretary Rice on democracy promotion in which she outlined the three 
main areas that inform our democracy activities: Electoral--the right 
of assembly, free speech, and all other elements that constitute 
representative democracy; the importance of good governance--a 
government by the people that is accountable, transparent, and willing 
to accept constraints on power and cede it peacefully; and a 
flourishing civil society. NGOs play a vital role in all three areas.
    U.S.-based NGOs such as the National Endowment for Democracy, the 
Center for International Private Enterprise, the American Center for 
International Labor Solidarity, the National Democratic Institute for 
International Affairs, the International Republican Institute, IFES and 
Freedom House actively promote democracy across the globe. This type of 
activity is not unique to the United States. The German political 
Stiftungen served as models for the creation of the NED family in the 
1980s. The British Westminster Foundation is a leader in democracy 
promotion. The Danes promote worker solidarity and labor rights. The 
Czech Aide to People in Need actively supports human rights. All of 
these efforts are conducted openly and transparently and are consistent 
with international standards and practices.

                             THE PUSH-BACK

    Not surprisingly, there are those in power who do not welcome NGOs 
and other agents of peaceful, democratic change. After all, the work of 
NGOs may vary widely, but what they all have in common is enabling 
individuals to come together to create an independent voice distinct 
from, and at times in disagreement with, the government's views.
    Mr. Chairman, I experience this every day as Assistant Secretary 
when I meet with NGOs who want to discuss the U.S. Government's human 
rights record here and abroad. I often agree with NGOs. At times, I 
disagree with them. But I never view them as a threat to our democratic 
way of life. Indeed, their contribution to our debate on America's role 
in the world can only strengthen our democratic ideals at home and 
advance them abroad.
    Other governments, however, feel threatened by their work.
    In many countries, we see disturbing attempts to intimidate NGOs 
and restrict or shut them down. The recent assessment of the National 
Endowment for Democracy captures this growing challenge. The 
conclusions are sobering. States are developing and using tools to 
subvert, suppress, and silence these organizations. They
invoke or create restrictive laws and regulations. They impose 
burdensome registration and tax requirements. Charges are vague, such 
as ``disturbing social order,'' and implementation and enforcement are 
arbitrary, fostering a climate of self censorship and fear. Governments 
play favorites, deeming NGOs ``good'' or ``bad,'' and they treat them 
accordingly. NGOs deemed ``good'' are often ones created by governments 
themselves--Government Organized NGOs or ``GONGOs.'' The Tunisian 
Government established a GONGO staffed by members of its intelligence 
service to attend conferences and monitor what is being said about the 
government. China sends GONGOs to U.N. NGO functions to defend China's 
human rights policies.
    When states find that their efforts to pass or apply restrictive 
laws and regulations against NGOs are not enough, they resort to 
extralegal forms of intimidation or persecution.
    Often these regimes justify their actions by accusations of 
treason, espionage, subversion, foreign interference, or terrorism. 
These are rationalizations; the real motivation is political. This is 
not about defending their citizens from harm--this is about protecting 
positions of power.
    From Russia to China, Zimbabwe to Venezuela, no region has been 
spared this push-back. Mr. Chairman, we can point to individual cases 
unique to each country. A key impetus for the recent crackdown has been 
reaction by many rulers to the ``color revolutions'' of 2003-2005. They 
believed that the popular pressure for change was instigated and 
directed from abroad through U.S. and other foreign support for NGOs on 
the ground. They have not grasped that the ``color revolutions'' were 
examples of citizens standing up for their right to free elections and 
demanding accountability when election results did not reflect the 
clear will of the people because of manipulation.
    During my trip to Moscow in early January, the deep suspicion that 
Western states had manipulated election outcomes was evident from my 
discussions with officials and lawmakers. Our promotion of democracy is 
seen as part of a zero-sum game of geopolitical influence. I emphasized 
to my Russian interlocutors that they were fundamentally mistaken about 
what happened in Ukraine and Georgia, that our NGO funding and 
activities there were transparent, fully in keeping with the 
Organization for Security and Cooperation in Europe's and other 
international norms, and designed to help ensure that elections are 
free and fair, not to pick winners and losers.
    After he had signed the restrictive new NGO law in January, Russian 
President Putin acknowledged that NGOs can and do contribute to the 
well-being of society, but he added that their financing must be 
transparent and efforts to control them by ``foreign puppeteers'' would 
not be tolerated.
    The new Russian law has the potential to cripple the vital work of 
many NGOs, including foreign NGOs there to support the local NGOs, and 
could retard Russia's democratic development. The new law is now in 
effect. Recently, the Russian Ministry of Justice issued extensive 
implementing regulations along with dozens of forms for NGOs to 
complete. These detailed reporting requirements on NGOs' financial and 
programmatic activities allow for broad review and oversight by Russian 
officials that could go beyond international norms. The authorities 
have wide discretion to implement the law. The authorities can request 
various documents and information or attend any NGO event to verify 
that an organization's activities comply with the goals expressed in 
its founding documents. Foreign NGOs appear to be singled out for even 
more extensive reporting requirements, including quarterly financial 
reports and annual reporting on planned activities, subject to review 
by authorities. Officials could order a foreign NGO to cease funding a 
particular program, ban the NGO from transferring funds to certain 
recipients, or shut it down completely. While we are told such measures 
would be subject to court approval, this could entail lengthy and 
expensive litigation that could cripple an NGO.
    The Russian government has claimed that the new NGO law is similar 
to United States and other Western regulations regarding civil society. 
As a basis for that claim, the Russian Federation's Ministry of Foreign 
Affairs has posted an unattributed chart on its Web site comparing 
selected provisions from the new NGO law with the laws of the United 
States, France, Finland, Israel, and Poland. An NGO called the 
International Center for Not-for-Profit Law has done a careful analysis 
of the chart and the laws of the various countries cited and has found 
the contrary. According to this center of legal expertise, the Russian 
law is ``substantially different from the laws of the selected 
countries'' and is actually ``more restrictive,'' both in terms of the 
specific provisions of the Russian law and in its cumulative effect.
    We continue to urge the Russian Government to implement the new law 
in a way that facilitates, not hinders, the vital work of NGOs and is 
in compliance with Russia's international commitments.
    Russia is not the only country where NGOs face serious challenges.
    In Belarus, the Lukashenko Government increasingly uses tax 
inspections and new registration requirements to complicate or deny the 
ability of NGOs, independent media, political parties, and minority and 
religious organizations to operate legally. All but a handful of human 
rights NGOs have been deregistered or denied registration. In February, 
Belarussian KGB spokesman, Valeriy Nadtochayev, stated, ``Such 
political events inside our country as . . . elections attract the 
attention of foreign secret services, diplomats, and representatives of 
various nongovernmental organizations and foundations like magnets. All 
of them are united by a common task involving the collection of biased 
information about events in our country and the creation of newsbreaks, 
especially those connected with so-called human rights violations . . . 
''
    The Chinese Government applies burdensome requirements to groups 
attempting to register as NGOs. They must first find a government 
agency sponsor before they can register with the Ministry of Civil 
Affairs. NGOs must have more than 50 individual members--a catch-22 
situation since hosting such large gatherings without a license can 
lead to official persecution. This means that groups that do not have 
adequate government ties have no hope of meeting legal requirements to 
register. The financial requirement of $12,000 makes it difficult for 
many nascent, cash-strapped organizations to register. Moreover, 
sponsoring agencies and the Ministry of Civil Affairs can refuse 
applications without cause or recourse.
    The government closely scrutinizes NGOs working in areas that might 
challenge its authority or have implications for social stability, such 
as groups focused on human rights and discrimination. It is more 
amenable to groups that it sees as supporting social welfare efforts 
rather than operating in a political role. In this context, some NGOs 
are able to develop their own agendas and, in some cases, even 
undertake limited advocacy roles in public interest areas like women's 
issues, the environment, health, and consumer rights.
    The Chinese Government studied the role that NGOs ostensibly played 
in the ``color revolutions'' and ordered an investigation into the 
activities of both foreign and domestic NGOs in China. The government 
also established a task force to monitor the activities of NGOs, 
especially those with links overseas.
    In Venezuela, the leadership of the electoral watchdog NGO, Sumate, 
awaits trial on charges of conspiracy and treason for accepting a 
$31,150 grant from the NED for voter education and outreach activities 
consistent with the International Covenant on Civil and Political 
Rights. While Sumate is the most well known target of harassment by the 
Venezuelan Government, it is not alone. The government continues to 
restrict the ability of NGOs to conduct their activities and to cut off 
sources of international support for their work.
    In May 2005, Eritrea issued an NGO Administration Proclamation that 
imposes taxes on aid, restricts NGOS to relief and rehabilitation work, 
increases reporting requirements for foreign and local organizations 
and limits international agencies from directly funding local NGOs. All 
NGOs must meet demanding annual registration requirements. The few 
local NGOs that are allowed to register also face new funding barriers. 
In a televised speech last November, Eritrean President, Isaias 
Afwerki, stated, ``In many cases, spy agencies of big and powerful 
countries use NGOs as smokescreens.'' In March 2006, in the midst of a 
devastating drought, Eritrea expelled the United States-based 
humanitarian NGO Mercy Corps, the Irish NGO Concern, and the British 
NGO Accord.
    In March 2005, the Ethiopian Government expelled MI, NDI, and IFES 
shortly after their arrival in advance of the May national legislative 
and regional council elections. The three organizations had never 
before been expelled from any country. They had made numerous attempts 
to register with the government. The government cited ``technical 
difficulties related to their accreditation and registration'' as 
reasons for the expulsions.
    Blatantly disregarding the welfare of its people, the concerns of 
its neighbors, and the call of the United Nations, the regime in Burma 
has not eased, it has increased, restrictions on U.N. agencies and 
international NGOs doing humanitarian work in Burma, particularly in 
ethnic areas. For example, Medecins Sans Frontieres was forced to close 
its French Section that was responsible for programs in the conflict-
ridden Mon and Karen states. As the manager of the French Section put 
it, ``It appears the Burmese authorities do not want anyone to witness 
the abuses they are committing against their own people.''
    The cases I mentioned are only a few examples what I call rule by 
law--of governments seeking to control, restrict, or shut down the work 
of NGOs by appropriating the language of law and the instruments and 
institutions of democracy.
    When states wield the law as a political weapon or an instrument of 
repression against NGOs, they rule by law rather than upholding the 
rule of law. The rule of law acts as a check on state power; it is a 
system designed to protect the human rights of the individual against 
the power of the state. In contrast, rule by law can be an abuse of 
power--the manipulation of the law, the judicial system and other 
governmental bodies to maintain the power of the rulers over the ruled.
    To suppress the work of NGOs, states also employ more blatant forms 
of persecution.
    Since the uprising and violent suppression in Andijan, Uzbekistan, 
in May 2005, the government has harassed, beaten, and jailed dozens of 
human rights activists and independent journalists, sentenced numerous 
people to prison following trials that did not meet international 
standards, and forced many domestic and international NGOs to close, 
including Freedom House. Those that continue to operate are severely 
restricted. Local NGO employees have been convicted of criminal 
offenses for their work, making it virtually impossible for them to 
find other jobs.
    The Sudanese Government's obstruction of humanitarian assistance 
and support for civil society has severely hampered relief efforts in 
Darfur. Domestic and international NGOs and humanitarian organizations 
are constantly harassed and overburdened with paperwork. The Sudanese 
Government has expelled international NGO and humanitarian personnel, 
delayed their visas, and placed restrictions on their travel inside 
Darfur. Sudanese police and security forces have arrested, threatened, 
and physically harmed NGO and humanitarian workers. In April 2006, the 
Sudanese Government expelled the Norwegian Refugee Council from Kalma 
Camp, the largest internally displaced persons camp in Darfur with over 
90,000 internally displaced persons. Prior to its expulsion, the 
Norwegian Refugee Council had served for 2 years as the Kalma ``camp 
coordinator,'' in charge of coordinating all humanitarian programs and 
protection for the camp's residents and serving as a liaison for 
community leaders, government officials, humanitarian agencies, and 
African Union peacekeepers. On May 31, the South Darfur State Security 
Committee approved an agreement allowing the Council to return as camp 
coordinator. Nevertheless, Sudanese Government obstructionism caused 
Darfur's largest IDP camp to go without a camp coordinator for 2 
months, during which time insecurity and tension rose.
    The last remaining civil society discussion group in Syria, the 
Jamal al-Atassi Forum, has been prevented from meeting for almost a 
year and many of its members have been arrested or intimidated into 
silence. The forum is a predominantly secular group encouraging dialog 
among political parties and civil society to promote reform.
    We are concerned that the situation in Egypt for politically active 
NGOs is deteriorating. For example, last week, Egyptian civil society 
activists Mohammed el-Sharkawi and Karim Shaer were beaten and arrested 
for participating in demonstrations in support of the independence of 
the judiciary. Reportedly, they were subsequently tortured while in 
custody and denied medical treatment. International democracy NGOs 
active in Egypt are also facing increasing government pressure.
    what we and other democracies can do to defend and support ngos
    Mr. Chairman, in today's world, the problems confronting states are 
too complex, even for the most powerful states to tackle alone. The 
contributions of NGOs are crucial in addressing a host of domestic and 
international challenges. Restricting the political space of NGOs only 
limits a society's own political and economic growth. A strong nation 
fosters the development of NGOs and other elements of a vibrant civil 
society; a state that tries to control everything from the center 
becomes brittle. A society that allows broad participation by its 
citizens in national life is a society that will flourish from the 
contributions of its own people.
    When NGOs are under siege, freedom and democracy are undermined.
    How then can we best support and defend the work of NGOs in 
countries across the globe?
    The United States must continue to stand up for what President Bush 
calls ``the nonnegotiable demands of human dignity,'' and that includes 
the exercise by individuals of their rights to freedom of expression, 
association, and assembly through their membership in NGOs.
    As we monitor and report on conditions for human rights and 
democracy in countries worldwide, we in DRL, our posts overseas, and 
the State Department, generally, must sharpen our focus on the 
increasing pressures governments are putting on NGOs. We must think 
creatively about how we might help to open political space for NGOs and 
create opportunities for NGOs and their governments to exchange views 
in an honest and constructive manner. We must ensure that a 
government's treatment of NGOs is an element in our bilateral dialog 
and that it factors into the decisions we make on developing our 
bilateral relationships.
    Mr. Chairman, we need to defend human rights and democracy 
promotion. To do so, we need to defend the defenders. In short, we need 
to push back. Let me suggest seven ways:

  <bullet> First, we need to speak out.

    We must be prepared to counter what I call the NGO ``Legal 
Equivalency'' argument made by governments that unduly restrict NGOs, 
namely that since all countries regulate NGO activity in some fashion, 
criticism is unwarranted. For example, there is a difference between 
giving NGOs the opportunity to register for nontax status, and 
demanding that NGOs register to simply function. Most countries, 
including ours, only require notification of registration, not 
permission from authorities, in order to operate as a formal, legal 
entity.
    We must not succumb to arguments that the prime reason that 
governments which impose burdensome registration and other reporting 
requirements on NGOs is to combat terrorism or other criminal behavior. 
All governments have a responsibility to protect their populations from 
acts of terrorism and crime, and it is of course appropriate to subject 
NGOs to the same laws and requirements generally applicable to all 
individuals and organizations. At the end of day, however, a burdensome 
registration and reporting process is unlikely to sway determined 
terrorist organizations, but very likely to weaken legitimate NGOs.
    We must counter false charges that U.S. activities tied to NGOs are 
led covertly by the United States and other democracies. We must 
reiterate that our support is out in the open and that thousands of 
NGOs never even approach our Government. And when they do, it is more 
likely than not that they are pressing us on our own behavior, or on 
individual cases, and not soliciting funding.

  <bullet> Second, we need to ensure that NGO protection is an integral 
        part of our diplomacy.

    We must highlight the protection of NGOs as a legitimate issue on 
our government-to-government agenda. This spring, when Russian Foreign 
Minister Lavrov came to Washington, Secretary Rice had an extensive 
discussion with him on our NGO concerns, a discussion in which I 
participated. The Secretary raises our concerns in her bilateral 
meetings, as do I and many of my colleagues at the State Department. 
When I travel, I insist on seeing NGO representatives, as does the 
Secretary.
    We must also continue to multiply our voices. Time and again NGOs 
have told me that their work would be further protected if others would 
join us. Russian NGOs were heartened that, just prior to my arrival in 
Moscow in January, German Chancellor Merkel paid an official visit and 
not only spoke out in defense of NGOs but met with them to hear first-
hand their concerns. In the case of China, my Bureau has taken the 
initiative to develop a coordinated approach among all members of the 
so-called Bern process--the process that brings together all countries 
which have human rights dialogs with China. We meet twice yearly, to 
exchange lists of political prisoners, to compare best practices, and 
to monitor Chinese behavior toward NGOs.

  <bullet> Third, we must expand the role of regional organizations in 
        protecting NGOs.

    Acting in defense and support of NGOs on a bilateral basis is 
essential, but it is not sufficient. NGOs are a global phenomenon; they 
are facing pressures in countries in every region. I believe that there 
is greater scope for us to partner with leading regional democracies 
and to work with regional organizations to defend and support the work 
of NGOs.
    The OSCE and the European Union have adopted some of the most 
advanced provisions regarding the role and rights of NGOs, as well as 
guidelines on how they can interact and participate in OSCE and 
European Union activities.
    In the OSCE context, the role of NGOs in pressing for adherence to 
democratic standards and practices including monitoring elections 
remains vital. We will do all we can to ensure that the defense and 
promotion of human rights and democratic principles remain central to 
OSCE's mandate.
    Every quarter I hold consultations with the European Union on a 
host of human rights and democracy issues worldwide. These 
consultations are also a good vehicle to take up the cause of NGO 
protection.
    The OAS has formal structures for NGO participation and Secretary 
General Insulza has said that he seeks greater engagement by civil 
society organizations. Last month, I held a roundtable with a diverse 
group of NGOs from Latin America. The NGOs were in Washington to attend 
an OAS ministerial. We intend to build on that dialog through the OAS 
and among the NGOs themselves as they press for implementation of the 
OAS Democratic Charter.
    NGO engagement with the African Union remains limited. However, 
prior to the African Union Heads of State Summit July 1-2 in Banjul, 
the Australian Union will host a Civil Society Forum and a Women's 
Forum. Later this year I hope to travel to Addis Ababa to meet with the 
Australian Union and place protection of NGOs on our agenda.
    ASEAN has formal guidelines for NGO participation in its 
activities. To date, the NGOs affiliated with ASEAN do not tend to have 
a democracy or human rights focus, but operate in other fields such as 
business and medicine. ASEAN's recent steps to press the regime in 
Burma is an encouraging sign that countries in the region are beginning 
to recognize that the protection of human rights, and of human rights 
defenders, is a legitimate issue, and not one to be dismissed as 
interference in the sovereignty of its neighbors. We will encourage 
ASEAN to take further steps on this path.

  <bullet> Fourth, we must maximize global opportunities to raise 
        concerns about the treatment of NGOs and take coordinated 
        action in their defense.

    We will work to that end with like-minded members of the new U.N. 
Human Rights Council. I would note that in negotiating the creation of 
the Council, the United States successfully insisted that NGOs must 
retain the same access to the new body that they had to its 
predecessor.
    The U.N. Democracy Fund, proposed by President Bush in September 
2004 and launched in September 2005, is another important instrument 
for supporting NGOs. The Fund will support projects implemented by NGOs 
as well as governmental and multilateral entities. Recognizing the 
important contributions that NGOs make, the designers of the Democracy 
Fund ensured that 2 of the 17 members of the fund's advisory board are 
NGO representatives. To date, 19 countries have contributed or pledged 
approximately $50 million to this voluntary fund. The United States has 
contributed $17.9 million to date, and the President's budget has 
requested an additional $10 million to support the fund in fiscal year 
2007. We have successfully pushed for the fund to focus on support for 
NGOs and other elements of civil society in states transitioning to 
democracy, complementing existing U.N. programs on free and fair 
elections and the rule of law.
    The Community of Democracies and the collective action of its 
members can be an important focal point within the international 
community and international organizations in helping sustain and 
protect NGOs across the globe. The time has come to institutionalize 
the community itself, and to use its members to press for fundamental 
freedoms, including with regard to the protection of NGOs.

  <bullet> Fifth, we must protect and nurture new organizations that 
        allow NGOs to flourish.

    Here, let me single out the Middle East. The Forum for the Future 
was established in the summer of 2004 at the G-8 Summit in Sea Island, 
Georgia. In partnership with the countries of the broader Middle East 
and North Africa, the Forum seeks to advance political, economic, and 
educational reforms in the region. From its inception, we have pressed 
for inclusion of NGOs indigenous to the Middle East. At the first 
meeting of the Forum in Rabat, in December 2004, there were five NGOs. 
By the time I accompanied Secretary Rice to the second meeting, held in 
Bahrain a year later, the 5 had grown to 40. At the conference, leaders 
of these NGOs participated, pressing an agenda of political reform, 
economic opportunity, educational advancement, and gender equality.
    Among those serving on this civil society delegation in Bahrain 
were representatives from the Democracy Assistance Dialogue (DAD)--a 
dialog led by Italy, Turkey, and Yemen, as well as three NGOS from each 
country. The DAD presented the outcomes of discussions and debates held 
over the course of the year between civil society leaders and their 
government counterparts. The growing DAD network includes hundreds of 
civil society leaders from the region. The level and depth of civil 
society participation at the forum was historic and positive, and has 
set an important precedent for genuine dialog and partnership between 
civil society and governments on reform issues.
    At Bahrain, all the participating countries agreed to establish a 
Foundation for the Future to help fund NGO activity. We did not agree 
on a Bahrain declaration of principles, however, because a number of 
countries wanted to include in that declaration language to constrain 
NGOs. In the end, the United Kingdom as G-8 cosponsor that year, 
supported by us and others--walked away from the declaration. Our 
reason was simple: We could not cripple in the afternoon what we had 
created in the morning. I applaud the host of the next forum, Jordan, 
for its unwavering commitment to a continued robust role for NGOs. We 
are already acting in concert with the Jordanian Government and others 
to ensure that the NGO presence grows for the meeting this December.

  <bullet> Sixth, we must ensure that NGOs have the resources they need 
        to carry out their vital work.

    Many NGOs look to a variety of funding sources, both government and 
private, to ensure a diverse support base. Many of them never approach 
the U.S. Government for any funding at all.
    A number of private, grant-making foundations specialize in 
supporting the work of other nongovernmental organizations, and here I 
cite the MacArthur Foundation, the Ford Foundation, the Open Society 
Institute, and other well-known foundations. Organizations such as the 
independent, nonprofit Pew Charitable Trusts, the International Crisis 
Group, the Carnegie Endowment for International Peace and its Moscow 
Center often fund or produce reports on topics which contribute to 
public policy discourse on the development of civil society, conflict 
prevention and management, and other goals compatible with advancing 
freedom and democracy. We must continue to encourage more private 
sector support.
    We, in government, can often provide the needed seed money for 
democracy promotion programs, or assistance to maintain ongoing 
programs. This is a dynamic process that adjusts to new demands, 
shifting priorities, and different emphases. We must continue to seek 
out innovative solutions that merit our support, for example, programs 
that monitor and publicize attacks on NGOs, much as the MacArthur 
Foundation, has funded the Berkman Center at Harvard University to 
monitor worldwide constraints on Internet freedom.
    I also want to express my appreciation to the Congress for its 
support of the Human Rights and Democracy Fund, a program managed by my 
Bureau. I call it the ``venture capital'' of democracy promotion for it 
gives us the flexibility to support innovative programming by NGOs 
targeted at key countries and issues. We are able to make hundreds of 
grants a year to organizations around the world addressing vital 
democracy and human rights issues.
    All free nations have a stake in the strengthening of civil 
societies and the spread of democratic government worldwide, and we 
welcome and encourage contributions from other donor countries and 
institutions in support of the work of NGOs.

  <bullet> Seventh, we should consider elaborating some guiding 
        principles by which we, as a country, would assess the behavior 
        of other governments toward NGOs, and which we would take into 
        account in our bilateral relationships.

    I would welcome consulting with Congress on the drafting of these 
principles. I would envision a short list of principles--no more than a 
page. They would be user-friendly in nonlegalistic language. The 
principles would proceed from the premise that NGOs, as elements of a 
vibrant civil society, are essential to the development and success of 
free societies and that they play a vital role in ensuring accountable, 
democratic government. The principles should pass the ``reasonableness 
test'' in any open society. We would pledge our own adherence to the 
principles and we would of course encourage their embrace by other 
countries as well.
    I do not see these principles as being duplicative of other 
efforts. The best word is still the plainspoken word, and in 
plainspoken words, these principles would distill the basic commitments 
to the rights to freedom of expression, association, and assembly 
enshrined in such documents as: the U.N. Universal Declaration on Human 
Rights and other international documents such as the International 
Covenant on Civil and Political Rights, relevant International Labor 
Organization Conventions, the Helsinki Final Act, and subsequent OSCE 
Copenhagen and Moscow documents, and the European Convention on Human 
Rights and relevant documents of the Council of Europe.
    Among the possible principles we could elaborate could be:

  <bullet> That an individual should be permitted to form, join, and 
        participate in NGOs of his or her choosing in peaceful exercise 
        of his or her rights to freedom of expression and assembly.
  <bullet> That any restrictions which may be placed on the exercise of 
        the rights to freedom of expression and assembly must be 
        consistent with international law.
  <bullet> That governments will not take actions that prevent NGOs 
        from carrying out their peaceful work without fear of 
        persecution, intimidation, or discrimination.
  <bullet> That laws, administrative measures, regulations, and 
        procedures governing or affecting NGOs should protect--not 
        impede--their operation, and that they should never be 
        established or enforced for politically motivated purposes.
  <bullet> That NGOs, like all other elements of a vibrant civil 
        society, should be permitted to seek and receive financial 
        support from domestic, foreign, and international entities.
  <bullet> And, perhaps the most important principle of all, that 
        whenever NGOs are under siege, it is imperative that democratic 
        nations act to defend their rights.

    Mr. Chairman, members of the committee, in closing I cannot 
emphasize enough the value of the continued active involvement of this 
committee and of other Members of Congress in the worldwide defense and 
support of the work of NGOs. It greatly strengthens my hand when I meet 
with foreign officials, to know that I have your strong bipartisan 
backing. It is profoundly important that you continue to demonstrate 
your support for NGOs and raise concerns about their treatment to 
foreign governments. And any efforts you could make to encourage your 
counterparts in the legislatures of other democracies to press these 
issues and to work in concert on them would be extraordinarily helpful.
    As President Bush has said, ``Freedom, by its nature, must be 
chosen, and defended by citizens, and sustained by the rule of law and 
the protection of minorities . . . America will not impose our own 
style of government on the unwilling. Our goal, instead, is to help 
others find their own voice, attain their own freedom, and make their 
own way.''
    By America's leadership in supporting and defending the work of 
NGOs, that is exactly what we are doing--helping men and women across 
the globe shape their own destinies in freedom, and by so doing, 
helping to build a safer, better world for us all.
    Thank you.

    The Chairman. Well, thank you very much, Secretary 
Lowenkron.
    I want to commence a round of questions. We will have a 10-
minute limit in our first round. And I would like to begin by 
asking a broad question. How does the Department of State 
monitor the effectiveness of NGO promotion programs? Can you 
give us some idea of what you believe are the criteria for 
success based upon this administration's objectives in 
conducting democracy-promotion programs? How do you measure 
that overall success? What part do NGOs play in this or, 
ideally, what part should they play?
    Mr. Lowenkron. Mr. Chairman, we measure it in two ways. 
First, when we select the NGOs that we fund, which is generally 
through an open competition, our tendency is to favor those 
NGOs that have counterparts in host countries. We want to fund 
work on the ground. So, there is a tendency for funding a more 
active agenda, more active work on the part of NGOs.
    We also get quarterly reports from many of these NGOs. It 
is a constant give and take. So, we measure when we launch 
these programs and when we review these programs.
    In terms of the output at the end of the day, we take a 
look at such issues as is civil society now growing in 
countries where it had not been. So, for example, working with 
NDI, have we been able to establish a string, a web of local 
NGOs throughout Iraq or with other NGOs in Afghanistan? We look 
at electoral results, not in terms of who won or who lost, 
because we are not here to pick winners or losers. But in terms 
of--is there a level playing field, are there sufficient 
observers of elections, is the press free, is it free from 
intimidation? These are standards that we can measure, working 
closing not only with the NGOs but certainly with our embassies 
overseas.
    The Chairman. You have touched upon this but can you 
describe what the extent of democracy assistance may be from 
other international donors, other countries, or other 
international organizations? To what extent are the efforts of 
the United States supplemented in the international community?
    Mr. Lowenkron. Let me say that I have been heartened by the 
fact that every year more of our allies, as well as regional 
organizations that we partner with, are willing to partner with 
us and to advance democracy promotion. Let me give you several 
examples.
    India joined with the United States. The Indian Prime 
Minister and our President both made significant contributions 
at the launching of the U.N. Democracy Fund earlier last year--
I believe it was in September of 2005.
    I have quarterly meetings, video conferences with my 
counterparts in the European Union. And in it, we actually do a 
whole tour of global issues, human rights, and democracy 
concerns in every continent. And we discuss our strategies, we 
discuss our commitments, we discuss the resources that we put 
out in the field.
    We have cooperated very closely with the European Union to 
try to deal with a reprehensible state of affairs in Belarus. 
That is another example.
    We also work very closely to encourage cooperation across 
the globe among nongovernmental organizations. So, for example, 
the nongovernmental organizations that were instrumental in the 
success of the Community of Democracies meeting in Santiago, 
Chile, are now working with NGOs in Mali in order to help them 
as they host the Community of Democracies meeting in 2007.
    So, we have a whole range of cooperative efforts, two in 
particular that I am excited about. One is that we are 
beginning to develop relationships with NGOs through the OAS. 
The OAS General Secretary wants to see the OAS bring Latin 
American NGOs more into the mainstream of democracy promotion. 
I have met with these individuals and I am going to develop a 
very good relationship, not only with the groups, but we will 
also work through the OAS.
    And second, we also want to develop a strategic 
relationship with the African Union, which is now taking steps 
on issues of governments and democracy in the African 
continent.
    The Chairman. I know that the assistance programs are 
spread among various accounts in the State Department, as well 
as the USAID, and grants specifically to groups such as the 
National Endowment for Democracy, the ASEAN Foundation. How 
much money is the United States spending governmentally? Can 
you get your arms around that with a democracy programs total? 
And to what extent are all of these accounts coordinated in 
your Branch or somewhere else in our Government?
    Mr. Lowenkron. Well, in the aggregate, Senator, the total 
is roughly $1.4 billion in democracy promotion.
    The Chairman. Each year.
    Mr. Lowenkron. Yes. Well, this is the current level.
    The Chairman. Current level.
    Mr. Lowenkron. The trends have been going up. This year, we 
are programming roughly $90 million to support the work of 
nongovernmental organizations, excluding the money that we 
administer for programs in Iraq. About $600 million--$650 
million comes from USAID, and the rest from various programs 
like the Middle East Partnership Initiative and the Freedom 
Support Act.
    In terms of getting our arms around it below the aggregate 
number, this was central to the Secretary of State's decision 
to bring together the various elements of democracy promotion 
and development under the structure under Ambassador Tobias. 
The Secretary's view--I have had a number of conversations with 
her--is that we need to ensure that when democracy funds go to 
any country, any region, we need to know how they are allocated 
in terms of electoral issues, in support of NGOs, in terms of 
governments, as well as development issues. I want a 
comprehensive look because we have to make sure that we 
maximize the return on our investment in democracy promotion.
    The Chairman. Obviously, in instances where the governments 
unfriendly to the United States are involved, your reaction 
might be one course, but how do you handle in a friendly, even-
handed way the approach to democracy when you are dealing with 
autocratic governments that are friendly to our country? This 
is constantly before us in one form or another and has been for 
decades. But in the current situation, what is your general 
view of how to move in those cases?
    Mr. Lowenkron. Thank you for asking that question. When I 
started with the Government at the U.S. Information Agency, the 
bureau that I now head had just been created. And these issues 
have been with us, as you said, for decades. My view is clear 
that we have a voice and a vote at the table on all foreign 
policy issues; the Secretary has ensured that. I meet with her 
on a regular basis.
    When we come to the table, we come with our concerns about 
human rights issues, democracy concerns. Others come with the 
other elements to the table. So, for example, there are issues 
of combating the spread of weapons of mass destruction. There 
are issues involving terrorism. There are regional issues in 
the context of dealing with Iran or the Israeli-Palestinian 
issue. All of these have to be factored into the equation as we 
proceed.
    At times, there will be a focus more on one part of the 
foreign policy than the other. But the Secretary of State has 
made it clear we need to speak out, we need to be active, we 
need to support the human rights defendants.
    The one issue that we have been heavily involved in is 
Egypt. It is clear that there is a movement in Egypt, a good 
movement, that is showing progress on economic reform but not 
on political reform. And as we are pushing, as we are 
supporting the nongovernmental organizations in Egypt, as we 
are trying to create open space, there is push-back from 
President Mubarak.
    What we need to do is to continue our conversations with 
President Mubarak while, at the same time, reaching out and 
protecting nongovernmental organizations. And this is 
replicated with other countries, as well. It is a constant 
debate, a tug of war--from in the State Department, as well as 
in the administration. I could cite other examples, as well.
    The Chairman. Well, one other example that you mentioned--
Egypt was current--would be Pakistan. We have had meetings with 
our Foreign Relations Committee members with President 
Musharraf during his visits. Clearly, his situation is one in 
which there is not a great base of constituent support without 
getting into all the details with Pakistan.
    Whether one is looking at the military or President 
Musharraf or whoever else, a broad number of Pakistanis maybe 
are not given an opportunity to vote for any of the above. Yet 
at the same time, President Musharraf would argue with, I am 
sure, the President of the United States, or with our Secretary 
of State, or with us in the committee, that we do not 
understand security dilemmas, or how tenuous sometimes just 
control, everyone's control, may be at a time when NATO allies 
are working close by in Afghanistan. We certainly have great 
hopes for continuity of civil government in Pakistan itself.
    How do you begin work with a case like that one?
    Mr. Lowenkron. What we do is not accept the either/or 
argument that some people want to--that we hear from some 
foreign leaders and officials. So, it means that even as we 
work with the Pakistani Government in the war on terror, even 
as we work with them, along with India, to develop new 
relations on the subcontinent, we also have to focus on 
democracy promotion. And I would put it in kind of five broad 
categories.
    First, it is the issue of governance. It is working with 
President Musharraf to try to open up the political arena so 
that you can have the evolution of governmental institutions, 
which still are weak.
    Second, I think we need to work with the political parties. 
You are absolutely right that the political parties themselves 
have been in a tug of war with each other and with President 
Musharraf. But we need to work with them even at the grassroots 
level, to try to look at new leadership, emerging leadership. 
This is not going to happen overnight but we need to be able to 
foster political party development in Pakistan.
    Third, we need to focus on the elections that are coming up 
in 2007. We need to work as hard as we can to ensure that those 
elections are credible, that they meet our standards for fair 
elections.
    Fourth, we need to ensure that NGOs can operate in 
Pakistan, so they can support the electoral process, as well as 
the government's process.
    And fifth, we need to recognize that the issue of 
governments and the issue of democracy cannot be pursued unless 
there is also an opening economically, as well. You cannot have 
economic reform in Pakistan without political reform; they have 
to go hand in hand.
    So, it is a difficult road but it is a multilayered 
approach that we need to pursue. We cannot focus solely on one 
of those elements.
    The Chairman. Thank you.
    Senator Martinez, do you have questions of our witness?
    Senator Martinez. Thank you, Mr. Chairman.
    I wonder if you can touch on the issue of--I was very 
interested in knowing that you are working with the OAS in the 
Latin American region. I am very concerned about, of course, 
the ever-decreasing space in the supposedly democratic-elected 
Government of Venezuela and the work of Sumate, which the 
chairman pointed out has been so important but also so under 
siege.
    And I am just wondering how--if you could outline for us, 
perhaps, what the challenges are that you face in a situation 
like Venezuela where, under the aura of a democratic election, 
a government functions increasingly autocratically. And of 
course, there are elections upcoming this year. So, it is also 
of interest to me whether or not there is anything we can 
effectively do to assist the electoral process to ensure that 
it is a fair and open electoral process.
    Mr. Lowenkron. Senator, Venezuela is an example, as the 
Secretary has put it, of a country where you can win 
democratically but you don't govern democratically. When you go 
region to region, country to country, there are different 
challenges. That is the challenge in Venezuela, the erosion of 
liberties, the evisceration of the free press, the weakening of 
the judiciary, and, of course, Sumate and others who are being 
hounded by the Venezuelan Government for trying to exercise 
their basic freedoms.
    We need to respond in several ways. I think first we need 
to stand by Sumate and we need to stand by these NGOs. The fact 
that a trial date has not been set does not mean that they are 
out of the woods. And even if at the end of the day the charges 
are dropped, there is no indication they will be, but even if 
they are dropped, the fact of the matter is that Chavez wins if 
NGOs have to spend all their time, their energy, and resources 
defending themselves as opposed to defending the rights of the 
Venezuelan people.
    Second, we need to work with our allies and we need to work 
with the OAS. I have been heartened by the fact that over the 
last several months, a number of countries in Latin America, 
Brazil, and others, have now spoken up, spoken up against what 
Chavez is doing. And it is not just the issue of whether or not 
we should expropriate businesses. It is the issue of whether 
Latin America wants to turn the clock back 30 years and engage 
in Chavez's definition of Bolivarian democracy, or whether 
Latin American wants to continue in the trajectory, the 
positive trajectory that we have had in the last 20 years.
    They are pushing back and we need to work with them. We 
need to support those voices and we also need to work with the 
OAS. And there is a democratic charter that was signed by the 
OAS members. And what the OAS General Secretary Insulza wants 
to do now is to ensure that governments live up to that charter 
and that NGOs play a role in defense of that charter.
    I would just note in passing that the Venezuelan Government 
has tried to undermine the ability of NGOs to even register to 
work in the OAS context. So, I see it both in terms of 
supporting the NGOs through our own NGOs but also working with 
OAS and other countries.
    Senator Martinez. Well, to that point, I appreciate your 
answer. It was very complete and confirms, you know, what I 
perceived to be the situation there. But at the same time, I 
wonder if not here, then how could we ever be successful in 
terms of highlighting the need for there to be a fair and open 
election? I understand the election is in December. If, in 
fact, there is an electoral commission that is rigged, as it 
appears there is, is there a possibility that through the work 
of NGOs, through the work of, frankly, your portfolio at the 
State Department, that we can create a conscience in the region 
and the world that this election must be fair and open to all 
comers, and that there must be not only the opportunity to go 
cast a ballot and that--that ballot was fairly counted, but 
also in the lead-up to the election that there be the 
opportunity for there to be free expression, for there to be 
the opportunity to organize political parties and to, you 
know--with opposition people rallying around one candidate, 
which is a good thing.
    I would also point out, by the way, that turning the clock 
back 30 years apparently was rejected by the people of Peru 
this week, you know.
    Mr. Lowenkron. Absolutely.
    Senator Martinez. And I do believe that interference as 
now-President-elect Garcia pointed out, imperialism does not 
always come from just one big country to the north but it can 
come from neighbors.
    Mr. Lowenkron. Absolutely.
    Senator Martinez. Anyway, if you could comment on the 
upcoming election, specifically, and what we might be able to 
do to uphold the charter of the OAS on democracy, but also the 
very specific yearning ones have to have an opportunity to 
participate in a fair and open process.
    Mr. Lowenkron. Senator, I appreciate that question because 
it is not just in the context of Venezuela. But every day we 
get questions about, well, was not this election free and fair. 
And there are two elements in a free and fair election. It is 
not just what happens on election day. It is what happens in 
the run up to the election. Can you compete on a level playing 
field, which we do not have in Venezuela.
    What we, our allies, and the NGOs need to do now is focus 
on terms, and continue to focus on the electoral commission. We 
need to focus on whether the opposition party, or the 
opposition candidate, or the opposition in general, can get 
access to media? Can they campaign short of--without violence, 
without intimidation, without harassment, without lawsuits? Can 
they have a clear playing field, a level playing field?
    The Venezuelan Government had a rigged election for their 
senate, about 15 percent of the vote. And now they have an 
upper chamber. This is the kind of phony democratic practice 
that they have, which is then supposed to be presented to the 
world to say: See, we had an honest election.
    So, we need to highlight it every single step of the way 
because, at the end of the day, if it is an uneven playing 
field, and at the end of the day Chavez and his party, if they 
do win, that was not a free and fair election.
    Senator Martinez. There are other countries in which the 
political system does not even permit the opportunity for 
dissent. I think it is located in this study or this--and I 
presume it might be appropriate to ask about this. But in those 
entities where the democracy assistance and independent NGOs 
are effectively prohibited, I guess that is how they are 
described, what opportunity do we have? And I know in places 
like Cuba and Zimbabwe, that perhaps we already do work with 
some existing NGOs that seek to further the space that may be 
available to dissident movements. What can you tell us about 
those situations?
    Mr. Lowenkron. Well, if I could just briefly focus on three 
examples.
    First in Cuba--in Cuba we have our mission. Our mission is 
contact with the members--with the family members of those 
dissidents who are still in prison from the crackdown in 2003. 
And we will make it clear--clear to the Cuban authorities--that 
we will continue to reach out and to provide support to the 
family members. We will also engage in a dialog with others who 
want to step forward and who want to press for their basic 
rights in Cuba.
    We will also partner with other countries, the Czechs, for 
example. The Czech Republic has done great work reaching out to 
the Cuban dissident community. Several of them were even 
expelled by Castro. So, we need to focus on it in terms of our 
mission and in terms of our close allies and partners. And we 
need to keep this front and center.
    I, for one, do not believe that we can just wait it out, 
wait for some sort of ultimate change, for the biological clock 
to solve this problem, because I am concerned for the fate of 
those roughly 60 leaders of the dissident community that are 
still in prison.
    Let me give you another example; that is in Burma. We 
support programs in Burma, in the refugee camps in northern 
Thailand with the Burmese community. We provide them 
assistance. They are also a valuable conduit for information 
that comes out of Burma.
    We also work with the United Nations. I just met with 
Secretary General Annan's special envoy, Gambari, who just came 
back and, to our relief, actually got to see Aung San Suu Ky. 
But the fact of the matter is that they extended her house 
arrest and they are nowhere nearer to starting a national 
reconciliation and dialog that we need.
    We used our mission in Burma, but we used our programming 
outside of Burma. And we also work with the regional countries, 
with the ASEAN members, and also with the European Union to try 
to have an effective unified voice against the Burmese regime.
    And just briefly, the third example is Uzbekistan, where 
virtually all the NGOs were thrown out. What we do is we try to 
set up a regional base outside of Uzbekistan to try to 
coordinate the efforts to help those that are in prison in 
Uzbekistan itself.
    Senator Martinez. Thank you very much.
    Mr. Lowenkron. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Martinez.
    We have been joined by our distinguished ranking member, 
Senator Biden. And I will call upon him for his opening 
statement.
    Senator Biden. Mr. Chairman, I will just go to questions, 
if I may, and ask unanimous consent for my statement to be 
entered in the record.
    The Chairman. It will be placed in the record in full.
    Senator Biden. Mr. Secretary, I apologize for not being 
here for your statement. Let me ask you a couple questions as 
rapidly as I can.
    You are Secretary of Democracy, Human Rights and Labor. 
Prior to the fall of the wall, American labor unions played a 
major role, particularly in Poland. How do we promote labor 
rights in various countries we are engaged with now? And to 
what extent is there a coordination with and/or conversations 
with the AFL-CIO's efforts along these lines?
    Mr. Lowenkron. Senator, I do not believe you can have 
democracy unless you have a voice for labor. And we work with 
the Solidarity Center. In my view, the labor had a great 
success story. And there is a great story in Central and 
Eastern Europe. We need to replicate that elsewhere around the 
globe. We need to replicate that in Africa, in Latin America, 
in parts of Asia. We will ensure funding for the Solidarity 
Center and labor-related programs.
    My Deputy Assistant Secretary, Jeff Krilla, is in Geneva 
now with Secretary Chow, to talk about labor issues in the U.N. 
context. I think there is a lot of work we need to do in the 
context of labor but also in the context of having labor 
officers tackle corporate social responsibility, as well.
    Senator Biden. But how much encouragement is there? I do 
not hear much about the trade union movement being promoted in 
the countries you mentioned. Maybe you could tell me what tools 
you are using. Do you feel part of the responsibility of your 
is office to promote the growth of trade unions in the 
countries in question? And if so, what are you doing to do it? 
What tools are you using?
    Mr. Lowenkron. Well, when I mentioned labor, it was in the 
context of the right of the force to organization themselves as 
fully independent trade unions. And it is in that context that 
we fund programs in parts of the world to focus on creating, 
nurturing, and sustaining labor union movements.
    Senator Biden. Well, to the extent you can submit for the 
record those programs that----
    Mr. Lowenkron. Yes, sir.
    Senator Biden [continuing]. You are funding specifically to 
accommodate that. We have a whole lot of assistance programs 
that are spread across a number of accounts--the State 
Department, USAID, Departments of Defense and Justice, as well 
as through funding grants to organizations like the National 
Endowment for Democracy and the ASEAN Foundation. Is there a 
need for improvement in the coordination of these various 
programs?
    I think you have a pretty tough job. No one seems to be in 
charge in the sense of much coordination. That is not a 
criticism, but an observation.
    Would we get more bang for the buck if the programs were 
more coordinated? Or maybe there is more coordination than I 
think. Could you speak to that?
    Mr. Lowenkron. Yes. Yes, Senator. We need to get more bang 
for the buck. Early on, we had a conversation with the 
Secretary of State about how democracy is defined and how funds 
are allocated for democracy. I had the same conversation with 
USAID and also with my counterparts within the State 
Department, Freedom Support Act, and the Middle East 
Partnership Initiative. And it is in that context that the 
Secretary has decided on this reorganization to create a 
structure that brings USAID, State, and all the various 
components of State together so we can better coordinate our 
efforts.
    Each one of these organizations--they have comparative 
advantages but there also are overlaps among them. And the way 
we have done that in the past is we have developed democracy 
strategies. I have sat down with my counterparts in the 
regional bureaus, with the National Security Council, with 
USAID, to develop democracy strategies.
    Senator Biden. Is there democracy strategy in Latin America 
and the Caribbean? From 2005 to 2007, political and economic 
instability in Latin America has been particularly high in 
countries such as Haiti, Ecuador, Bolivia, and Peru. And yet, 
during this same period, we have cut funding from $215 million 
to $135 million. Is that part of the strategy?
    Mr. Lowenkron. Senator, I do not have the exact figures 
that go to each of the countries in Latin America.
    Senator Biden. I have the exact figures for the region.
    Mr. Lowenkron. Pardon?
    Senator Biden. I have the exact figures for the region. It 
is down from $215 million to $135 million. Is that part of your 
strategy, to spend less?
    Mr. Lowenkron. No. Part of our strategy is to spend more 
effectively and in a more coordinated fashion.
    Senator Biden. Do you think that is happening?
    Mr. Lowenkron. I do not have the specifics on USAIDs 
budgeting plans, but with fiscal year 2006 funds, my Bureau is 
committed to spend no less than $6 million on democracy and 
human rights initiatives in countries such as Bolivia, Ecuador, 
Guatemala, Peru, Haiti, Venezuela, Nicaragua, and Cuba. Last 
year, we spent $300,000 in the region. Thus, while we realize 
this as a beginning, my Bureau has increased our human rights 
and democracy programming in the region.
    Senator Biden. Well, maybe you could submit for the record, 
what justification there is for cutting money for any country 
in that region. Pick any one country in the entire region that 
is covered by the $135 million--show me how spending less there 
has done more. OK? That would be a good thing.
    With regard to Iran, this administration has requested $75 
million for democracy programs in Iran for fiscal year 2006, in 
the emergency supplemental, which is currently in conference. 
How do you plan to identify these partners inside of Iran? And 
how are you going to go about assessing--and I think you should 
do this--the capacity for this? And has the executive order, 
which currently bans democracy-building activities in Iran been 
withdrawn? Has the President withdrawn that executive order?
    Mr. Lowenkron. Well, in terms of how we go about the issue 
of spending democracy money--and I take it your question is 
there--are there organizations out there? Is there----
    Senator Biden. In Iran.
    Mr. Lowenkron [continuing]. In Iran.
    Senator Biden. Yes.
    Mr. Lowenkron. What we do is, when we submit a statement of 
interest, when we publicize a statement of interest for 
nongovernmental organizations to compete, they come in with 
proposals in which they have counterparts in Iran, either 
individuals or organizations, in Iran. And it is in that 
context that we fund these programs.
    Senator Biden. Are they going to be funded? Has the 
executive order been withdrawn?
    Mr. Lowenkron. Senator, we funded $3 million in democracy 
promotion activity last year.
    Senator Biden. That is not my question. I know we did. My 
question is that you needed a general license to permit 
American nongovernmental organizations to financially support a 
broad range of civil society, cultural, human rights, democracy 
building. Has that ban been lifted?
    Mr. Lowenkron. I am sorry. My apologies. You are talking 
about the OFAC license.
    Senator Biden. Yes.
    Mr. Lowenkron. Yes.
    Senator Biden. That ban is lifted.
    Mr. Lowenkron. Yes. We are now--we have----
    Senator Biden. Good.
    Mr. Lowenkron [continuing]. We have issued statements of 
interest and we are now taking proposals in from NGOs; then we 
can proceed.
    Senator Biden. Let me shift to Mongolia. Mongolia has been 
heralded by many as a success story of democratic development. 
As you know, there is endemic corruption in the country, which 
prevents Mongolia from qualifying for participation in the 
Millennium Challenge Account. And the institutions of 
democratic governments remain pretty weak.
    Now, the administration cut funding for democracy programs 
there, which are different than the millennium challenge 
account, from $10 million to $7.5 million. Is that because they 
could not be effectively spent or can you tell me the reason 
for that cut?
    Mr. Lowenkron. Senator, I am going to have to take that 
question for the record.
    Senator Biden. OK. I would appreciate your answer in 
writing, if you would.
    Mr. Lowenkron. Yes.
    [The written information submitted by Mr. Lowenkron 
follows:]

    Question. Mongolia has been heralded by many as a success story of 
democratic development. Yet, endemic corruption continues to prevent 
Mongolia from qualifying for participation in the Millennium Challenge 
Account, and the institutions of democratic and governance programs 
remain very weak. The administration reduced support for democracy and 
governance programs from $10 million in FY-04 to $7.5 million in FY-05. 
The same amount was requested in FY-06. Why are we reducing United 
States funding for democracy programs in Mongolia at this pivotal 
moment in its political development?
    Answer. Currently, all United States economic assistance to 
Mongolia is distributed by USAID, which has identified two priorities: 
Private sector-led economic growth and more effective and accountable 
governance. Over the past 3 years, good governance assistance has 
remained constant at $2.7 million. The decrease in USAID funding from 
$10 million to $7.5 million can be attributed to a decline in economic 
growth assistance from $7.22 million to $4.8 million in FY-06.
     Mongolia's Millennium Challenge Account (MCA) proposal is also 
currently under review. To address Mongolia's worsening performance on 
corruption, the Millennium Challenge Corporation (MCC) has officially 
notified Mongolia that passage of anticorruption legislation is a 
prerequisite for signing a compact. MCC had underscored the importance 
of fighting corruption and strengthening the rule of law as essential 
to the success of any MCA program in promoting economic growth and 
reducing poverty. If Mongolian authorities are responsive in enacting 
anticorruption legislation, Mongolia also stands to gain aid through 
the Millennium Challenge Account.
    Mongolia's transformation from authoritarian communism to 
democratic governance is a remarkable ongoing success story. But this 
transition is far from complete, and many development challenges 
remain. Despite achieving peaceful and constitutional transitions of 
power between governments since the early 1990s, holding elections that 
are largely free and fair, and recording impressive 6-10 percent GDP 
growth rates over the past few years, Mongolia's continued democratic 
and economic successes hinge on its ability to manage a series of 
``good governance'' issues, including establishment of greater 
accountability, transparency, and anticorruption measures.
    Senior Mongolian officials have also expressed concerns about cuts 
in economic assistance levels for Mongolia. We will continue working 
actively with Mongolian officials to develop a balanced assistance 
program, and given our concerns of corruption, our funding level over 
the past 2 years reflects a sustained commitment to helping Mongolia's 
democratic development.

    Senator Biden. And Kazakhstan. Vice President Cheney 
expressed ``admiration for all that's been accomplished here in 
Kazakhstan,'' yet we think it has one of the worst records on 
all counts. Does the Vice President speak for the 
administration? And is this the position the administration, 
one of admiration with regard to that country?
    Mr. Lowenkron. Senator, my work on democracy promotion is 
in the context of sitting with the Secretary of State, working 
with the Secretary of State. So, I can address it in that 
context.
    Senator Biden. That would be helpful.
    Mr. Lowenkron. And in that context, the question that the 
Secretary always asks me is not is the country bad or good. 
Tell me about the trajectory. And even if it is weak, is it 
slowly heading in the right direction? Or is it not heading in 
the right direction? Are there backsliding countries?
    Kazakhstan is very much still in this picture. In August of 
last year, the good news is that there was a constitutional 
council in August of last year that determined that legislation 
passed by the parliament to restrict NGOs was unconstitutional. 
And in September of last year, President Nazarbayev said, ``I 
do not object to that ruling and that ruling will stand.''
    They have taken tentative steps on political reform but 
there is still a long way to go. The picture throughout Central 
Asia is a mixed picture. Better than Kyrgyzstan, a lot worse 
than Uzbekistan.
    Senator Biden. Thank you very much.
    [The prepared statement of Senator Biden follows:]

  Prepared Statement of Hon. Joseph R. Biden, Jr., U.S. Senator from 
                                Delaware

    Mr. Chairman, thank you for calling this hearing to examine our 
efforts to promote democracy around the world, and the role of 
nongovernmental organizations as our partners in this effort.
    In his second inaugural address, the President spoke eloquently 
about the need to advance democracy. And in our struggle against 
terrorism, and in promoting security and stability, the administration 
is right: Democracy is our most powerful weapon.
    But I am concerned that we are not getting it right.
    Fairly or not, the administration has created the impression around 
the world that it believes democracy can be imposed by force. And it 
has created the perception that it equates democracy with elections.
    We have to recognize that democracy can't be imposed by force from 
the outside. Instead we should work with moderates from the inside, and 
over the long haul.
    And we must understand that an election does not a democracy make.
    In the Middle East, Islamist groups have made huge strides--Hamas 
in the Palestinian territories, the Muslim Brotherhood in Egypt, 
religious parties in Iraq, Hezbollah in Lebanon. Holding elections 
without doing the hard work of building democratic institutions may 
leave us less, not more, secure.
    A democracy must rest on the foundation of a strong civil society--
on building the institutions of democracy: Political parties, effective 
government, independent media and judicial systems, nongovernmental 
organizations, and civil society. Yes, elections are important, but so 
is support for things like grassroots governance, human rights, and 
education for girls. We must put more emphasis on this necessary, 
comprehensive approach.
    A case in point is Iraq. President Bush has spoken of Iraq being a 
``beacon of freedom'' in the Middle East. But unfortunately--and 
inexplicably--he has not put his money where his mouth is. Last summer, 
this committee heard from both the International Republican Institute 
and the National Democratic Institute that their critical programs in 
Iraq were in jeopardy--precisely as Iraqi negotiators were burning the 
midnight oil to hash out their constitution--if they did not receive 
additional funding. Senators Lugar, Kennedy, and I managed to get each 
of the institutes an additional $28 million through appropriations last 
year--and we are working to increase the funding by $104 million in the 
Emergency Supplemental. But the situation of these groups remains 
extremely precarious.
    I realize that many of our nongovernmental partners recognize the 
need for a comprehensive approach--and it is because of their good 
work, dedication, and courage that we have seen many of the gains that 
we have. I will be interested in learning more this morning about their 
efforts.
    But our aid programs in places like Egypt and Pakistan, for 
example, have lagged in supporting democratic institution building. And 
Latin America and the Caribbean have experienced a significant decrease 
in democracy assistance funding--nearly 66 percent since 2005--even as 
political and economic instability has increased.
    So, the question in my mind is, ``What more do we need to do?'' Or, 
perhaps more appropriately, ``What do we need to do more effectively?''
    Again, I thank the chairman for calling this hearing today. I look 
forward to a productive and helpful exchange on how we can work 
together on this critical issue.

    The Chairman. Thank you, Senator Biden.
    Secretary Lowenkron, let me just pick up that last 
question-and-answer situation. I remember 20 years ago, in this 
committee, a hearing that we had that was a question with 
regard to the Philippines. And we were simply exploring, as we 
are today, a number of situations. There were two very vital 
players in the State Department. Mr. Wolfowitz and Mr. Armitage 
came before the committee and were, I thought, passionate in 
their thoughts about
potential developments in the Philippines, views that were not 
necessarily shared by then-President Ferdinand Marcos and his 
Government at the time.
    Now, one difference between discussing the Philippines at 
that point and, say, Uzbekistan today, or central Asian 
countries, as you have said, is that at least in the 
Philippines, there appeared to be some tradition, or structure, 
or institutions that were important, if you were going to have 
a so-called free and fair election. It might not occur, in any 
event, but at least there was a context in which it was 
conceivable. Under the best of the circumstances, it might 
occur.
    Whereas, in some of the instances that we have been 
discussing this morning, there does not appear to be that kind 
of institutional structure. This has led some critics of 
democracy movements to suggest that the United States is 
preoccupied with having elections, which may, in certain 
contexts, simply be very polarizing affairs. Some have 
characterized, for example, the elections in Iraq in that way, 
leaving aside the overall strategy that may be involved there. 
They have said that it does in fact define who is a Shiite, who 
is a Sunni, who is a Kurd. It does not necessarily lead to 
institution building, in which the Iraqi Government now is 
moving ardently to try to see the context or maybe even to have 
some revisions of the constitution.
    In the case, for example, of Iran, some have pointed out 
that the current president did come through an election. But 
they also, of course, point out that the mullah not only 
screens the numbers of candidates but eliminated almost 
everybody who had been participating in a democratic way in the 
previous legislature.
    So even after you press for freedom for elections, it is 
not really clear in some cases what you have. And that seems to 
me to be an important development in the last 20 years, as 
those who have opposed democracy have become more 
sophisticated. Maybe that is not the correct word. There simply 
were not institutional frameworks there that looked toward law 
as we know it, or human rights, or equal rights, or what have 
you.
    In this context, what are you doing in your Department as 
you survey the scene of the predicament of democracy beyond the 
talk of having free and fair elections; that is, try and 
provide the ballot paper, the registration process, all the 
rest that are rudiments of this? What do you do with regard to 
the context in which these ballots might be occurring?
    Mr. Lowenkron. Well, Senator, if I can make several points. 
First, what we do in my Bureau and also working with the 
Secretary and my colleagues in the Department is that we do 
focus on elections but we also focus on governance. As the 
Secretary has put it, what happens the day after an election is 
just as important as what happens before the election.
    But we also need to work on civil society. We have to 
ensure that the roots that were established can kind of open 
it--open up the system--particularly in a system where they did 
not have such practices in the past, to try to make it more 
fertile so democracy could take root and elections can proceed 
apace. That is for elections and democracy promotion. As I tell 
people who work for me, this is uneven. We are going to have 
setbacks. Some states will backslide. Some states will exploit 
their victories, such as what happened in Venezuela.
    But we cannot be deterred. We have to focus on governance 
issues. And we have to focus on civil society.
    If I may, I would like to make one point about getting the 
soil ready for democracy. And I will be brief.
    When President Bush pressed for reform, for change, in the 
greater Middle East, we developed a proposal to establish this 
forum for the future in the Middle East that I mentioned in my 
statement. We, with our G-8 partners and with several countries 
in the countries in the region, we were told this was never 
going to have any effect. At worst, you have Iraq in slow 
motion. These regimes would collapse and this is not a part of 
the world that has ever exercised these kinds of basic rights.
    In December of 2004, at the first meeting of the forum, 
there were only five NGO leaders in Rabat. When I accompanied 
Secretary Rice to Bahrain last year, there were more than 40. 
And so you are now having the centers of a civil society 
building in the Middle East. And the Jordanian Government, 
which is going to host the next one in December, has pledged to 
actually not only increase the number but the quality and the 
influence of NGOs to kind of flesh out civil society.
    So, it cannot just be about elections all the time, I 
agree.
    The Chairman. Let me just ask one more question. Recently, 
at an Aspen Institute conference in which Members of Congress 
were discussing democracy in Iran, Iraq, Pakistan, Afghanistan, 
that part of the world, there was testimony from some on the 
Iranian picture. They are getting fairly good reception of 
Radio Free Europe coming out of Prague. And that was an 
interesting thought. Their feeling was essentially that the 
public diplomacy efforts, which the United States has been 
involved in, were sometimes heard in the country, and that 
there is not that degree of repression in which signals are not 
ever found or heard. The remnants of the program in Prague 
seemed to have a great deal more resonance.
    I raise this question because, as a part of the building of 
the background, the institutions, and the framework for free 
and fair elections, the whole public diplomacy effort seems to 
me to be extremely important and one in which we regularly have 
testimony before this committee. Things are not going 
particularly well, although those trying to do them ardently 
and passionately point out how difficult it is and the strains 
that they are under.
    What is your own take on this? This is obviously a side 
issue for you, and I think probably an important one. And maybe 
you are engaged in your department in some public diplomacy of 
your own.
    Mr. Lowenkron. Well, two things. First of all, I do think 
Radio Farda through RFE, I think, is doing a terrific job. And 
it is my understanding that we want to explore as many avenues 
as possible, because we have not had eyes or ears or footprints 
in Iran for a quarter of a century.
    In terms of public diplomacy, I tell everybody in my staff 
that we can debate democracy promotion among ourselves and we 
know that it is elections, civil society, and governance. But 
unless we go out and talk about it, unless we talk about the 
relationships we are forging with key allies and institutions, 
nobody is going to hear about it.
    And what will exist out of the press is what I fear is kind 
of a caricature that the United States in a simple-minded 
fashion runs around and says, I want an election tomorrow, and 
that is it. There is no thought out strategy. There is no 
effort to develop the basis or the foundations of it. And there 
is more that needs to be done, absolutely.
    The Chairman. Well, we thank you very much for your 
testimony today and for your responses to our questions. We 
look forward to working with you, because it is an area 
obviously in which the committee shares your passion and 
interest. We appreciate your coming.
    Mr. Lowenkron. Thank you, Mr. Chairman.
    The Chairman. Let me just ask Senator Biden, do you have--
--
    Senator Biden. No, no. I just wanted to express my thanks, 
as well. I think you have done a good job there. You are 
devoted to this effort, and you have been straightforward about 
it, and I appreciate that.
    As clarification, I may not have asked the question 
correctly about general licenses versus specific licenses. I 
know of no general license that has been issued but maybe there 
has been, from Treasury. My staff will clarify that question 
with you. I do not want to hold you up now.
    Mr. Lowenkron. Thank you, Senator. I will get back to you 
on that and all the other questions.
    Senator Biden. Thank you.
    The Chairman. Thank you.
    The Chair would like to call now our second panel of 
distinguished witnesses. These will include Mr. Carl Gershman, 
president of the National Endowment for Democracy; the 
Honorable Mark Palmer, vice-chairman of Freedom House; Dr. 
Morton Halperin, director of U.S. Advocacy, Open Society 
Institute; and Mr. Thomas Carothers, senior associate and 
director of the Democracy and Rule of Law Project, Carnegie 
Endowment for International Peace.
    The Chairman. Gentlemen, we appreciate your coming today. I 
want to make just one general announcement for the benefit of 
the members and staff and audience. It is likely that we will 
have a rollcall vote on the floor of the Senate at about 10:45, 
which is 10 minutes from now, plus or minus minutes as the case 
may be. When that happens, we will have a short recess of the 
committee so that all members can hear the full testimony of 
each of you, who will be in the process of giving testimony, I 
suspect, at that point. And we will return then to make certain 
we hear the full testimony and have questions afterwards.
    Second, I would like, before I call upon Carl Gershman, to 
recognize again the extraordinary report that has just been 
issued by the National Endowment for Democracy and that is 
being made public, as has been mentioned before, today. This 
report came in large part at the request of our committee for 
NED to delve into many of the issues that we have been 
discussing already here this morning and that you will discuss, 
I am certain, in your testimony.
    So, we appreciate the work of NED, specifically, in 
providing this report not only to us but to the general public. 
We will find it extremely useful as a framework for this debate 
for further initiatives.
    At this point, it is my privilege to call upon Carl 
Gershman, with the thought that I had served for 9 years on the 
board of NED, and admired his leadership in that period, as 
well as subsequently. We are delighted to have you here this 
morning.
    Let me just say each of you will have opening statements. 
Your full statements will be made a part of the record. And I 
will ask you to proceed with summaries, hopefully within the 
10-minute period each, if that is reasonable.
    Carl.

 STATEMENT OF CARL GERSHMAN, PRESIDENT, NATIONAL ENDOWMENT FOR 
                   DEMOCRACY, WASHINGTON, DC

    Mr. Gershman. Good morning, Mr. Chairman. It is great to 
see you again. And I want to reiterate the sentiments you 
expressed. It was a great pleasure for us to have had you on 
the board for 9 years. We miss you. Although I must say I 
really do not miss the fact that you used to go on the floor 
periodically every year to defend our budget. And the fact that 
you do not have to do that every year now is also something 
that we welcome.
    And it is great to see Senator Biden and also to note that 
two of your colleagues on the committee, Senator Sarbanes, is 
now a very active member of the NED board, and Senator Coleman 
is a new member of the NED board. And we welcome them.
    I also want to take this opportunity just to thank once 
again, as mentioned in the report, the International Center for 
Not-for-Profit Law for its assistance in preparing this report. 
The report notes that we are dealing with a new environment 
today. And I might note that today is the 24th anniversary of 
President Reagan's address at Westminster, where he launched 
this whole effort.
    In that time, a great deal has changed; there has obviously 
been a great expansion of democracy. But now, partly as a 
result of that expansion, we are dealing with a new problem. 
Many of the countries where old dictatorships fell but have not 
really successfully made the transition to democracy--we call 
them hybrid regimes--now have kind of a mixture of autocratic 
elements that has spaces for civil society and political 
opposition parties to operate.
    In some of the cases, such as Yugoslavia in 2000, and 
Georgia in 2003, Ukraine in 2004, independent groups rightly 
use those spaces to expand their opportunities and to achieve 
breakthroughs. And that is one of the reasons we are faced with 
this problem today, as you noted in your introductory remarks.
    So, I want to begin by saying that I think the problem we 
are dealing with today is an inevitable problem. We have long 
faced the problem of dictatorships, which block any kind of 
assistance to NGOs or even the ability of NGOs to exist. What 
we have today is a struggle that exists in many of these 
countries. And I am reminded of the statement that President 
Lincoln made when he was campaigning and debating Senator 
Stephen Douglas, where he said that no government can 
permanently be half-slave and half-free; it will have to be one 
way or the other. And the governments will seek to maximiize 
their power and people who want freedom will seek to enlarge 
political space.
    And that is an inevitable struggle. And I think that is 
what we are dealing with in this report and in this hearing.
    The methods by which these hybrid regimes or semi-
autocratic governments seek to control civil society are 
becoming more sophisticated. And we spell it out in the report: 
The registration requirements, the restrictions on political 
activities, the interference in NGOs' internal affairs, the 
establishment of fake NGOs, GONGOs, the restrictions on foreign 
funding, the harassment of individual activists.
    I have just returned from Russia where I was meeting with 
many of the activists, and they explained to me that the laws 
sometimes are vague and require the NGOs to negotiate with 
representatives in the president's office for their very 
survival. So, it gives the government the opportunity to 
control these groups.
    Senator Martinez was asking about Venezuela. Just 
yesterday, a law modeled on the Russian law was introduced in 
the Venezuelan parliament, and is being debated today, as we 
speak, in the Venezuelan parliament. And this law, again, 
establishes mandatory registration requirements, which could be 
used in the same way that the Russians plan to use the 
registration process there. There is a new enforcement body. 
The NGOs will be interfered with in their internal affairs. And 
the law will be applied selectively. This is the great fear 
that people have.
    Another recent development is that a body established in 
Ukraine, the Bahrain Institute for Political Development, 
required NDI to clear its contacts with local groups with that 
body. And they refused to do that and were restricted in that 
way, and NDI was forced to leave the country. So, this is a 
fairly expanding problem.
    But I want to keep it in perspective and to note that we 
are dealing here with maybe 20 or 25 countries that exist in 
this hybrid category. Many of these governments are defensive. 
They feel they have to restrict political participation in this 
way. Otherwise, they feel they will not be able to survive; and 
the activists are resilient.
    The response to this problem needs to take place at three 
different levels: The tactical level, which is the response 
undertaken by NGOs, by newspapers, by independent parties, by 
trade unions, at the grassroots level; the response of the 
international assistance organizations, such as NDI and IRI and 
our other two institutes, labor and business; and finally, the 
response at the level of the NED, the funding agencies which 
seek to directly assist these NGOs. It is different in every 
case.
    And I would just like to note that even in a country like 
Belarus, where you have onerous legislation that has been 
passed, it has not stopped the ability of NGOs to function, nor 
has it prevented the NED or its institutes from assisting 
democrats in Belarus. The groups continue to operate, even 
though they do not have registration. And until now, at least, 
nobody has been arrested for doing that.
    The borders of the country are relatively open. And so, the 
ability of groups in other countries to provide assistance to 
democrats in Belarus is possible and is taking place. 
Newspapers are publishing in exile. The Internet is used very, 
very actively. And so, a very active democratic movement 
continues to exist, even in a country like Belarus, which is 
much worse than Russia is today. So, I think in that sense, the 
situation needs to be put in context.
    The way these new laws affect the international NGOs 
requires them in many cases to engage in their own kind of 
diplomacy when they are on the ground in countries, to explain 
who they are, to engage with broad political forces, including 
political forces that might be part of the ruling 
establishment. Sometimes, where it is not possible for them to 
function in countries like in Belarus, they leave, but they 
function from outside. IRI is functioning in Belarus from an 
outside office and NDI from an office in Kiev.
    I just want to underline that it is possible, even in the 
tougher situations, to try to continue to be active here. And 
the NED, in part because the NED is a nongovernmental entity, 
which can operate flexibly, it can continue to provide funding, 
sometimes directly to NGOs still in Belarus, but sometimes 
through intermediaries based in exile.
    I should note, Mr. Chairman, we have a board meeting 
tomorrow. There are 283 proposals in this board book for 
tomorrow's meeting. The work is expanding. There are many 
proposals in this book, in Zimbabwe, in China, in Belarus, in 
Russia, in Venezuela, in Egypt; all of the countries that are 
discussed in this report.
    So in no way--I want to underline this--in no way are these 
restrictions stopping us, but more importantly, are they 
stopping the Democrats on the ground who, as I say, are 
resilient and are prepared to take risks to continue to fight 
for democracy.
    Finally, Mr. Chairman, the report also speaks about the 
response that has to take place at what we call the political 
level and the normative level. On the political level what we 
urge is that, in addition to the funding of these activities, 
that the United States and Congress treat democracy work the 
way you have treated human rights work in the past, where you 
have protected people and you have linked our relations with 
countries to the readiness of these countries to permit NGOs to 
function. And also, for institutions like our party institutes, 
and other institutes, and the NED to provide assistance; in 
other words, to permit democracy assistance.
    In this respect, I want to call attention to the G-8 
meeting that is taking place next month in St. Petersburg. And 
to note that before the G-8 meeting in Moscow on July 11 and 
12, the NGOs and the democratic civil society and political 
groups will be meeting in Moscow to try to rally support for 
their cause. And they are inviting international participants. 
And Members of the Congress will be invited, as well as from 
the other G-8 countries and other countries in Europe and 
elsewhere.
    And we hope that this can become not only a rallying point 
for the Democrats in Russia, but also an opportunity to engage 
with Russian Democrats and to establish a long-term strategy 
for assisting. This is one of the things that I heard most 
repeatedly from Democrats when I was in Russia. They do not 
want just a statement here. They do not want to be forgotten 
after the G-8. They need support in a steady way, in every way 
that we can provide it.
    I might note that President Putin has spoken about making 
the ruble convertible. He is obviously very interested in the 
way Russia can enlarge its economy, possibly become part of the 
World Trade Organization. And this gives us leverage in that 
situation to try to protect the NGOs. And we have to try to 
look for that kind of leverage in every situation.
    And finally, Mr. Chairman, we speak about the need for 
action at the normative level. And what that means is that we 
think it is important for the international community to accept 
democracy assistance, the kind of assistance that is provided 
by the community of institutions that the Congress supports, 
private foundations in Europe and elsewhere, as you noted, that 
this is part of the international assistance today. And its 
violation should be seen as a violation of an international 
norm. And we urge the Community of Democracies to take hold of 
this issue, to approve democracy assistance as a norm of 
international activity, and to carry that norm and support for 
that norm into the United Nations and into the regional bodies 
to have it accepted by the international community.
    In closing, I just want to note something that Ludmilla 
Alexyva, the head of Moscow Helsinki Group, said in Moscow on 
May 12, the 30th anniversary of the Moscow Helsinki Group's 
establishment in 1976. She said, ``Times are tough today. But 
let us remember that back then we were just 11 people with a 
typewriter. And look what happened.'' And I think we have to 
keep that perspective as we move forward.
    Thank you.
    [The prepared statement of Mr. Gershman follows:]

Prepared Statement of Carl Gershman, President, National Endowment for 
                       Democracy, Washington, DC

    Chairman Lugar, ranking member Biden, and members of the committee. 
Let me begin by expressing my appreciation to the committee for the 
opportunity to address you on such a vital matter, and particularly to 
thank each of you for your commitment to the mission of the National 
Endowment for Democracy and for your strong support for our program 
over the years. Mr. Chairman, you made a personal commitment to the 
Endowment through your exemplary service to the NED board during the 
1990s, and we are delighted that Senator Sarbanes has continued in that 
tradition of active involvement in our work. We should note that 
Senator Coleman has become the newest member of our board and we very 
much look forward to his contribution in the years ahead.
    Today I want to address a serious issue that is the subject of a 
report that NED is releasing today. The report is entitled, ``The 
Backlash Against Democracy Assistance,'' and it was written in response 
to the concerns raised by Senator Lugar in a letter to us last November 
about reports of the growing efforts of foreign governments to impede 
U.S. programs for democracy assistance.
    My testimony presents, in part, a distillation of the report's main 
findings. Senator Lugar's letter expressed particular concern about 
restrictions on democracy assistance in such countries as Belarus, 
Uzbekistan, Egypt, Zimbabwe, Venezuela, and China. Subsequent 
developments, including legislation in Russia that imposes new 
restrictions on nongovernmental organizations, have further highlighted 
this disturbing trend.

                        THE CHANGING ENVIRONMENT

    Since the inception of the National Endowment for Democracy, the 
environment for democracy promotion work has changed profoundly. Most 
developments have been positive, justifying the NED's mission, 
validating its approaches, and facilitating continuing work in the 
field. These changes include:

  <bullet> A dramatic increase in the number of viable democracies, 
        providing regional partners and improving access to previously 
        closed states, particularly in the former Soviet bloc;
  <bullet> The collapse of any viable alternative to democracy as a 
        legitimate political order;
  <bullet> A robust bipartisan consensus within the United States on 
        the desirability and effectiveness of democracy assistance 
        through nongovernmental efforts;
  <bullet> The expansion and increasing international acceptance of 
        democracy assistance; and
  <bullet> The growing cooperation among democracies in providing such 
        assistance.

    Yet certain adverse factors have arisen which, while not 
threatening to reverse the democratic trend, do present challenges to 
democracy assistance. These include:

  <bullet> The emergence of semi-authoritarian hybrid regimes 
        characterized by superficially democratic processes that 
        disguise and help legitimate authoritarian rule;
  <bullet> The emergence of new actors and agencies committed to 
        undermining, countering, and reversing democratic progress; and
  <bullet> New restrictive measures of a legal and extra-legal nature, 
        specifically directed against democracy promotion groups.

    The efforts of foreign governments to impede democracy assistance--
from legal constraints on NGOs to extra-legal forms of harassment--have 
intensified and now seriously impede democracy assistance in a number 
of states. This backlash is particularly pronounced in the former 
Soviet states of Eurasia as well as in China, Venezuela, Egypt, and 
Zimbabwe. Representatives of democracy assistance NGOs have been 
harassed, offices closed, and staff expelled. Even more vulnerable are 
local grantees and project partners who have been threatened, 
assaulted, prosecuted, and imprisoned.
    In addition to impeding democracy assistance efforts, regimes are 
adopting proactive approaches, channeling funds to antidemocratic 
forces and using fake NGOs to frustrate genuine democratization. All of 
this has had a ``chilling effect'' on democracy assistance, 
intimidating some groups, and making it more difficult for them to 
receive and utilize international assistance and solidarity. These 
actions seriously threaten the ability of Democrats abroad, operating 
peacefully and openly, to continue to work with U.S. organizations that 
receive congressional funding in order to carry out their mandate.
    Despite these disturbing developments, which in some cases are 
prompting practitioners in the field to revert to methods used in 
closed societies during the 1980s, democracy assistance NGOs are today 
active in more countries than ever before. The new climate has actually 
validated the mission and the nongovernmental structure of the NED 
``family,'' which has proven its ability to work effectively in 
sensitive and repressive political climates.
    Democracy assistance NGOs have long been active within a diverse 
range of states--from closed societies to fragile or emerging 
democracies--for which the strategies, operating procedures, and 
funding arrangements honed over more than 20 years remain relevant and 
effective. The NED family, in particular, has extensive experience of 
channeling assistance to dissidents, labor unions, human rights 
activists, and other advocates for democratic change within repressive 
societies.

         THREATS TO DEMOCRACY ASSISTANCE: CONTEXT AND CHARACTER

    Repressive regimes have always sought to prohibit, frustrate, or 
undermine the activities of democratic and civil society groups and 
individual activists. Under the totalitarian regimes of the 20th 
century, political repression took extreme forms, including the mass 
arrest, incarceration, and physical liquidation of opponents.
    More recently, however, the ``color revolutions'' in Serbia, 
Georgia, Ukraine, and arguably, Kyrgyzstan, have demonstrably alarmed 
authoritarian governments, alerting them to the precariousness of their 
hybrid, pseudodemocratic regimes. The scenario of popular protests, 
mobilized through opposition groups and NGOs, pressuring ruling elites 
to surrender state power, had a chastening effect and prompted a 
reassessment of strategies and ``political technologies'' required to 
maintain authoritarian rule.
    It is pertinent here to raise the issue of the association of 
democracy assistance with regime change, a position taken by honest, if 
impatient, advocates of democracy, as well as by more malicious 
critics. This misleading equation has been taken up by authoritarian 
rulers to deny the legitimacy of democracy assistance and to portray 
these efforts as an instrument of foreign policy designed to undermine 
U.S. adversaries.
    NED's position has always been that regime change and democracy 
assistance are not synonymous. Democracy assistance does not actively 
promote domestic policy agendas or champion opposition forces. 
Achieving democracy is the purpose of democracy assistance groups' 
efforts, and the fall or removal of a nondemocratic regime does not 
automatically produce democracy as an outcome. The replacement of 
Batista by Castro or the Shah by Khomeini makes that clear.
    Democracy assistance focuses not on determining short-term or 
partisan outcomes in the sense of changing regimes or backing certain 
parties or candidates in elections. The outcomes we work toward are 
those of strengthening democracy, safeguarding human rights, and 
enhancing democratic institutions, practices, and culture. So our 
objective is not regime change per se. To be sure, ending a 
dictatorship can provide the space and opportunity for people to build 
democracy, but that is a long-term and arduous task, entailing a 
process of work, learning, and the cultivation of civic values and 
institutions of governance that enable pluralist societies to resolve 
differences through peaceful means.
    Ukraine's Orange Revolution serves as a powerful reminder that 
democracy promotion is a process, not an event. NED and its institutes 
actively invested resources in sustaining democratic and civil society 
groups for 15 years prior to the democratic breakthrough, demonstrating 
the need for a long-term approach. In addition, such breakthroughs 
confirm the benefits of a ``venture capital'' approach whereby ``seed 
funding'' is provided to democratic and civil society groups in 
countries and contexts that initially appear unpromising for democratic 
change.
    Still, it is important to note that the offensive against 
democratization, and particularly against forms of internationally-
funded democracy assistance, predates the color revolutions.
    Ominously, there is growing evidence of collusion and collaboration 
on the part of authoritarian regimes seeking to undermine democracy 
assistance and independent civil society groups. We see this in the 
marked similarity between legislation restricting NGO activity and the 
sharing of Internet monitoring and censorship technologies.
    In this regard, we draw the committee's attention to the Shanghai 
Cooperation Organization (SCO), comprising Russia, China, Kyrgyzstan, 
Kazakhstan, Uzbekistan, and Tajikistan. This organization is emerging 
as the core of what has been called an ``authoritarian 
internationale''--an axis of antidemocratic regimes--across Eurasia. We 
note with particular concern that at its forthcoming summit on June 15, 
in Shanghai, the organization is expected to embrace the Islamic 
Republic of Iran as a new member.
    Disturbing countertrends and tendencies have emerged in part as a 
reaction to the success of democracy promotion in general and, in some 
cases, to the efficacy of the modus operandi of the NED and its 
institutes, in particular. While such adverse factors do not threaten a 
reversal of the historic trend towards democracy, they do represent 
serious setbacks in specific countries and regions, particularly in the 
former Soviet Union.

                     LEGAL AND EXTRA-LEGAL MEASURES

    Of course, governments may legitimately seek to regulate foreign 
funding of domestic political actors and/or to regulate NGOs. Most 
democracies have regulations governing and, to some extent, restricting 
foreign funding and interference in domestic political affairs. But 
they exist in a context of genuine political pluralism and 
institutional checks and balances. Nor, of course, are they designed to 
suffocate or impede relatively young and still-fragile civil society 
organizations.
    Our report details the legal restrictions being imposed on 
democracy assistance NGOs, drawing heavily on research undertaken by 
the International Center for Not-for-Profit Law,\1\ for which we are 
especially grateful. In practice, of course, legal constraints are 
supplemented and reinforced by extra-legal sanctions, ranging from 
surveillance and harassment to expulsion of democracy assistance NGOs.
---------------------------------------------------------------------------
    \1\ For further details of ICNL's distinctive and pioneering work 
on these issues, go to
http://www.icnl.org/.
---------------------------------------------------------------------------
    Democracy assistance groups have experienced the following legal 
and extra-legal constraints:

    1. Restrictions on the right to associate and freedom to form NGOs: 
In China and Vietnam, NGO operations are strictly monitored and 
controlled, and subject to arbitrary interference by the authorities.
    2.  Impediments to registration and denial of legal status: In 
Belarus,NGOs have waited over a year only to be denied registration 
without explanation. Russia's NGO law requires foreign and--de facto--
domestic NGOs to reregister with a state agency which will examine 
their activities before determining whether they can continue 
operations.
    3. Restrictions on foreign funding and domestic financing: In 
Venezuela, the Chavez regime is prosecuting civil society activists 
from Sumate, a voter education NGO, on charges of ``conspiracy'' 
resulting from a NED grant to promote education on electoral rights 
prior to the 2004 recall referendum.
    4. Ongoing threats through use of discretionary power: Some 
regimes, as in Egypt, retain discretionary powers to shut down civil 
society groups, keeping NGOs in a political limbo in which they are 
apparently tolerated but remain vulnerable to arbitrary termination.
    5. Restrictions on political activities: Governments consistently 
equate democracy assistance with oppositional activity, ``regime 
change'' or political subversion. Zimbabwe denies registration to 
groups receiving foreign funding for ``promotion and protection of 
human rights and political governance issues.''
    6. Arbitrary interference in NGO internal affairs: In China, civil 
society groups are frequently impeded and harassed by bureaucratic red 
tape, visits by the tax inspectorate, and other below-the-radar 
tactics.
    7. Establishment of ``parallel'' organizations or ersatz NGOs: 
Repressive governments have sought to undermine the NGO sector by 
establishing captive NGOs, or Government-Organized NGOs (GONGOs), as in 
Tunisia, where state-sponsored GONGOs monitor the activities of 
independent NGOs.
    8. Harassment, prosecution, and deportation of civil society 
activists: Individuals engaged in certain NGO activities can be held 
criminally liable and fined or imprisoned. In Uzbekistan, approximately 
200 domestic nonprofit organizations have been closed.

              IMPLICATIONS FOR DEMOCRACY ASSISTANCE GROUPS

    The impact of the above measures on democracy assistance is, to use 
a phrase frequently used by respondents, one of a ``chilling effect,'' 
with some democratic activists and groups deterred and intimidated from 
engaging with United States, European, and other sources of democracy 
assistance and solidarity. While programs often continue in the face of 
repressive actions, partners and grantees nevertheless become more 
cautious, circumspect, and wary of adopting a high profile. In some 
countries, for example, NED grantees have asked program officers not to 
visit them for fear of drawing the attention of the authorities. In 
other instances, prospective program partners or grantees have 
suggested that while they need external assistance and are willing to 
work with or accept grants from democracy promotion groups, the risks 
are too great to do so.
    Yet these instances are relatively rare and practitioners in the 
field are not encountering obstacles qualitatively different from 
challenges previously experienced (and generally overcome) in closed or 
authoritarian societies. What does seem to be different and problematic 
is, first, the emergence of a twilight zone of uncertainty in which 
programs are prone to arbitrary interference or cancellation; and, 
second, the growing prevalence of low-intensity harassment, including 
arbitrary tax inspections, onerous reporting requirements, and 
ostentatious surveillance by security services.
    The new repressive climate in certain states has, in fact, 
highlighted the benefits of nongovernmental and civil society-based 
approaches. Maintaining and highlighting independence from government, 
such initiatives demonstrate that democracy promotion is generally most 
effective when undertaken by nongovernmental organizations, 
particularly in regions such as the Middle East and Central Asia where 
official United States support is sometimes shunned.
    Unlike official government agencies often constrained by diplomatic 
or security considerations, democracy promotion NGOs, operating openly 
but largely below the radar screen, are able to avoid compromising the 
integrity and efficacy of programs. Groups like the NED are able to 
engage and fund unlicensed organizations that tend to undertake cutting 
edge programs but cannot ordinarily access official funds. Democracy 
promotion NGOs are not constrained by the diplomatic considerations 
that affect governmental initiatives.
    Nongovernmental groups have a greater facility in adapting flexibly 
and swiftly to deteriorating or repressive conditions. When democracy 
assistance aid is primarily channeled through official conduits, using 
bilateral agreements, its impact and effectiveness are blunted. In some 
regimes, governmental programs' reliance on the approval of host-
country authorities virtually guarantees such programs will be 
compromised.
    Indeed, the consensus on the desirability and legitimacy of 
democracy promotion and civil society-oriented approaches in particular 
now extends beyond the United States. The advantages of a 
nongovernmental approach are informing and inspiring current efforts to 
restructure the European Union's work in this field, while leading 
members of the European Parliament have been campaigning for a 
``European NED.''

              THE RESPONSE OF DEMOCRACY ASSISTANCE GROUPS

    Democracy assistance groups have in some circumstances been forced 
to change their modus operandi and adapt practices they have previously 
employed in formerly or currently closed societies. Such efforts 
include financing in partnership with non-American groups, running 
trainings and other programs in adjacent territories, and channeling 
support through exile groups.
    Different contexts demand different responses, but democracy 
assistance NGOs have always worked within a diverse range of situations 
and states--closed societies, authoritarian and semiauthoritarian or 
hybrid regimes, and fragile or emerging democracies--for which the 
strategies, operating procedures, and funding arrangements honed over 
more than 20 years remain relevant and effective.
    The NED has extensive experience of channeling aid and assistance 
to dissidents, labor unions, intellectual and civic groups, and other 
agencies for democratic change. Many of these initiatives take 
advantage of the Internet and other forms of communication that were 
unavailable to democratic activists in the communist bloc only two 
decades ago.
    New technologies and forms of communication, including the 
Internet, e-mail, cellular and satellite phone technologies, have 
dramatically improved the provision of information and facilitated 
innovative funding of Democrats in closed, authoritarian or backsliding 
societies. They have enhanced contacts and coordination between 
actors--democracy promotion groups, donors, funders, grantees, and 
project partners. Thus, while new restrictions undoubtedly impede or at 
least complicate the provision of democracy assistance, in other 
respects conditions have actually improved.
    Democracy assistance groups have also been innovative in response 
to new challenges, including:

  <bullet> Improving communication and coordination between civil 
        society groups in the field, and developing common responses 
        and strategies in the face of new restrictions;
  <bullet> Engaging reform-minded elements within state bureaucracies 
        in hybrid or semiauthoritarian regimes where backsliding is an 
        ever-present possibility;
  <bullet> Engaging activists from new democracies to work in countries 
        where their personal experience has great resonance, 
        generalizes best practice, and helps puncture the myth that 
        democracy promotion is an attempt by the United States to 
        impose democracy; and
  <bullet> Promoting multilateral approaches that help reduce the 
        ``Made in USA'' profile of democracy assistance and also 
        leverage additional resources.

              SUGGESTED RESPONSES FOR CONGRESSIONAL ACTION

    It is worth recalling that the backlash against democracy promotion 
inadvertently acts as a reminder that this is not an uncontested field 
or a one-way process and that it is the success of our efforts that has 
prompted the current reaction. Yet the evidence of democracy assistance 
groups' resourcefulness and adaptability, allied with the remarkable 
resilience and application of grassroots democratic activists, provide 
strong grounds for cautious optimism that these challenges will be 
overcome. In this process, the support of the U.S. Congress will be a 
significant factor.
    Consequently, in response to the new backlash, Congress should:

  <bullet> Ensure that adequate funds for democracy assistance are 
        appropriated, and be wary of rewarding regimes for ostensibly 
        democratic but cosmetic change;
  <bullet> Urge the administration to issue with other members of the 
        G-8, a memorandum raising concerns over Russia's democratic 
        retrenchment;
  <bullet> Promote a rigorous policy of linkage, by associating a 
        state's treatment of Democrats and civil society groups to the 
        political and economic dimensions of interstate relations, 
        including: tightening eligibility criteria for membership of 
        international associations of democracies; and making foreign 
        assistance and trade benefits conditional on democratic 
        performance; and
  <bullet> Encourage the administration, working through the Community 
        of Democracies, to gain acceptance of democracy promotion as a 
        normative practice within the international system. The 
        Community in turn should reaffirm and further elaborate its 
        founding Warsaw Declaration, which endorsed democracy 
        promotion, and to seek approval for the Declaration from 
        governments, parliaments, regional forums, and global 
        institutions, including the United Nations.

    Thank you.

    The Chairman. Well, thank you very much for that historical 
perspective. You mentioned 24 years ago and President Reagan's 
administration. The audience does not understand the NDI, the 
National Democratic Institute; the IRI, the International 
Republican Institute; and the Chamber of Commerce and Labor 
components. Senator Biden asked very appropriately about the 
labor component today in terms of your current administration's 
work. All four of these are contributing in a remarkable way 
and are learning a great deal from each other during the 
process.
    It is a pleasure now to recognize another gentleman whom I 
had the privilege of sitting next to at the board meetings of 
that entity for quite a long while. This followed a 
distinguished diplomatic career that he had commenced a long 
time ago.
    It is a real privilege to have you again, Mark, before our 
committee today. Would you please proceed?

 STATEMENT OF HON. MARK PALMER, VICE-CHAIRMAN, FREEDOM HOUSE, 
                         WASHINGTON, DC

    Mr. Palmer. Thank you, Senator. And thank you and Senator 
Biden for holding this hearing. You are both long-time 
supporters of democracy promotion and I want to thank you for 
that.
    In my view, our NGOs operate in two different universes, 
one in which the dictator is still in power and the other in 
which he has been ousted. And different strategies and tactics 
flow from those two different situations.
    I wanted this morning--and my testimony focuses on what to 
do while the dictators are still in power, because in my view 
that is the most difficult, most challenging, most important 
situation that our NGOs face and paradoxically, in my view, 
receives fewer, historically at least, has received fewer 
resources, less boldness, less imagination, not only by our 
NGOs but by many administrations.
    We have now an immense body of knowledge about how to oust 
dictators peacefully. Freedom House, my organization, recently 
published a study, ``How Freedom Is Won,'' which covers 67 
different transitions. And it states, and I want to quote, 
``that far more often than is generally understood, the change 
agent is broad-based, nonviolent civic resistance, which 
employs tactics such as boycotts, mass protests, blockades, 
strikes, and civil disobedience to delegitimize authoritarian 
rules and erode their sources of support, including the loyalty 
of their armed defenders.''
    Top down reform by dictators is, in my view, infrequent. It 
is an exception. There are virtually no cases of a dictator 
remaining in power and becoming a Democrat. I would like to be 
corrected about that but I do not know of many, if any, cases 
of that.
    Generally, dictators need to be and have been forced out. 
And the key question is, what kind of force is used? And the 
conclusion of Freedom House's study, and I think probably all 
four of us would agree, is that when nonviolent force is used, 
it works in the sense both that you have been able to get rid 
of dictators through nonviolent force. And most importantly, 
what comes afterwards is, in accordance with the findings of 
this study, a democratic, durable, peaceful regime. Whereas 
when force has been used, most often you find a new regime 
emerge which itself is based on the use of force and is not 
democratic.
    In my view, facilitating the creation of such national 
movements should be the primary objective of our NGOs in this 
field. Unfortunately, our NGOs and their governmental and 
private funders have not made a priority of funding groups that 
are focused on nonviolent resistance or on activist youth 
groups that have provided much of the courage and dynamism of 
successful struggles.
    In my view, at least 50 percent of democracy funding should 
be directed to the world's remaining 45 dictatorships. These 
are the real problem for the United States. They are our 
strategic enemies. In almost all cases, they are behind all of 
the problems that we face in the world.
    So, I wanted quickly to go through an action agenda of 
things that I think we could do, because I think the best 
response to what Carl has very well outlined in terms of the 
current situation in many of these countries, which is a kind 
of reaction, the best defense is a good offense, in my 
judgment. And I think we need bold new proposals, new 
initiatives to meet these challenges.
    First, communication is a tremendously important tool. It 
is the key to building noncooperation and the organization of 
such broad coalitions for those inside a dictatorship, to 
realize that they are not alone. For example, in China, where 
we know there were 87,000 major protests last year, according 
to official statistics, if you could link up those who are 
protesting, the farmers and the workers, those who are against 
corruption, those who want independent trade unions, farmer 
organizations, leading democratic lawyers, intellectuals, and 
students, if you could link them altogether through 
communications, we would have the beginning of a national 
movement to get the Communists out and have the Democrats in.
    I want to quickly say there are three ways that I think 
that could be done. First, the Internet, as we know, is now an 
extraordinary tool. The dictators, of course, know that and are 
trying to block it, including cooperating among themselves. Hu 
Jintao is now working with a Supreme Leader Kharmenei in Iran 
to block the use of the Internet.
    What I think would be possible would be a massive effort 
against what is called the Great Firewall of China, the 
massive, now global, Internet project. Some of my Chinese-
American friends in the last few years have developed some very 
good software and techniques to defeat this censorship. And 
they have proposed to your colleagues here on the Hill and to 
the administration an NGO global Internet freedom consortium 
with funding of $50 million a year, which I strongly support. 
They have demonstrated in action that they can defeat this 
firewall. The BBG is now using their services with regard to 
the Iranian firewall. I think this needs major effort given the 
scale of the effort on the other side where you have 50,000, at 
least 50,000, Chinese Government-hired people censoring the 
Internet. We need an equally massive effort on our side to 
ensure a free Internet.
    Second, I strongly feel that there is a role for 
independent media. Most of our NGO funding is focused on 
training. But what really matters is actually having 
independent media; particularly, I would say, having 
independent radio and television stations, but other forms of 
independence, as well. For example, it would be really 
wonderful if the young Iranian students movement had their own 
voice, their own radio station. Well, they do not. And Radio 
Farda is no substitute.
    A representative of Radio Farda was quoted in the 
Washington Post this week as saying, and I quote, ``that the 
topic of `should the mullahs be overthrown' is an unacceptable 
topic for Radio Farda.'' Well, if Radio Farda cannot talk about 
it, at least the Iranian students should be able to talk about 
what is most on the minds of at least 70 to 80 percent of the 
Iranian people who do not accept a theocratic dictatorship in 
their country and want to find peaceful ways of getting rid of 
it. We ought to be able to help them talk about that among 
themselves.
    So, I propose an independent TV and radio fund be 
established with its own independent board to ensure that the 
stations adhere to international broadcasting standards and 
promote nonviolent transitions to democracy. I think a fund of 
$100 million a year could be well spent.
    Third, in the communications field, telephones and cell 
phones offer an extraordinary underutilized and understudied 
way of promoting democracy inside dictatorships. My Chinese-
American friends, for example, have the phone numbers of 
500,000 Chinese who work in jails, torturing prisoners, who 
work in the regime repressing democratic movements, and are 
able to actually call them.
    But we need a democracy technology fund to really develop 
this field; that is, for example, to develop some new 
technologies, the use of mass text messaging devices to call 
people to and manage demonstrations, to do the equivalent of 
what now has created immense excitement in the Middle East. The 
equivalent of the American Idol shows are now on Middle Eastern 
television. And people are able, through their cell phones and 
text messaging, to vote for their idols, their singers and 
dancers that they want to support.
    In the digital era, we can disintermediate the dictators by 
organizing direct referenda, even elections, through cell 
phones and other technologies.
    Now, let me move away from communications and say that 
another area on my own action agenda would be very much 
enhanced support for students. Students really are the moving 
force from Indonesia to Hungary. When I was there in Budapest, 
it was very clear it was the students really more than anyone 
else who were behind change.
    And I do not think, as I look at NGO programs, I do not see 
enough money going to students. I really think that is an 
underutilized resource. And I really believe that we need--and 
some students at Indiana University in your own State have 
organized something called Students for Global Democracy. I 
really believe that if we could get the world's democratic 
universities together, the students of those universities 
together, and give them the money to in turn help student 
movements inside Iran, China, Burma, Saudi Arabia, and 
elsewhere, that that could make an immense difference. And I 
think $50 million would be well spent in that regard.
    The next item on my agenda, Mr. Chairman, is the ADVANCE 
Democracy Act, which is supported by a number of your 
colleagues here in the Senate and passed the House last year. 
And it would turn my old institution, the State Department, 
into a real fighting, freedom house kind of place. It would 
make of our embassies a real asset, an ally for NGOs inside 
these 45 dictatorships.
    It would transform our diplomacy permanently. I think this 
administration is very sympathetic to what you and Senator 
Biden believe in. But who knows what will come next? We are a 
nation, unfortunately, of flavors. And I do not know what the 
flavor will be 3 years from now. There has been a 
countermovement against democracy support. I think we need the 
ADVANCE Democracy Act to make permanent certain changes in the 
way our diplomacy is conducted. And specifically, we need plans 
for each of the 45 dictatorships, which this act would require, 
working with NGOs to develop these plans to bring about 
permanent change.
    Next on my own list would be Sullivan Principles for 
Democracy. We do not think normally of our corporations as 
NGOs, but they are often the most powerful nongovernmental 
presence of the democracies inside these dictatorships. I think 
that our key NGOs, NED and others, ought to sit down with you 
here in the Congress, with the executive branch, and with other 
key democratic governments and key corporate leaders, to 
establish a business community for democracy and to develop a 
code similar to the Sullivan Principles which would require of 
our corporations that they support democracy in China and 
elsewhere.
    For example, it would be entirely possible for the huge 
number of companies financed from outside China by democratic 
country origin companies to allow trade unions. Senator Biden, 
you talked about the importance of trade unions. I could not 
agree more. In Serbia, in Poland, in many places, workers are 
the key change agent, along with students. And in China now, 
the workers are showing a real serious interest in defending 
their rights. These 87,000 demonstrations last year are an 
extraordinary thing.
    So, if our companies in China would begin to allow labor 
organizing inside their premises, that would make a huge 
difference. And I think that is something that we ought to 
support.
    Let me finally say, Mr. Chairman, that it was exactly 25 
years ago this year that a small group of us here in Washington 
began meeting--Dante Fascell and Lane Kirkland and others. And 
that led to the creation of our new democracy institutions, as 
you mentioned, and to the speech that President Reagan gave 
that I spent a lot of time working on.
    I think we are now at a moment when we need a similar burst 
of thought and creation. Because we have been at this for 25 
years, it is time to appoint an independent body. And the 
ADVANCE Democracy Act proposes that a democracy promotion human 
rights advisory board be established. And I think Secretary 
Rice is working on this, that a body be established of 
independent people to look at how we are spending this $1.4 
billion, ask ourselves some really basic, zero-based questions. 
Is the money going to the right place or not? Do we need more? 
Which I personally think we do.
    In sum, what should our priorities be over the next 25 
years, with the goal of making dictators an extinct species, 
which I think is entirely doable if we put our minds to it.
    Thank you.
    The Chairman. Well, thank you very much.
    [The prepared statement of Hon. Palmer follows:]

 Prepared Statement of Hon. Mark Palmer, Vice-Chairman, Freedom House, 
                             Washington, DC

    Achieving a 100 percent democratic world is possible over the next 
quarter century--but only with radical strengthening of our primary 
frontline fighters for freedom.
    We can build upon our nongovernmental organizations' strong base of 
experience and success. From Freedom House rallying the democratic 
world against fascism beginning in 1940, to the League of Women's 
Voters building democracy in post-World War II Europe and Japan, 
through the German political party stiftungen's contributions to 
Portugal and Spain's breakthroughs to democracy in the 1970s, to 
America's own new democracy promotion institutions' contributions 
beginning in the early 1980s, NGOs have assisted a massive expansion in 
freedom. Over the 33 years of its annual Freedom in the World survey, 
Freedom House finds that the percentage of not-free countries has been 
cut in half.
    Our NGOs have been essential players in many, but by no means all 
of these breakthroughs. I can attest firsthand to the critical role 
which the AFL-CIO played in building and bolstering solidarity in 
Poland and the National Democratic Institute played in training fellow 
Democrats in the living room of the Ambassador's residence in a still-
communist Hungary. From my days marching in the civil rights movement 
here, to a foreign service career focused on and in dictatorships, to 
many years on the boards of the National Endowment for Democracy, 
Freedom House, the Council for a Community of Democracies, to work with 
innumerable Chinese, Saudi, Libyan, and other democracy groups, to 
researching and writing a book about how to achieve universal 
democracy, and over a decade as an investor in emerging markets, what 
have I learned about NGOs in the promotion of democracy?
    NGOs operate in two different universes--where the dictator is 
still in power, and where he has been ousted. Different strategies and 
tactics should flow from this fact.
    Let us focus on the stage of dictatorship as it is, in my view, by 
far the most important and challenging, but paradoxically has had and 
has less NGO resources, imagination, and boldness. And to the extent 
NGOs are active on dictatorships the vocabulary is often wrong.
    We have an immense body of knowledge now about how dictators leave 
power and durable democracy ensues. A recent Freedom House study, ``How 
Freedom Is Won,'' covers 67 transitions and finds that ``far more often 
than is generally understood, the change agent is broad-based, 
nonviolent civic resistance--which employs tactics such as boycotts, 
mass protests, blockades, strikes, and civil disobedience to 
delegitimate authoritarian rulers and erode their sources of support, 
including the loyalty of their armed defenders.'' Top down reform by 
dictators is the infrequent exception; there are virtually no cases of 
a dictator becoming a Democrat and remaining in power. Generally, 
dictators have been and need to be forced out. As the study also finds, 
there is a clear relationship between the type of force used and 
durable democracy emerging. Violence engenders successor governments 
based on violent repression of their people. Broad-based coalitions 
committed to the strategic use of nonviolent force have been the best 
avenue for freedom's march.
    Facilitating the creation of such national movements should be the 
primary objective of our NGOs. Unfortunately, our NGOs and their 
governmental and private funders, have not made a priority of funding 
groups that are focused on nonviolent resistance or on activist youth 
groups that have provided much of the courage and dynamism of 
successful struggles.
    In general, the priority for funding of our NGOs has been for 
countries which already have ousted the dictator. While there has been 
some progress in recent years, the disparities remain striking. 
Programs for China, with over 60 percent of the world's people still 
living under a dictator, are the most striking with around 1 percent of 
USG democracy funding, and a hunk of that agreed to with the Chinese
authorities as has also been the case with Egypt, Pakistan, and some 
other key dictatorships. The cause of promoting real political progress 
in Saudi Arabia gets virtually no funding. North Korea was getting 
virtually none until Congress pushed through a specific act, which has 
been true of other not-free countries, as well. Our foundations, 
corporations, and other private donors are even more reluctant to fund 
democracy programs for dictatorships. Yet, the most fundamental 
challenges to American national interests all emanate from the world's 
remaining dictatorships--from weapons of mass destruction, to regional 
instability, to energy dependence, to harboring and funding terrorists.
    At least 50 percent of democracy funding should be directed to the 
world's remaining 45 dictatorships. Some have long argued that the 
repressive conditions inside dictatorships make more programs and 
spending impossible. This stems from a congenital and breathtaking lack 
of imagination and boldness. Our NGOs did over $30 million of 
programming in Serbia helping a broad-based coalition of particularly 
younger Serbs to oust Milosevic peacefully. We should have programs and 
funding of similar or larger scale for each of the remaining 
dictatorships. As conditions in each of them vary, we will need to 
consult with local Democrats to tailor make each national program. But 
here are some of the tools which will help.

                             COMMUNICATIONS

    The key to building the will for noncooperation and the 
organization of a coalition is for those inside a dictatorship to 
realize they are not alone, to facilitate communications among them and 
with their allies outside. In China, for example, if those who 
conducted some 87,000 major protests last year, those who want to 
organize independent trade unions, farmers organizations, and leading 
democratic lawyers, intellectuals and students could be linked 
together, and they could synchronize their actions on a national basis.

  <bullet> The Internet provides an extraordinary new means for such 
        just such communication. Dictators have recognized that fact 
        and are repressing its use--individually and increasingly 
        collectively--for example, Chinese Communist, Hu Jintao, is now 
        helping Iran's Supreme Leader Khamenei. The Saudi's Abdullah 
        has long allowed just one Internet pipe into that country. 
        Fortunately, American NGOs, particularly Chinese-Americans 
        Ph.D.s in computer sciences, have developed ways and are having 
        success in defeating the Great Firewall of China. The BBG 
        recently recognized their success on China and has started 
        working with them on Iran. But a much larger, global program is 
        required. These same Chinese-Americans have proposed a Global 
        Internet Freedom project which is scalable and can be applied 
        to any dictatorship. To defeat the massive efforts on the other 
        side, including in the case of China--over 50,000 censors--we 
        should fund this United States NGO Global Internet Freedom 
        Consortium project with $50 million per annum.
  <bullet> The U.S. Government-run radios and television make important 
        contributions in this struggle, but there is a huge unmet 
        opportunity in independent radio and television. Our NGO 
        funding for media is overwhelmingly for training. Imagine the 
        credibility and influence if Iran's national student movement 
        had its own radio, and therefore voice. Similarly, an open 
        radio broadcasting platform for North Korea, produced by 
        Koreans for Koreans, could have a huge impact. The ``Washington 
        Post'' this week quoted a Radio Farda representative saying 
        that ``should the mullahs be overthrown'' would be an 
        unacceptable topic for Farda. But a nonviolent overthrow is 
        precisely the main topic on the minds of a majority of 
        Iranians. I propose an Independent TV and Radio Fund be 
        established, with its own board, to ensure that stations 
        receiving support adhere to international broadcasting 
        standards and promote nonviolent transitions to democracy. Such 
        a fund could easily and wisely spend $100 million per year.
  <bullet> Telephones, including cell phones, are another major and 
        largely underexplored and supported means for communications 
        and organization within dictatorships and with the outside 
        world. For example, one American NGO has proposed a massive 
        program of calling the personal and official phones of those 
        persecuting people in China to explain that what they are doing 
        is morally wrong and that they will be held accountable when 
        the rule of law and democracy arrives. This group states that 
        it has over 500,000 such phone numbers and success with its 
        limited resources in talking with some people. I believe a 
        Democracy Technology Fund devoted to uses and programs for 
        existing technologies like cell phones and developing new 
        technologies (mass text messaging devices to call people to and 
        manage demonstrations) for communications among democrats could 
        wisely spend another $50 million per annum. Immense excitement 
        and ``voter'' participation in American Idol clones on a Middle 
        Eastern television show that popular referenda can be done via 
        cell phones and text messaging. The digital world can 
        disintermediate the dictators by organizing direct referenda, 
        even elections.

                                STUDENTS

    From Indonesia to Hungary, and more recently from Serbia, to 
Ukraine and Nepal, students and young people have been at the forefront 
of a majority of peaceful ousters of dictators over the past four 
decades. Those who founded Students for Global Democracy at Indiana 
University recognized that students outside dictatorships can help. For 
students from democratic countries to show solidarity by visiting their 
colleagues inside dictatorships, and--where they are willing to take 
the risks to join in demonstrations, sit-ins, and other nonviolent 
actions, could make a massive difference--just as northern students 
like me gave encouragement to those on the front line in the South 
during our own civil rights struggle, merely by our presence. Training 
by young people experienced in nonviolent conflict for those inside is 
increasingly taking place but is still underfunded. And funding, direct 
or indirect, of student and youth groups committed to action is even 
more grossly underfunded. We need a special Students for Global 
Democracy Fund which would be run by student and youth leaders from 
democratic universities and groups across the democratic world--who 
would give direct financial assistance to their colleagues inside the 
not-free countries. The middle-aged, both inside our existing NGOs and 
within governments, somehow are not comfortable aiding students and 
youth. Another $50 million per year would be money very well spent.

                         ADVANCE DEMOCRACY ACT

    As a Chinese dissident said last month to President Bush, the U.S. 
Embassy in Beijing should be more welcoming to Chinese Democrats. The 
Act would require the State Department and our embassies to meet and 
work with local Democrats and NGOs to develop long-term strategies for 
harnessing U.S. Government resources to promote democracies in each 
not-free country. Inside all 45 dictatorships there are upwards of 100 
embassies of democratic countries. Beginning with American embassies, 
they should be key partners for local and foreign NGOs. The ADVANCE 
Democracy Act, which was passed by the House last year with broad 
bipartisan support and is now before the Senate, would transform our 
embassies into freedom houses and our ambassadors and other diplomats 
into active, trained supporters of nonviolent campaigns for democracy. 
Unfortunately, in too many cases, embassies--and the larger United 
States foreign policy apparatus--are not playing the role they should. 
In the case of Uzbekistan, for instance, while the U.S. Government 
should be praised for calling for an international inquiry into the 
events in Andijian, they have been strangely silent on following 
through with targeted sanctions aimed at key supporters of the regime. 
Most of the NGOs active in the country have been kicked out, and the 
U.S. Government has yet to authorize a continuation of efforts of 
Freedom House, ABA, Internews, and others, to provide a lifeline to 
human rights defenders and other activists within the country. Indeed, 
the latest USAID strategy for the entire Central Asia region makes no 
mention of a need to provide support to frontline human rights 
defenders in any country in Central Asia at all in the future. On the 
other hand, our Interest Section in Cuba and Embassy in Zimbabwe are 
showing some of the creative methods that can be applied. The Act also 
provides the Community of Democracies the ability to become an alliance 
of democratic actors, not just talkers, and provides funding for its 
affiliated NGO--the International Center for Democratic Transition, 
which was established to transfer the experience of successful 
transitions to those still under repression.

                             TIME AND SPACE

    Dictators are far more vulnerable than most recognize. Their ouster 
is virtually never predicted by the world's cognoscenti and sometimes 
happens with breathtaking speed. But often building the individual will 
and national coalition to oust one takes time and experiences setbacks. 
Once they are ousted, the most dramatic improvements in freedom tend to 
come quickly in the successful transitions, but time is often required 
for real consolidation. NGOs and their supporters therefore need 
programs which persevere, sometimes over a decade and more, on either 
side of the ouster. Similarly, they need space, to be as present inside 
as possible. We should establish and maintain a diplomatic presence 
inside every dictatorship, including Tehran and Pyongyang, to assist 
local and our own NGOs. Our goal should be to open, not further close 
off these repressed societies and to do so through every form of 
exchange. By not dealing with them in this brief testimony, I do not 
mean to underestimate the critical importance of many traditional NGO 
programs designed to open these countries and build civil society. Over 
time and with expanding space, we should move from general assistance 
to civil society forces, to targeted assistance focused on education 
and training in civic nonviolent resistance, to assistance for cohesive 
civic coalitions through which such resistance is expressed. And when 
the ouster occurs, we should not abandon our democracy programs too 
soon, as we are on the verge of doing in Serbia.

                   SULLIVAN PRINCIPLES FOR DEMOCRACY

    We do not think of our corporations as NGOs, but they are often the 
most powerful nongovernmental presence of the democracies inside 
dictatorships. I propose that key human rights and democracy NGOs and 
key democratic governments meet with leading businessmen to formulate a 
code of conduct for businesses inside dictatorships, and establish a 
Business Community for Democracy to work with the Community of 
Democracy and its NGO partners to enforce the code. The Universal 
Declaration of Human Rights provides a good basis for such a code. For 
example, the Declaration provides workers the right to organize 
independent unions and our companies could and should allow labor 
organizing within their factories and other enterprises inside 
dictatorships. Organized workers, with students, have been the most 
powerful agents of change in numerous successful nonviolent campaigns. 
Trade unions are critical NGOs. It would be appropriate for all S & P 
listed companies to contribute $250,000 each to a Global Democracy Fund 
to ensure the BDC has real clout, with companies contributing to 
censorship and other problems like Google, CISCO, and Microsoft 
contributing substantially more. There would be ``safety in numbers'' 
for each of these companies vis-a-vis their Chinese and other dictator 
hosts.
    It has been precisely 25 years since a small group met here in 
Washington to conceive and push through major new democracy promotion 
organizations: NED, CIPE, IRI, NDI, as well as the AFL-CIO's already 
existing programs. As one of those present at that moment of creation 
and active in this field since then, I think the time has come for 
another moment of creation and another push. Immense progress has been 
made and with another quarter century's effort we could finish the job. 
The House and Senate sponsors of the ADVANCE Democracy Act propose that 
a Democracy Promotion and Human Rights Advisory Board be established to 
review and make recommendations regarding the overall United States 
strategy for promoting democracy and human rights. We need an 
independent, in-depth, zero-based look at what works and what our 
priorities should be for the future.
    The administration states that we are now spending $1.4 billion on 
democracy promotion. While that is certainly a substantial increase 
over previous years, why are the sorts of initiatives I have outlined 
not receiving serious or any funding? Why do NGO programs focused on 
dictatorships get well under 50 percent of the money? Is $1.4 billion 
insufficient? Do our priorities need fixing? Do we need to support new 
NGOs and should some of the existing ones lose their funding? Painful 
as some of these choices may be, the task is of such fundamental 
strategic importance to the United States and the entire world that we 
should not shrink from basic questions.
    At the same time, we should not allow the complexities of 
Afghanistan and Iraq to obscure the successes of nonviolent democracy 
promotion or to sap our will to persevere. Making dictators an extinct 
species has been and can be done without firing a shot in almost all 
situations. A world without dictators would be peaceful, prosperous, 
and just. Surely that goal is worth sustained commitment and 
substantial funding by the American people for their NGOs--the heirs of 
Mahatma Gandhi, Martin Luther King, and Lech Walesa in this noble 
struggle.

    The Chairman. On that ringing high note, we will take a 
recess for about 10 minutes while Senators vote. And then we 
will return for Dr. Halperin's testimony.
    Senator Biden. Mr. Chairman, I want to apologize in advance 
to the panel. I have agreed to meet with a group of democratic 
leaders relating to a matter on the floor. And I am not sure I 
will be back before the panel is over. That was supposed to 
take place after the first vote but it may not. If it does not, 
I will be back. I apologize if I do not get back.

    [Recess: 11:03 a.m. to 11:18 a.m.]

    The Chairman. The committee will come to order again. Thank 
you.
    We will proceed now to the testimony of Dr. Halperin. It is 
a pleasure, as always, to have you before the committee, sir, 
and we look forward to your words today.

STATEMENT OF DR. MORTON H. HALPERIN, DIRECTOR OF U.S. ADVOCACY, 
OPEN SOCIETY INSTITUTE, EXECUTIVE DIRECTOR, OPEN SOCIETY POLICY 
                     CENTER, WASHINGTON, DC

    Dr. Halperin. Thank you very much, Mr. Chairman. I 
appreciate the opportunity to appear again before this 
committee, in this case to discuss the role of NGOs in helping 
individuals and governments to get on the path to democracy and 
to remain on that path. And I want to say I agree with the 
previous witness that helping countries get on that path is 
very important. But I guess I would give equal emphasis to 
helping countries stay on that path. I think that is an equally 
difficult and important challenge.
    And the Open Society Institute and its related entities, 
often referred to collectively as the Soros Foundation Network 
after its founder and patron, George Soros, plays, I think, a 
unique role in that process. And I appreciate the opportunity 
to have a few minutes to discuss that here with the committee.
    In more than 20 years that the network has functioned, it 
has adopted some principles which we think explain why it has 
been effective and which we think are worth emulation by other 
groups. And in my prepared statement, I provided some specific 
examples of how those principles work.
    The network has been in operation since 1984. And over that 
period of time, it has spent approximately $5 billion in over 
70 countries in the support of development of open societies. 
Almost all of that work is done through local foundations 
operating in the country where the network is functioning.
    As a fundamental principle, we rely on the judgment of 
local boards and staff that decide what should be done and who 
carry on the activities. The network does not impose a strategy 
but gives grants to local foundations after evaluating the 
locally-developed strategy and then provides programmatic and 
technical assistance, in addition to financial support. We 
think this distinctive way of operating is in fact the key to 
the successes that we have.
    A second general principle is that we operate in a strictly 
nonpartisan manner. We are not in the business of favoring one
political party, faction, or candidate over another. And we do 
not advocate for ``regime change.'' In the few instances in 
which the network has been involved in election-related 
activities, it is to promote an honest and level playing field. 
Our elections activities are transparent. And information is 
disseminated openly, not to ensure any particular outcome, but 
to try to provide an equal opportunity for all. And that was 
the case in Ukraine recently, a matter which has received a lot 
of attention, not only in Ukraine but in Russia and other 
countries in the region.
    A third principle is that we operate independent of the 
U.S. Government and any other government. It is not our mission 
to implement the policies of any government. Like many donors, 
however, there are times when we support the efforts of 
government to promote reforms in their own countries, 
particularly in the earliest stages of the transition to 
democracy. Such is the case now in Liberia, where the Soros 
Network is working very closely with the United Nations 
Development Fund to provide assistance in various ways to the 
new democratically elected Government of Nigeria.
    Throughout the network's history, there has been numerous 
instances where U.S. Government democracy assistance has 
complemented OSI's efforts to promote an open society. And at 
various times and in various places, the Soros Foundation 
Network has cofunded initiatives with the U.S. Government and 
other governments in such areas as civil society development, 
public health, and education. Bosnia is a good example of where 
we have been working with local governments and other 
governments over a long period of time; and where we think it 
is solely yielding results in consolidating democracy in that 
country.
    The last general principle I mention is that we believe 
that private, nongovernmental funding directed at local groups 
is always an essential element of democracy building. 
Government funding, especially from major powers such as the 
United States, is most likely to be effective if it comes 
through entities like the National Endowment for Humanities and 
its related institutions, rather than from governments 
directly. However, government funding given to American and 
local NGOs can play an important role. But when the U.S. 
Government is providing such assistance, we believe it must pay 
careful heed to what we are hearing from the local NGOs in a 
particular country.
    In Egypt, for example, the message is very clear. Local 
NGOs desperately want assistance, including assistance from the 
U.S. Government, because they think that assists them in 
establishing their legitimacy and their ability to struggle for 
democracy. In Iran, on the other hand, I think we are hearing 
the opposite from those struggling for democracy in that 
country--that any hint that they are associated with the United 
States, and particularly with the perceived policy of regime 
change, is the kiss of death for those NGOs. And I think in 
those circumstances we should do things like the radio 
broadcasts that have been discussed, but we should be careful 
not to taint NGOs, who are signaling that they need to show a 
separation from the United States.
    And we think, as I have said, that we need to be prepared 
to stay for the long haul, that a single election does not 
democracy make, even two elections. And our work in Bulgaria, 
as well as many other countries, shows that an extended 
participation, building up open society institutions, youth 
groups, other kinds of advocacy groups, is important to the 
process.
    And equally important is what has been discussed so far by 
the other people who have testified; that is, support for NGOs. 
OSI itself is often subject to attack in various countries. We 
have had our foundations closed in a few countries and have 
moved them just out of reach of those dictators, as the 
endowment. We have also worked with the U.S. Government and 
with other NGOs to try to fight against these laws in Russia 
and other countries; and to try to fight for their women in 
application and have provided assistance to NGOs struggling to 
maintain themselves.
    I also want to express my support for the position that the 
administration witness indicated support for, and that is to 
make sure that in the new Human Rights Council, NGOs have the 
same right of access as they had in the old commission. I 
cannot help but note that the U.S. Government would be in a 
better position to endorse and support that position, if it had 
stood for election to the Human Rights Council. But it is not 
too late for the administration to appoint a special high-level 
ambassador to attend those talks and to lead the fight at those 
talks, as an observer nation, to maintain the role of NGOs in 
that process.
    Mr. Chairman, I appreciate all that you and this committee 
have done to support democracy promotion and particularly the 
work of NGOs. And I would be pleased to respond to questions.
    Thank you.
    [The prepared statement of Dr. Halperin follows:]

    Prepared Statement of Dr. Morton H. Halperin, Director of U.S. 
  Advocacy, Open Society Institute, Executive Director, Open Society 
                     Policy Center, Washington, DC

    I much appreciate this opportunity to appear before this 
distinguished committee to participate in your consideration of how 
nongovernmental organizations (NGOs) can help individuals and 
governments get on the path to democracy and remain on that path. The 
Open Society Institute and its related entities, often referred to 
collectively as the Soros Foundations Network, after its founder and 
patron George Soros, plays a unique role in this process. I and my 
colleagues very much welcome this opportunity to explain our approach 
and to provide some examples of what we have done in the more than 20 
years that the Network has functioned. I want to lay out some general 
principles and then to illustrate how the Foundations Network works by 
describing briefly our efforts in a few specific countries.
    The Soros Foundations Network has been in operation since 1984. In 
the last decade alone, the Network has expended approximately $5 
billion in over 70 countries to support the development of open 
societies. Most of our work is done through local foundations in the 
countries in which the Network is operating. As a fundamental 
principle, we rely on the judgments of local boards and staff that 
decide what should be done and who carries out the activities. The 
Network does not impose a strategy but grants funds to local 
foundations after evaluating strategies developed locally and provides 
programmatic and technical assistance in addition to financial support. 
We think that this distinctive way of operating is the key to the 
success of our efforts.
    A second general principle is that the Network operates in a 
strictly nonpartisan manner. We are not in the business of favoring one 
political party, faction, or candidate over another, and we do not 
provide support for ``regime change.'' In the few instances in which 
the Network has engaged in election-related activity, it is to promote 
an honest and level playing field. Our efforts in the elections area 
are related to transparency and information dissemination, not to 
ensure any particular outcome. I will describe one such set of efforts 
in Ukraine in 2004, shortly.
    A third principle is that the Network operates independently of the 
United States Government and of any other government. It is not our 
mission to implement the policy of any government. Like many donors, 
however, there are times when we have supported the efforts of 
governments to promote reform in their own countries, particularly in 
the earliest stages of the transition to democracy. Such is the case in 
Liberia, where we have teamed with the United Nations to create a 
Capacity Building Fund to support the reform efforts of President 
Sirleaf. I will discuss this ongoing effort, as well.
    Throughout the Network's history, there have been numerous 
instances where U.S. Government democracy assistance has complemented 
OSI's efforts to promote an open society. At various times and in 
various places, the Soros Foundations Network has co-funded initiatives 
with the U.S. Government and other governments in areas such as civil 
society development, public health, and education. Bosnia, where we 
have been working with the local governments and other governments over 
a long period, is one example where this cooperation is yielding 
results, as I shall discuss.
    Our ability to work effectively with the U.S. Government has varied 
over time. At the current moment, perceived association with the U.S. 
Government is not always helpful. The last general principle I will 
mention is that we believe that private, nongovernmental funding 
directed to local groups is always an essential element of democracy 
building. Government funding, especially from a major power such as the 
United States, is most likely to be effective if it comes through 
entities like the National Endowment for Democracies and its associated 
institutes rather than from the government directly. However, 
government funds given to support American and local NGOs can also play 
an important role.
    I would be pleased in the question period to elaborate further on 
these general principles and to explain in more detail how the Soros 
Foundations Network operates. However, I would like to use my remaining 
time to illustrate our operational approach by focusing on a few 
specific cases. These reports are very different in style precisely 
because they reflect, as does all our work, direct input from the local 
Soros Foundation. I thought this was a useful way to underscore our 
conviction that local leaders must be allowed to speak for themselves 
and to present the challenges and opportunities as they see them.

                                UKRAINE

    Because of its nonpartisan mandate and concrete programmatic 
orientation, the International Renaissance Foundation (IRF, the Kyiv-
based Soros body in Ukraine) viewed the recent elections as more of a 
means than an end. The elections were considered a significant 
institutional milestone, to be sure, but one which presented a 
challenge to be sure that IRF remained faithful to its key priorities. 
Those efforts focused on election-monitoring (most notably via an exit 
poll that they helped spearhead with other donors), voter education, 
public opinion analysis and regional debates, and guarantees of voter 
rights.
2004 Presidential election
    The IRF supported complex programming during the presidential 
contest of 2004. Needless to say, the funded projects did not seek to 
support a particular candidate, but worked to create an environment 
conducive to compliance with Ukrainian electoral law, respect of 
voters' rights, and open access to information. A few key examples of 
their work:

  <bullet> Monitoring election financing: Identifying the total cost of 
        the candidates' campaigns, the distribution of federal 
        electoral funds, and the transparency and accountability of 
        both;
  <bullet> Monitoring media coverage of the election period;
  <bullet> Supporting NGO coalitions, working on voter rights and civic 
        engagement; and
  <bullet> Supporting exit polls (widely viewed to be the crucial 
        impetus for the mobilization of the Orange electorate in 
        protesting the election's falsified results).
2006 Parliamentary election
    During the March 2006 parliamentary elections the IRF supported 
many of the same initiatives as discussed above, including key exit 
polls which provided laudably accurate results. In light of the 
increased power of Ukraine's parliament due to constitutional reform, 
the foundation focused on enhancing the quality and availability of 
information and analyses of party platforms so that voters could make, 
as the IRF called it, a ``deliberate choice.'' Amid this effort, 
Ukrainian NGOs were provided with support to enable them to study 
campaign promises and party political records on concrete issues and to 
distribute the findings to the media and on the Internet. Public forums 
were held all over Ukraine about the results, with journalists, 
experts, and average citizens participating. IRF also supported a 
series of round tables, debates, and interviews with leading 
politicians that were broadcast on television and the radio. Not only 
did this effort improve the quality of information provided to 
Ukrainian citizens, it also set a higher standard for public scrutiny 
of political choices. Correspondingly, the initiative encouraged 
Ukrainian politicians to establish a political culture characterized by 
competing public policies, programs and individuals, rather than vague 
populist pledges.
Other International Renaissance Foundation activities
    The areas focused upon by the foundation during the recent 
electoral period--freedom of expression, transparency and 
accountability, and human rights work, broadly defined--are those in 
which the foundation has had a long-term interest and which constitute 
the core of Network-supported activities. The IRF also supports 
projects and programs which foster the development of civil society and 
promote the rule of law and the independence of mass media. For 
instance, the IRF has provided funding to diversify information sources 
for civil society, democratize education and public health, and protect 
minority rights.
    A major advocate for transparency in Ukraine, IRF is a model of 
transparency itself, openly conducting tenders for its funding and 
informing the public regularly of its activities through press 
conferences, bulletins, and Internet publications.
    Several key examples of the IRF's current work include:

  <bullet> Supporting legal aid and creating a pilot network of legal 
        aid centers (in most parts of the former Soviet Union, a formal 
        system of legal aid is absent);
  <bullet> Supporting publication of a seminal report on the state of 
        human rights in Ukraine, prepared by a network of Ukrainian 
        human rights organizations;
  <bullet> Supporting public access to government information through 
        information requests to various public bodies and legal action 
        against those bodies which refuse to release requested material 
        (In part, due to this effort, the Ministry of Justice recently 
        affirmed that the widespread practice of secret decrees was 
        illegal.); and
  <bullet> Supporting a pilot testing initiative in 33 universities to 
        eliminate the rampant corruption inherent in entrance 
        examinations.

                                BULGARIA

    The Open Society Institute has been the primary private funder of 
NGOs in Bulgaria for the last 16 years and has consistently promoted 
the fundamental values and processes of liberal democracy. These 
programs demonstrate the importance of a long-term commitment to help 
institutionalize key elements of democracy over time and to create the 
needed civil society components.
    The foundation has played a decisive role in creating and 
maintaining the infrastructure of Bulgaria's civil society. It has 
founded more than 20 NGOs and has provided support to more than 50 
others. These organizations constitute the most active segment of 
Bulgaria's civic sector and include watchdog groups, think tanks, 
grassroots NGOs, and educational institutions such as the American 
University in Bulgaria.
    Among the keys achievements of the foundation are the following:

  <bullet> Opening the world for a generation of students, academics, 
        and intellectuals through scholarships, exchange programs, and 
        fellowships; close to 4,000 individual grants have been 
        awarded, many of them to opinion-leaders and decision-makers in 
        Bulgaria;
  <bullet> Filling voids in Bulgaria's public life with books, 
        publications, and information resources; the translation 
        program single-handedly made available the basics of 
        philosophy, sociology, political science, anthropology (more 
        than 200 titles), subjects that had been ``closed'' by the 
        communist regime;
  <bullet> Dramatically improving the civic awareness and skills of NGO 
        practitioners, civil servants, and politicians at the central 
        and local levels;
  <bullet> Calling attention to the plight of the country's Roma 
        citizens and supported a broad program of advocacy, self-help, 
        and social service to that community; OSI also initiated the 
        Decade of Roma Inclusion (with the World Bank as partner), 
        which led the Bulgarian Government to adopt an $800 million 10-
        year program for improving housing conditions for the Roma 
        minority;
  <bullet> Initiating public debates on issues previously left off the 
        agenda, such as access to justice, the rights of people with 
        mental, intellectual, and physical disabilities, and palliative 
        care; and
  <bullet> Introducing innovative approaches to social problems piloted 
        in other countries, such as community policing, diversity 
        management in local government and minority community centers. 
        Many of these were later institutionalized within government 
        agencies.

    Here are some specifics on a few key programs:
Human rights
    OSI has been a major architect of the human rights infrastructure 
in Bulgaria. It helped create and maintain a network of human rights 
NGOs, which produced the first voices promoting radical reforms to the 
old totalitarian system. Through public awareness raising and strategic 
litigation, these organizations have brought about a sea-change in 
Bulgaria's public sphere, including the adoption of modern regulations 
on antidiscrimination and access to public information.
Rule of Law
    OSI has promoted equal access to justice for all citizens. The 
foundation initiated the first research studies on this issue, 
advocated for the new law on Legal Aid (adopted in 2005), and supported 
a network of NGOs providing free legal advice to vulnerable social 
groups. It also supported public interest lawsuits on a variety of 
issues. OSI has established a number of legal clinics and helped design 
national standards for clinical legal education. Much of this work has 
been done in partnership with USAID-funded programs (specifically ABA-
CEELI) and the European Union.
Media
    During the first 7 years of Bulgaria's transition to democracy, OSI 
promoted the development of independent media by providing funding, 
training, and expertise to reporters and editors. These efforts 
included the development of a code of ethics and support for 
investigative journalism. In 1998, the foundation established the Media 
Development Center, which is dedicated to the development of a 
professional journalist community in the country. OSI continues to 
support diversity in media by helping Roma journalists break into 
mainstream news outlets.

                    BOSNIA AND HERZEGOVINA 1992-2006

    The Soros Foundation Network activities in Bosnia and Herzegovina 
illustrates the diverse roles which the Network plays in responding to 
threats and opportunities and in empowering a local population to seek 
its own path to democracy.
    Work began during the siege of Sarajevo begun in November 1992. In 
December 1992, a $50 million gift by George Soros was given to UNHCR 
for redistribution to international NGOs to address the desperate 
humanitarian situation. The intent was not only to help alleviate the 
suffering of those in need of humanitarian assistance; the foundation 
also hoped to attract international humanitarian NGOs to work in Bosnia 
and Herzegovina and, through their presence, provide international 
witnesses who would speak out against the war crimes and crimes against 
humanity committed in connection with the policies of ethnic cleansing. 
Among the projects funded in Sarajevo through the Soros humanitarian 
fund was one which established a new water system; another that 
connected 60 percent of the homes to natural gas for heating and 
cooking purposes; another that brought seeds to Sarajevo to permit 
residents to grow vegetables on terraces and in gardens; and another, 
kept secret during the war so as not to endanger those involved with 
it, that increased the electricity supply to Sarajevo by 30 percent to 
ensure uninterrupted operation for hospitals, the central bakery, the 
TV station, the Presidency, and other facilities necessary for the 
survival of the city.
    Humanitarian assistance activities during this period of necessity 
focused on bare survival in times of war. Foundation projects included 
donations of equipment and supplies, medical facilities, food aid, and 
clothing for the most badly affected groups; establishment of e-mail 
links in many institutions, scholarships, computer courses in Zenica, 
Mostar, and Sarajevo, pen-pal project with Sarajevo children, solar 
lamps to academics and intellectuals, hospitals, and morgues, and an 
open phone line so relatives and friends from around the world could 
call in.
    From 1995-1999, with the relative normalization of the situation 
following the Dayton Peace Accords, the focus moved to building civil 
society and institutions from the remains of the war. A new local board 
was appointed from people all over Bosnia and Herzegovina (not only 
Sarajevo, now that people could travel). Opening of a branch office in 
Banja Luka brought new challenges of working within Republika Srpska, 
new media, new NGOs, more projects to fight nationalism and the high 
influence of Milosevic and Karadzic. Among the new programs:

  <bullet> Priority shifted to education and cultural programs 
        involving young people (anti-brain-drain);
  <bullet> Creating highly specialized centers for media, law, 
        contemporary art, management, and information technology; 
        children education centers;
  <bullet> Publishing program supported together by the foundation and 
        modern Bosnia and Herzegovina literature, as well as authors in 
        social and natural sciences;
  <bullet> Over $8 million supporting independent media (print and 
        electronic) on the premise that there can be no democracy 
        without free media ensuring a truly autonomous space for open 
        public dialog on key social and political issues; and
  <bullet> Other programs included debate and library programs, as well 
        as thousand of grants given to high school and university 
        students, journalists and scientists, professors, musicians, 
        writers, economists, painters, actors and directors, persons 
        with disabilities, doctors, engineers, IT specialists, and 
        linguists.

    Beginning in 2000, the foundation began to focus on a limited 
number of areas identified as priorities on the road toward open 
society. The current approach is the determination to work on long-term 
projects with clear targets which would contribute to a systemic change 
in the society. An important element of the new approach is various 
forms of partnership and cofinancing with other international 
organizations/agencies. Priorities have been selected on the basis of 
an assessment of the relative significance of the subject matter for 
the democratization process.
    The priorities are youth and long-term education reform, promoting 
rule of law and good governance, and protecting minorities and other 
vulnerable groups. The foundation prioritized youth since they can 
serve as advocates of a better and more open society, and long-term 
education reform programs, since they use ``top-down'' and ``bottom-
up'' approaches equally, thus improving both levels at the same time. 
The impact is felt at the system level in its institutions and at the 
local level in the schools themselves.
    The second priority--building an open society through the promotion 
of the rule of law and principles of good governance--is the focus of 
the law program and the local governance program. The law program is 
dedicated to creating an ambience that would lead toward the rule of 
law, in general, as well as human rights protection and improvements in 
knowledge and skills of those who are supposed to be the pillars of the 
rule of law in society. Promoting a culture of transparency and 
accountability among local authorities and strengthening democratic 
values through civic participation in decision making is at the core of 
the local governance program.
    The third priority concerns minorities and other vulnerable groups. 
The Roma Program tries to bridge the gap that still divides the Roma 
and the rest of society, through capacity building in Roma 
associations, inclusion of Roma children into the education system, as 
well as protection and support to Roma culture and ethnic identity. 
Although statistically they are not a minority, women qualify as a 
``vulnerable group'' on the basis of their position in society. The 
women's program promotes upgrading women's human rights, equality, and 
empowerment, while also focusing on combating violence against women.
    In 2000, the foundation undertook a huge research project called 
``Developing the New Policies of International Support in Bosnia and 
Herzegovina--Lessons (Not) Learned,'' that ended with an international 
conference and publication of a book.
    In 2005, the foundation conducted a democracy assessment project 
which aimed to provide systematic evidence of the actual state of the 
democracy in Bosnia and Herzegovina. Based on the International 
Institute for Democracy and Electoral Assistance's methodology, the 
assessment represents the first-time research done by local people and 
not international organizations; by identifying weaknesses of current 
political practice, the assessment also provides a platform for an 
already established NGO coalition, supported together by the foundation 
and USAID, that pursues the promotion of ``issue-based'' instead of 
``ethnic-based'' voting as the country approaches general elections in 
October 2006. This assessment also created the base for a further, 
continuous engagement of the foundation in the monitoring of democratic 
development in the country.

                               INDONESIA

    While Suharto was in power, the Network assisted media in Indonesia 
by supporting publications under attack by the regime and by connecting 
radio stations across the archipelago and enabling them to form a 
network, known as 68H, capable of broadcasting national newscasts. Our 
support was provided through the Media Development Loan Fund which was 
established by OSI in the mid-1990s, and is now an independent 
organization that OSI continues to support. At the outset, the radio 
network in Indonesia provided connections by Internet to about 150 
stations; today, it continues to operate with about 300 member stations 
connected by satellite. We are currently supporting 68H by providing 
funds to radio stations damaged by the recent earthquake. Now, the Open 
Society Institute's primary grantee in Indonesia is Yayasan Tifa, one 
of the largest grant-giving indigenous foundations in the country. Soon 
after the fall of Suharto, OSI brought together a group of Indonesian 
public intellectuals, NGO leaders, and other like-minded persons to 
formally launch a foundation that would promote open society values. 
OSI was the sole funder for the first years; now Tifa has been able to 
attract other funds, though OSI is still the main funder.
    Through this foundation, OSI supports programs in the areas of 
human rights, local governance, media, conflict prevention, pluralism, 
and access to justice in the most populous Muslim country in the world. 
In each programmatic area, Tifa begins the process of defining its 
strategy by consulting with NGOs and civil society organizations about 
what the local communities and individuals feel are the issues of 
greatest concern and need. The foundation, staffed completely by local 
Indonesians, develops its program and grant-making strategies from this 
initial feedback. The grant decisions are then made by a combination of 
recommendations by program officers to Tifa's senior administration and 
members of the board of directors, who are also all Indonesians.
    Two of the priorities of OSI in Indonesia have been support for the 
peace process in Aceh and support to local media.
Revitalizing and Supporting Civil Society in Aceh 2005-2006
    Tifa made a number of grants to help civil society respond after 
the tsunami. These included:

  <bullet> A meeting of civil society groups in Aceh--140 members of 
        civil society and donor institutions met to discuss priorities 
        and strategy;
  <bullet> A meeting of religious leaders--600 religious leaders from 
        Aceh and surrounding districts met and wrote a letter of 
        recommended actions to government officials;
  <bullet> Providing grants to rebuild structure of NGOs effected by 
        the tsunami;
  <bullet> Partnering with women's organizations to help them foster a 
        stronger role for women in the post-conflict society through 
        providing model quality programming for their community; and
  <bullet> Supporting advocacy NGOs that focus on budget monitoring and 
        corruption watch.

    Tifa also developed a Conflict Prevention: Early Warning System 
(EWS) based on the view expressed by interim Tifa executive director, 
Budi Santoso, that, ``If conflict prevention is done by strengthening 
communal rights of local people and enlightening them to democratic 
values, we believe that they can work for preventing conflict.''
    The EWS teams in Aceh, Ambon, and West Kalimantan organize networks 
of local people (multi-stakeholder network, both at the village and 
district level) to analyze the situation on the ground to better 
forecast the potential of conflict or tension in their area. They are 
also trained to analyze the potential of using local capacity to settle 
conflicts.
    Tifa and EWS Jakarta are working to rebuild the Aceh EWS post-
tsunami. They will begin by developing baseline data and conflict 
mapping and then reorganize the network or organizations committed to 
EWS. There have been several NGOs that have voiced their commitment to 
EWS; Tifa feels it is important to support.
    The post-tsunami peace agreement is fragile and facing a most 
difficult time with the reintegration of the Indonesian military and 
separatist movements' members back into the community. There are many 
unresolved issues, including alleged unequal compensation that appears 
to favor the ex-separatists versus their victims. Meanwhile, 
reconciliation is an urgent need. Tifa is supporting the ulemas 
(religious leaders) to make a community reconciliation plan by 
consulting all of the conflicting parties, including the government, 
military, police, and ex-separatist members. The perpetrators are being 
asked for forgiveness before the community with a promise to make 
peace, in a local ritual called ``pesijeu.'' This locally organized 
peace and reconciliation effort has been attempted in several areas, 
such as Aceh Utara, Aceh Barat Daya, and Aceh Besar. Tifa has worked 
with religious organizations in Aceh, namely Rabitha Taliban, HUDA, and 
Insafuddin, to bring about this peace and reconciliation effort.
Independent media
    A second major area of Tifa's work is supporting independent media. 
Among the key activities:

  <bullet> In 2005, Tifa supported nine local media organizations.
  <bullet> Most support goes to community radios outside of Jakarta to 
        help the grassroots stay better informed.
  <bullet> The long-term goal is to help the community radio stations 
        draft legislation that will regulate and support the use of 
        community radio as part of the community development process.
  <bullet> Example: COMBINE Research Institute of Yogyakarta helps 
        communication between grassroots and mainstream through 
        activists and advocates who use radio and multiple forms of 
        media.

                         LIBERIA IN TRANSITION

    After a quarter century of war, corruption, state failure, and 
massive human rights abuses, Liberia is taking the difficult but 
necessary first steps toward reform. The new President, the first 
female elected to the post on the African continent, is motivating 
international actors, West African states, and Liberia's citizens for 
participation in a package of needed and possible reforms. Prospects 
for Liberia's future appear positive at the moment. Failure would 
undoubtedly contribute to regional
instability, a proliferation of mercenaries, further exploitation of 
Liberia's natural resources and a return to war. The present juncture, 
where a fair and democratic electoral process has culminated in 
prospects for development rather than for ethnic-based conflict, is a 
rare and catalytic opportunity to help forge a beacon of stability in 
an otherwise tense regional context.
    The unique architecture of the Open Society Network provides a 
readily accessible and locally informed means to support and help 
sustain transition in Liberia. A combination of local representation 
and expertise and international policy experience ensures a locally 
owned process for capacity building and sustainable reform in the 
country. In addition, thematic expertise in the network in such areas 
as public heath, revenue transparency, and independent media increases 
the depth and breadth of Open Society engagement.
    The distinctive and multilayered architecture helps to prioritize 
and amplify Liberian voices. The Open Society Initiative for West 
Africa (OSIWA), a regional foundation of the Soros foundation network 
supported nongovernmental and community-based organization in Liberia 
during the turbulent years of war. OSIWA held a
consultative meeting in Monrovia in March 2006 to reengage with 
partners, listen to the needs of local communities, and deepen its 
commitment to Liberia. The OSIWA delegation visited the newly 
established Truth and Reconciliation Commission, legislators, 
government ministries, and international agencies such as the United 
Nations Mission in Liberia. The visit offered a means to develop a 
calibrated strategy of engagement centered on the core value of 
entrenching local solutions to local challenges.
    The following examples illustrate the range and characteristics of 
the strategy:

    An urgent need for accountability, justice and reconciliation--
requires an accessible Truth and Reconciliation Commission. OSIWA 
provided a grant to the Commission, thereby allowing activities to 
begin while it raises funds regionally and internationally. Network 
offices in Washington, New York, and Brussels complement the grant by 
coordinating fundraising tours and visits with the Diaspora for 
commissioners.
    Responding to a need for amalgamation among civil society actors 
and ethics training to avoid corruption in the sector--OSIWA programs 
are working with civil society actors on coalition building and will 
create a forum for civil society organizations to meet counterparts in 
neighboring countries such as Sierra Leone to share best practices. 
Support to civil society not only provides opportunities to grow a new 
tier of civil society leaders, but also ensures the development of 
watchdogs that are a critical element of open and democratic space.
    Capacity building is an essential element of reconstruction.--OSIWA 
and the Open Society Institute (OSI) in New York support the UNDP-
administered Liberia Emergency Capacity Building Support Project. The 
project provides support to the Government in its efforts to attract 
Liberian experts to manage key public service positions and to initiate 
a series of major reforms needed to transform and restore the twin 
attributes of efficiency and integrity to the Liberian public service. 
Additionally, OSI supports the Center for Global Development which is 
assisting Liberians in a project to implement an economic strategy and 
partner coordination mechanism, and assisting with IMF and World Bank 
negotiations.
    Reforms are of course impossible without the requisite funding. 
Lost revenue from corrupt extractive industries in the past drained the 
Liberia economy.--OSI provides funds to the International Senior 
Lawyer's Project to support their review of the Firestone and Mittal 
Steel contracts on behalf of the Government of Liberia.
    Raising the living standards of a deeply impoverished populace will 
assist in peace building and alleviate suffering.--OSIWA and the 
Network Public Health Program are jointly funding programs to map the 
legal framework for HIV/AIDS and supporting projects for communities to 
heal from massive gender-based violence, a hallmark of the war years.
    Education can counter the ignorance that fuels ethnic-based 
rivalries.--The war largely destroyed infrastructure including schools. 
OSI therefore supports the Liberia Educational Trust, which makes 
small- and medium-sized grants to Liberian community-based 
organizations to rebuild schools, provide scholarships, distribute 
teaching materials, develop teachers' capacity, and support accelerated 
learning programs for older war-affected youth.
    Independent media offers a valuable tool for social dialog.--OSIWA 
has just launched West African Democracy Radio, an outfit linking 
community stations in the Mano River Union (Liberia, Guinea, and Sierra 
Leone). The radio is the first of its kind and allows sharing among and 
within communities engaged in peace building.
    Local, national, regional, and international advocacy is an 
essential ingredient in motivating support for all reform activities.--
OSIWA and OSI representative offices in New York, Washington, DC, and 
Brussels have joined forces to raise the profile of Liberian voices 
among the diverse actors assisting the country.
    In conclusion, OSI, particularly OSIWA, holds firm to the belief 
that democratization is a participatory process that must involve 
indigenous voices, not generic solutions provided by outsiders who lack 
local knowledge and often do not involve the populations they claim to 
serve. The multilayered and multidimensional input provided by the Open 
Society Network enshrines local ownership and local capacity building 
necessary to affect positive change.

                            CLOSING REMARKS

    These words, Mr. Chairman, accurately reflect the view, not only of 
OSIWA as it relates to Liberia, but of the network as a whole as it 
seeks to support civil society struggling to establish and maintain 
democratic regimes.
    I want to close by expressing the appreciation of the Network for 
all that you, Mr. Chairman, and this committee do to promote respect 
for human rights and to help people struggle for democracy. We are 
grateful for the opportunity to describe what the Soros Network does 
and what its philosophy is and to participate in this important 
discussion.
    I would be pleased to answer your questions and to provide any 
additional information that members of the committee might wish to have 
made part of this record.
    Thank you.

    The Chairman. Well, thank you very much for your testimony 
and for your thoughtful comments about our committee. We 
appreciate that.
    Mr. Carothers, would you proceed with your testimony?

STATEMENT OF THOMAS CAROTHERS, SENIOR ASSOCIATE AND DIRECTOR OF 
 THE DEMOCRACY AND RULE OF LAW PROJECT, CARNEGIE ENDOWMENT FOR 
              INTERNATIONAL PEACE, WASHINGTON, DC

    Mr. Carothers. Thank you very much, Mr. Chairman. I 
appreciate the opportunity to testify at this hearing. And I 
also want to thank you personally for your deep and sustained 
interest in democracy promotion over the years.
    The subject of democracy promotion has in recent years 
moved to the center stage of American foreign policy as a 
result of the heightened awareness of the strong connections 
between the advance of democracy in the world and vital U.S. 
national interests. The U.S. Government is devoting greater 
resources today than ever before to the task of supporting 
democracy abroad.
    Nongovernmental organizations play a crucial role in 
implementing many U.S. democracy assistance programs. Yet many
organizations involved in the democracy field are encountering 
significant obstacles and difficulties in the current 
international context. Understanding these new challenges and 
their causes is
crucial to improving the effectiveness of democracy promotion 
efforts, both governmental and nongovernmental alike.
    As the chairman has indicated in his opening statement, 
resistance to and measures opposing democracy aid are 
multiplying in the world. This is not just occurring in 
governments or in countries where the governments are hostile 
to the United States. Perhaps the leading proponent of such 
measures is a government which is one of our G-8 partners, the 
Government of Russia.
    In part, these actions are due, as the chairman mentioned 
in his opening statement, as a reaction to the color 
revolutions that have occurred in different countries in recent 
years. But I think the picture is more complicated than that 
and it is important that we understand the full range of causes 
that are at work.
    In addition to the color revolutions, we also have to note 
the fact that the Bush administration's emphasis on the Iraq 
war as the leading edge of its democracy promotion policy in 
the Middle East has closely associated democracy promotion with 
the assertion of American military power and security 
interests. With the United States intervention in Iraq 
unfortunately viewed as illegitimate in most parts of the 
world, the legitimacy of the general concept of democracy 
promotion has suffered accordingly.
    Although these two developments, the color revolutions and 
the Iraq war, are essentially unconnected, their simultaneous 
or relatively simultaneous occurrence has caused many people in 
the world, as well as many authoritarian and semi-authoritarian 
governments, to take a new and much harder look at U.S. 
democracy promotion activities on their territory.
    Second, the status of the United States as a symbol of 
democracy and human rights in the world has been greatly 
damaged by the abuses committed by the United States military 
and intelligence personnel in Iraq, in Afghanistan, at 
Guantanamo Bay, and elsewhere. And our reputation as a promoter 
of democracy and a symbol of democracy has also been hurt by 
other elements of the war on terrorism, including the secret 
rendition of foreign terrorism suspects to countries that 
regularly practice torture, reliable reports of covert prisons 
in Europe, governmental eavesdropping without court warrants 
within the United States, and so forth.
    Unfortunately, U.S. abuses empower foreign leaders to say 
to U.S. democracy promoters who are trying to get them to 
conform to standards of human rights and democracy: Who are you 
to tell us what to do in this regard?
    Third, I also have to note the high price of oil and gas is 
bolstering the position that many nondemocratic governments 
around the world, especially in the former Soviet Union, and 
the Middle East, but also in Africa and Latin America. Almost 
all oil-rich states outside Europe and North America are 
autocratic. And the surge of oil and gas revenues that they are 
enjoying are strengthening their hand at home.
    Moreover, some of these governments, particularly in 
Russia, Iran, and Venezuela, are taking advantage of this 
revenue windfall to fund their own cross-border political work. 
They are passing money to political allies or favorites to help 
influence the domestic politics of nearby countries in ways 
they hope will be favorable to their own interests. This 
challenging new context creates a number of imperatives, both 
for nongovernmental organizations and the U.S. Government 
alike.
    Quickly, with respect to nongovernment organizations, I 
think first these organizations, whether funded by the U.S. 
Government or in some cases privately funded, must adjust to 
operating in a context of heightened suspicion about democracy 
promotion generally and United States-funded efforts, in 
particular. In some cases, this means choosing between the path 
of greater secrecy or less transparency on the one hand and 
more openness. And I have watched some of the democracy 
promotion organization face this choice. And I think it is very 
important that these organizations try to communicate more 
fully and effectively with citizens in host countries about 
what they do and why they do it and not take the path of 
secrecy.
    Misunderstanding about the nature of democracy aid is very 
common in recipient countries. And many democracy promotion 
organizations have not taken serious steps to change that 
situation.
    Second, it means that democracy promotion groups need to 
refine their strategies for pushing back against push-back. Now 
in some cases, this means pushing back hard and publicly 
against measures to block democracy aid. In other cases, such 
sort of active push-back will only fuel national sentiments and 
be counterproductive. Figuring out the right approach in 
different situations is difficult but crucial.
    Third, U.S. democracy promotion organizations, as they 
develop their strategies and tactics for pushing back, have to 
be reasonable and realistic about what sort of access they 
expect in host countries. The United States and all other 
established democracies do put some limits on the political 
activities of foreign organizations operating within their 
borders. Expecting other governments to allow greater access to 
foreign organizations not allowed by the United States in the 
political realm is unrealistic, especially in situations of 
tense relations between the United States and the country in 
question.
    With respect to the U.S. Government and its response to 
this challenging context, I would emphasize five things. First, 
the U.S. Government must not make the mistake of confusing 
regime change with democracy promotion. Regime change policies 
in which the U.S. Government seeks to oust foreign governments 
it views as hostile to U.S. interests, whether through military 
force or diplomatic and economic pressure, fail to gain 
international legitimacy. And they contaminate democracy 
promotion when they are presented as such.
    The danger of such confusion is especially high today with 
regard to Iran. It is extremely difficult and potentially 
counterproductive for the United States to try to carry out 
democracy promotion activities in Iran if the underlying 
motivation is regime change.
    Second, the United States must get its house in order with 
regard to violations by U.S. military and intelligence 
personnel of the rights of foreign detainees and prisoners 
abroad. The repeated tendency of the Bush administration to 
downplay serious abuses by U.S. personnel, to fail to pursue 
responsibility up the chain of command, and to not take clear 
steps at the top to make sure there is no ambiguity about the 
impermissibility of torture by U.S. personnel must be reversed 
if U.S. democracy promotion efforts are to operate from a base 
of significant credibility in the world.
    Third, the Bush administration must steer clear of its 
growing habit of taking sides in foreign elections, whether 
through statements of preference about electoral outcomes by 
United States ambassadors, as has occurred in several Latin 
American countries in recent years, or aid programs which are 
designed to make the incumbent party look good against a 
challenger that the United States disfavors, as occurred prior 
to the recent Palestinian elections.
    Fourth, the Bush administration must reduce the glaring 
double standard in democracy promotion in which unfriendly 
nondemocracies are singled out for pointed attention to their 
political failings, while those nondemocracies that are helpful 
to the United States, economically or in security terms, get 
close to a free pass. To give just one recent example, the weak 
United States response to the manipulated 2005 elections in 
both Kazakhstan and Azerbaijan undercut the United States 
assertion of democratic principles in Belarus.
    Finally, and in closing, the U.S. Government must give 
greater emphasis and prominence to efforts to work in 
partnership with European governments and international 
organizations on democracy promotion. Although the United 
States is a leading actor in democracy promotion, it is only 
one of many in what has become a widely populated field. 
Portraying the United States as a city on the hill or having a 
uniquely special calling for democracy promotion sends the 
incorrect and unhelpful message to the world that democracy 
promotion is all about the assertion of the United States and 
its interests, rather than something that nearly all 
established democracies are concerned with and involved in.
    If a freedom agenda is to be effective, it must not be a 
solely U.S. agenda but a global one.
    Thank you very much.
    [The prepared statement of Mr. Carothers follows:]

 Prepared Statement of Thomas Carothers, Senior Associate and Director 
   of the Democracy and Rule of Law Project, Carnegie Endowment for 
                  International Peace, Washington, DC

    Thank you for the opportunity to testify at this hearing. The 
subject of democracy promotion has in recent years moved to the center 
stage of U.S. foreign policy as a result of the heightened awareness of 
the strong connections between the state of democracy in the world and 
vital U.S. national interests. The U.S. Government is devoting greater 
resources than ever before to the task of supporting democracy abroad. 
Nongovernmental organizations (NGOs) play a crucial role in 
implementing U.S. democracy assistance programs. Many organizations 
involved in the democracy field are encountering significant obstacles 
and difficulties in the current international context, some of which 
are the result of problematic U.S. policies and some of which are the 
result of causes outside the control of the United States. 
Understanding these new challenges and their causes is crucial to 
improving the effectiveness of all democracy promotion efforts, 
governmental and nongovernmental alike.

                 THE CHALLENGING INTERNATIONAL CONTEXT

    Democracy promotion is never easy. In the past several years, 
however, a number of events and trends have rendered the overall 
context for democracy promotion unusually challenging.
    First, suspicion about and resistance to U.S. democracy promotion 
activities in developing countries and postcommunist countries is at an 
all-time high. Democracy building work has long been greeted with 
skepticism abroad by persons unsure about the true motivations of 
democracy promoters and wary of what sometimes appears to them as 
foreign-sponsored political interference. But a combination of two 
different developments in the past several years has greatly increased 
such negative attitudes around the world:

  <bullet> The Bush administration's emphasis on the Iraq war as the 
        leading wedge of its democracy promotion policy in the Middle 
        East has closely associated democracy promotion with the 
        assertion of American military power and security interests. 
        With the United States intervention in Iraq viewed as 
        illegitimate in most parts of the world, the legitimacy of the 
        general concept of democracy promotion has suffered 
        accordingly.
  <bullet> The recent ``color revolutions'' in Georgia, Ukraine, and 
        Kyrgyzstan have also contributed to growing global unease about 
        democracy promotion. The dramatic, inspiring political 
        breakthroughs in these countries were an important advance for 
        democracy. Yet, as accounts of U.S. support for key civic and 
        political opposition groups in these countries spread, so too 
        did the incorrect but seductive idea that the United States was 
        the shadowy guiding hand behind those events.

    Although these two developments--the Iraq war and the color 
revolutions--were unconnected, their coincidence has caused many 
authoritarian and semiauthoritarian governments to take a new, much 
harder look at U.S. democracy promotion activities on their territory. 
Many governments have started actively pushing back against democracy 
assistance, arguing that blocking such programs is
necessary to defend their national security against what they portray 
as a United States bent on carrying out regime change against 
governments it does not like.
    Although this new pushback against democracy promotion is occurring 
in many places, including Asia, Africa, and Latin America, the most 
concerted resistance is coming from Russia. Russian President Vladimir 
Putin has mounted a major campaign against Western democracy promotion, 
not only taking a series of punitive measures to limit the activities 
of Western democracy groups in Russia but also encouraging neighboring 
governments, especially those in Central Asia, to do the same. 
Nondemocratic governments have often put up obstacles to democracy 
promotion. This is the first time since the cold war, however, that a 
major government has made such a systematic and public campaign against 
democracy aid and worked across borders to enlist other governments in 
the cause. The fact that the campaign is originating not from a hostile 
government but from one of the United States's G-8 partners is 
especially significant.
    Second, the high price of oil and gas is bolstering the position of 
many nondemocratic governments around the world, especially in the 
former Soviet Union and the Middle East, but also in Africa and Latin 
America. Almost all oil-rich states outside Europe and North America 
are autocratic; the surge of oil and gas revenues they are currently 
enjoying is helping strengthen their hand at home. Moreover, some of 
these governments, particularly those in Russia, Iran, and Venezuela, 
are taking advantage of this revenue windfall to fund their own cross-
border political work. They are passing money to political allies or 
favorites to help influence the domestic politics of nearby countries 
in ways they hope will be favorable to their own interests. More than 
almost any other single factor, a significantly lower price of oil 
would be a tremendous boost to the fortunes of democracy abroad.
    Third, again for the first time since the end of the cold war, 
democracy no longer enjoys an unchallenged place on the international 
scene as the only political system viewed as successful and credible. 
China's continued economic success has elevated the ``strong-hand'' 
political approach to managing economic development as an attractive 
model in many parts of the developing world. Authoritarian leaders in 
the Middle East, Asia, and elsewhere justify their repressive tactics 
by citing the Chinese example. Citizens in some countries with poor 
development records show a willingness to sacrifice some of their 
freedoms for the possibility of better economic development. Although 
Russia's recent economic growth is substantially due to high energy 
prices, President Putin has received much of the credit for it, 
bolstering his popularity and contributing to the growing appeal of the 
strong-hand political model.
    Fourth, the status of the United States as a symbol of democracy 
and as a leading promoter of democracy has been greatly damaged by the 
abuses committed by U.S. military and intelligence personnel in Iraq, 
Afghanistan, Guantanamo Bay, and elsewhere, as well as by other 
elements of the war on terrorism, such as the secret rendition of 
foreign terrorism suspects to countries that regularly practice 
torture, reliable reports of covert prisons in Europe, and governmental 
eavesdropping without court warrants within the United States. The 
damage to America's image has been enormous, a fact that is plainly and 
painfully obvious to anyone who is internationally aware, either abroad 
or at home, but which the administration refuses to acknowledge. The 
widespread perception that the war on terrorism entails the frequent 
violation of individuals' rights by the U.S. Government sharply 
contradicts President Bush's efforts to tell the world that liberty is 
the best antidote for terrorism.
    Fifth, a narrower development, but one that goes to the heart of 
the United States push for democracy abroad, is the success of Islamist 
groups in two recent elections in the Middle East, in Egypt, and the 
Palestinian territories. The surprisingly strong showing of Egypt's 
Muslim Brotherhood and the victory of Hamas reopened old debates about 
whether democratization in the Middle East might actually be harmful to 
American interests by allowing Islamists parties or groups to come to 
power. Some commentators and some quiet voices in the U.S. Government 
have reacted by urging the administration to retreat from its embrace 
of a democracy agenda for the Middle East. The United States now faces 
some very hard choices about whether to sacrifice its commitment to 
democracy for the sake of opposing political forces it believes are 
dangerous to U.S. interests.
    The fact that the international context for U.S. democracy 
promotion work has become more difficult does not mean that the United 
States should give up trying to support democracy's advance in the 
world. But it does mean that U.S. democracy promotion actors, 
nongovernmental and governmental alike, must take adaptive steps.

  IMPERATIVES FOR NONGOVERNMENTAL ORGANIZATIONS ENGAGED IN DEMOCRACY 
                               PROMOTION

    U.S. nongovernmental organizations engaged in democracy promotion 
should do several things to respond to this unusually challenging 
international environment for their work.
    First, they must adjust to operating in contexts of heightened 
suspicion about democracy promotion generally and about U.S.-funded 
efforts, specifically. This means they need to communicate more fully 
and effectively with citizens in host countries about what they do and 
why they do it. Misunderstanding about the nature of democracy aid is 
very common in recipient countries and many democracy promotion 
organizations have not taken serious steps to change that situation. 
Rather than assuming that most people will be neutral or favorably 
inclined toward democracy promotion work, as many democracy promoters 
seem to do, they need to proceed from the assumption that many people, 
both political elites and ordinary citizens, will start with a negative 
view of any U.S. organization working on democracy issues.
    It also means that democracy promotion groups need to refine 
strategies for pushing back against pushback. In some cases, pushing 
back hard and publicly against measures to block outside democracy aid 
will be the right approach. In other cases, it will only fuel 
nationalist sentiments and be counterproductive. Figuring out what is 
the right approach in different situations is difficult but crucial. 
Also critical is knowing when to push for broader diplomatic support 
from the U.S. Government against resistant host governments. The recent 
United States effort to counteract the Kremlin's proposal to prohibit 
Western organizations from operating representative offices in Russia 
was successful but had the quality of an improvised campaign rather 
than one drawing upon a well-planned response strategy to democracy 
pushback. Furthermore, as they develop their strategies and tactics for 
pushing back, U.S. democracy groups need to be reasonable and realistic 
about what sort of access they expect to get in host countries. The 
United States and all other established democracies put limits on the 
political activities of foreign organizations operating within their 
borders. Expecting other governments to allow greater access to foreign 
organizations than that allowed by the United States is unrealistic, 
especially in situations of tense relations between the United States 
and the country in question.
    Second, U.S. democracy promotion groups must focus attention on the 
fact that they can no longer assume a majority of citizens in countries 
where they work believe that democracy is necessarily the best possible 
political system. Dissatisfaction with the social and economic 
performance of new democratic systems is rife in the developing world. 
The growing attractiveness of the ``strong-hand'' model in many places 
means that democracy promoters must think about how to engage citizens 
in host countries in fundamental debates about the strengths and 
weaknesses of competing systems. Simplistic civic educational efforts 
extolling the virtues of democracy are inadequate; more sophisticated 
efforts that explore the complexities of the issues at stake are 
needed, especially efforts that seek to reach youth.
    Third, given the sensitivities in many societies about U.S. 
Government intentions with respect to democracy and political change, 
U.S. nongovernmental organizations must take advantage of their 
organizational (though often not financial) independence from the U.S. 
Government to reach out to political actors in other societies who may 
be important parts of potential democratic processes but are wary of 
close contact with the U.S. Government. A good example in this regard 
are moderate Islamist parties and groups in the Middle East and parts 
of South and Southeast Asia. Such parties and groups often have a 
crucial role to play in political life but prefer to keep their 
distance from the U.S. Government. U.S. nongovernmental organizations 
can establish important lines of communication with such groups, 
helping expose them to democratic practices and norms as well as 
increasing understanding in both directions about intentions and 
outlooks. They may be able to do the same with populist movements and 
leaders in other parts of the world, especially Latin America and 
Central and Southeastern Europe.

                  IMPERATIVES FOR THE U.S. GOVERNMENT

    Although this hearing is focused on the democracy-promotion role of 
publicly and privately funded NGOs, the role of the U.S. Government in 
democracy promotion is so crucial, and has in recent years been so 
troubled, that I feel impelled to note, at least briefly, several 
imperatives for the U.S. Government as well.
    First, the U.S. Government must not make the mistake of confusing 
regime change with democracy promotion. Regime change policies, in 
which the U.S. Government seeks to oust foreign governments it views as 
hostile to U.S. interests, whether through military force or diplomatic 
and economic pressure, fail to gain international legitimacy and 
contaminate democracy promotion when they are presented as democracy 
promotion efforts.
    Second, the United States must get its house in order with regard 
to violations by U.S. military and intelligence personnel of the rights 
of foreign detainees and prisoners abroad. The repeated tendency of the 
Bush administration to downplay serious abuses by U.S. personnel, to 
fail to pursue responsibility up the chain of command, and to not take 
clear steps at the top to make sure there is no ambiguity about the 
impermissibility of torture by U.S. personnel must be reversed if U.S. 
democracy promotion efforts are to operate from any base of significant 
credibility.
    Third, the Bush administration must steer clear of its growing 
habit of taking sides in foreign elections, whether through statements 
of preference about electoral outcomes by U.S. ambassadors (as has 
occurred in several Latin American countries) or aid programs which are 
designed to make the incumbent party look good against a challenger the 
United States happens to disfavor (as occurred prior to the recent 
Palestinian elections).
    Fourth, the Bush administration must reduce the glaring double 
standard in democracy promotion in which unfriendly nondemocracies are 
singled out for pointed attention to their political failings while 
those nondemocracies that are helpful to U.S. economic and security 
interests get a free pass. The weak United States response to the 
manipulated 2005 elections in both Kazakhstan and Azerbaijan, for 
example, undercuts the United States assertion of democratic principles 
in Belarus. The same kinds of disparities also hurt U.S. democracy 
policies in the Middle East. Perfect consistency in democracy-related 
policies is not possible given the varying mix of U.S national 
interests in different parts of the world. Yet, at least some effort to 
push harder on friendly autocratic regimes that are undermining 
democratic reforms is necessary to give credibility to forceful U.S. 
criticisms of unfriendly autocratic regimes.
    Fifth, the U.S. Government must give greater emphasis and 
prominence to efforts to work in partnership with European governments 
and international organizations on democracy promotion. Although the 
United States is a leading actor in democracy promotion, it is only one 
of many in what has become a very widely populated field. Portraying 
the United States as a ``city on a hill'' or having a uniquely special 
calling for democracy promotion sends the incorrect and unhelpful 
message to the world that democracy promotion is all about the 
assertion of U.S. power and interests rather than something that nearly 
all established democracies are concerned with and involved in. If a 
``freedom agenda'' is to be effective it must not be a U.S. agenda but 
a global one.

    The Chairman. Well, thank you very much, Mr. Carothers, for 
your testimony.
    I will proceed to a round of questions. We will have 10 
minutes each.
    Let me start by asking you, Mr. Gershman; you mentioned 
that at the board meeting of NED tomorrow there will be 283 
proposals. Characterize: Where do these proposals come from, 
and what kind of proposals are they? In other words, what do 
they propose to do? Can you give some idea? There is a huge 
number of groups that is apparently interested in promoting 
democracy in some fashion. Who are these people?
    Mr. Gershman. Thank you, Mr. Chairman. It gives me also an 
opportunity to brief Senator Sarbanes on the meeting tomorrow, 
since he will be there.
    The Chairman. Try to get him up to speed for the agenda.
    Mr. Gershman. Right. I have not had a chance of speaking 
with him before the meeting.
    The proposals that the NED supports are of two kinds. Some 
of them are programs of the four institutes, and they are all 
over the world in all of the major regions, which is to say 
East Asia, both Southeast and Northeast Asia. South Asia is now 
treated as a separate region. We did not do that when you were 
on the board. Also Africa and Latin America, Central Europe 
with a special focus on the Balkan region, the former Soviet 
Union, which involves the Caucasus and Russia, Ukraine, 
Belarus, as well as Central Asia, and then, of course, the 
vastly growing area, which is really the main change since you 
were on the board, Senator, which is the Middle East.
    And so, the institutes come in for funding for these 
proposals. You know, it is the things that they really cannot 
get government money to do, if they want to go to the State 
Department or AID or other places. But then we have a vast 
aspect of the NED program, which are independent, indigenous 
NGOs. Many of them operate--some of them in Burma or in North 
Korea or operating in exile in Cuba. Obviously many of them 
operating, as I mentioned in Belarus, without registration. But 
wherever they exist and want the support, they come to us, they 
come for support.
    A lot has been said about Iran this morning. But let me 
just note one of the proposals in the book on Iran--very 
interesting, given all the sensitivities that have been 
expressed this morning. It is a Web site that has been 
established here by two daughters of an Iranian Democrat, who 
was assassinated in 1991, in memoriam to their father. It is 
really a memorial Web site, which documents the executions of 
9,000 people by the Islamic regime starting in 1979. And it is 
a Web site which people in Iran can write in to provide new 
information. And they have had over a million hits on it 
already. It was just opened in January. And it is becoming a 
substitute for a truth and reconciliation process in Iran. And 
this is an Iranian initiative and I think it is a very 
important one.
    But there are many initiatives of this kind that seek to 
take advantage of whatever available space that exists. The 
independent libraries movement in Cuba, independent workers, 
newspapers and NGOs focusing on human rights in Belarus, many 
groups in Russia which are focusing on all the problems that we 
are aware of there. Many groups in Venezuela, as worried as 
they are about this new law that I mentioned this morning, they 
are not hesitating to come to the NED for support and want to 
mobilize support in Latin America, obviously, to defend their 
right to receive such support. And the OAS and the Inter-
American Commission on Human Rights are very sympathetic to the 
NGOs in Venezuela, and we need to work with them.
    So, it is global and it is in all these different areas of 
not just the work that the institutes do, but independent 
media, human rights, civic education, conflict resolution, 
groups that are working on all of these different areas 
depending on the situation.
    And let me maybe just say one more word. The NED, in 
thinking about the world, divides up the countries in which we 
are active into four different categories. I understood the 
topic for this morning's hearing to be really on the category 
of semiauthoritarian, what we call hybrid regimes. That is 
really what we are talking about. But also in the category of 
countries where the NED is active are the countries that Mark 
Palmer talked about, the dictatorships, but also then what we 
might call emerging democracies. And then, finally, countries 
that have been through terrible conflict, and where they really 
had all of the institutions, and the state structures 
destroyed, and where you really need a process of rebuilding 
after conflict, where it is state building, as well as NGOs and 
civil society trying to do their share.
    And that is really a fourth and very, very difficult 
category of country, countries, like Liberia, and Sierra Leone, 
and Congo, Sudan, Afghanistan, Iraq in the Balkan region, and 
so forth. This is another very important category of country. 
But in order to understand what needs to be done, it is 
important to disaggregate these different situations.
    The Chairman. Well, I appreciate your response because it 
shows the vibrancy of people throughout the world who are 
interested----
    Mr. Gershman. Absolutely.
    The Chairman [continuing]. And who come to the NED board to 
try to gain some substance, some backing for a variety of 
proposals, including, for instance, the Web site you suggested 
of the two ladies in Iran, and all sorts of indigenous forces 
quite apart from the labor unions, the Chamber of Commerce, the 
Republicans, the Democrats.
    Part of the genius of that whole idea was that these would 
all be combined. And it is good to know that they are vibrant 
after 25 years; likewise, they are proposing consistently new 
approaches.
    But I appreciate that answer because it illuminates for our 
public record the degree and the scope of responses.
    I wanted to pick up on that a little bit with you, 
Ambassador Palmer, because you had some thoughts about the 
Internet. For example, you mentioned that the Chinese 
reportedly have 50,000 persons attempting to censor the 
Internet and that there is some affinity between this and 
Iranian authorities, maybe others in between.
    Now without, you know, going into all the nitty gritty of 
this, it would be fascinating if we could, but how effective 
are these new ideas of software or Web sites that somehow get 
around the 50,000 people in China or however many there are in 
Iran? What degree of confidence do you or anybody else have at 
Freedom House in the efficacy of this business?
    Mr. Palmer. Well, I am pleased to report, Senator, that the 
Dutch foreign ministry has some confidence in the ability to 
get around it. And they funded a Freedom House project for Iran 
precisely to do this, to get around--I think they gave us 
$900,000. So----
    The Chairman. The Dutch foreign ministry?
    Mr. Palmer. Yes. Isn't that interesting, an American NGO 
getting funding from a European government? The answer is not 
simple. That is, you cannot just do one thing to defeat the 
great China wall, firewall, or what the Iranian thugs are 
doing. You have to work at it every day. You have to change e-
mail addresses all the time. You have to keep switching 
servers. It requires manpower but it can be done.
    My Chinese-American--Ph.D. in computer engineering from 
Princeton and MIT--friends who have been without any 
compensation, spending the last several years doing exactly 
this report extraordinary success in people being able to get 
around. And part of the theory behind the project that I 
mentioned, for large-scale financing, is to create a kind of 
firewall outside the country through which Chinese, or Iranian, 
or Saudi, or other Internet users could go so that the regime 
could not trace them. Once they got through the firewall, they 
would not know where they had gone. That is, were they using 
Google, normal Google, or what were they doing? They would be 
free on the other side of this new firewall to operate the way 
a normal human being should be free to operate on the Internet.
    So, we believe that with adequate resources and with the 
brains that exist here and abroad, because many Chinese and 
Iranians--Iran has the second largest number of users of blogs 
in the world. It is an extraordinarily active Internet-using 
country. And China will shortly be the largest Internet user in 
the world--larger than the United States. It is just about to 
pass the United States on the Internet front.
    And there are many smart people inside each of these 
countries, working away at the same thing and succeeding to 
extraordinary degrees. But it does require manpower and some 
money. And if we could do it on a larger scale, we really could 
assure Internet freedom globally.
    The Chairman. Just following up on another aspect of this, 
you talked about the TV and radio work that might be done by 
Iranian students. How does that happen anywhere in the world, 
or how could it happen?
    Mr. Palmer. Well, it does not cost, fortunately, a huge 
amount of money to have a student radio station. The particular 
situation of Iran would mean that the station would have to 
broadcast from outside Iran. But it could get much of its 
information from inside Iran. There is still enough porousness 
that a lot of the programming could come from inside.
    We estimate that for $2.5 million a year, you could do a 
hell of a student radio station. Just to cite an example, the 
Swedish aid agency funded a talk radio station in Iraq, which 
is the No. 1 radio in Iraq. It is called Radio Dijla and it is 
open to everybody. Everybody can get on it. And that is why it 
is the most popular radio station in Iraq today.
    We think that we could do something similar on the Iranian 
side with an offshore radio station run by the student 
movement.
    The Chairman. Well, thank you very much.
    Senator Sarbanes.
    Senator Sarbanes. Thank you very much, Mr. Chairman. I want 
to thank the panel. And I also want to thank the NED for the 
report that they have submitted in response to the chairman's 
inquiry.
    I would like to put this question: How important is it for 
the NGOs that are engaged in democracy encouragement to be 
perceived as not carrying out a governmental policy?
    Mr. Gershman. The question is the U.S. governmental policy 
or their own government?
    Senator Sarbanes. I guess in this context, the U.S. 
Government.
    Mr. Gershman. Well, I think it is critically important, 
critically important.
    Senator Sarbanes. Do the others agree with that?
    Dr. Halperin. Yes. I think absolutely they have to be seen 
as functioning for themselves and I think have to design their 
own plan, which will be effective in their own country.
    Mr. Palmer. I am not sure I agree with that. I think it is 
very important that the U.S. Government be seen to be its own 
democratizing agent, radical democratizing agent. And for NGOs 
to work closely with our embassies, for example, my experience, 
and I have been on both sides, both working as a diplomat and 
working on the NGO side, I think on the whole is a good thing. 
But as Tom mentioned, and I agree with him, the Iraq situation 
has complicated our image as a government and made it sometimes 
more difficult.
    But I would rather see a partnership rather than, you know, 
we have to stay away from each other; that is, embassies stay 
away from our NGOs.
    Senator Sarbanes. Mr. Carothers.
    Mr. Carothers. It is a very good question and I appreciate 
it, Senator Sarbanes. I think how we use the term NGOs here, 
and know it often is perceived in the world are very different. 
Some of these nongovernmental organizations like the U.S. party 
institutes are funded by the State Department, USAID, and the 
National Endowment for Democracy. So when they go to another 
country, in some cases they are carrying out a State Department 
policy in the country in which the State Department has made 
some money available for that. Sometimes they are operating 
with a great degree of freedom that comes from having NED 
money. And sometimes they are carrying out a USAID-sponsored 
initiative.
    How are the people in that country supposed to get it 
clear? It is not always clear to the people in that country. 
And so if, say, NDI is training different political parties in 
Morocco and the Islamist party wonders who are you and why are 
you doing this, it is probably a complicated answer. It may be 
that USAID decided that NDI should be training Moroccan 
political parties. Maybe it is a special grant from the State 
Department. Maybe it is a grant from the National Endowment for 
Democracy.
    In general, I think these organizations are more effective 
if there is a certain amount of space between them and the U.S. 
Government. And they can say we are acting on the basis of our 
own prodemocracy agenda. Yes, we are funded by the Government 
but we are not carrying out specific policies at the direction 
of the State Department or USAID. We have a certain amount of 
independence that allows us to make choices about whom to work 
with and what to do that are based on our own agenda and not 
the U.S. Government's.
    Senator Sarbanes. Three of the four of you, at least, think 
that it is important to have some room in between the 
government and the NGO. My next question is: Has the perception 
changed with respect to democracy promotion so that these NGOs 
are increasingly seen as an agent of the U.S. Government?
    Mr. Gershman. Senator, let me just clarify one point. First 
of all, in relation to what Mark Palmer said--I was not saying 
that the United States should not be seen as supporting 
democracy. But they should be seen as supporting, if they are 
supporting it, authentic Democrats who are supporting their own 
agenda and not implementing a U.S. agenda. That was my only 
point.
    Similarly, I think that it is very important to distinguish 
different kinds of NGOs. In my testimony this morning, I said 
that the laws that are being adopted by the governments are 
affecting indigenous NGOs and newspapers and parties and trade 
unions. It even affects them differently but it affects them on 
one level. And then you have, I think, what Tom Carothers was 
just referring to, which was the U.S. democracy assistance 
implementers, like NDI and IRI, that operate in country. And 
then you have an institution like the NED, which is an 
independent, nongovernmental grant-making institution.
    In all of these cases, I think the independence is 
important. I think it was very wise to take the NED out of the 
U.S. Government so it could have that kind of independence. I 
do think, getting at your question, that when the United States 
makes democracy promotion so central to its foreign policy 
objectives and to its national security, it will be seen by 
some people as if this is implementing a U.S. objective, even 
though we were there long before, and we are going to be there 
hopefully long after this particular period passes. And we must 
be seen as following a consistent, long-term democracy agenda 
and not to have any other agendas. I think our credibility is 
at stake in doing that. I think we have established a good 
track record of credibility. But inevitably, in the current 
situation, you are going to have this problem.
    I will just say one other thing, though. The governments 
that will use arguments that Tom Carothers spelled out, many of 
these governments are looking for pretexts to oppose what we 
do. They are going to be attacking the U.S. Government for its 
policies. And it may be more difficult to respond, given the 
current circumstances.
    One issue that Tom did not mention, which they use in the 
Middle East and other Muslim countries, is the threat of 
Islamism. And you have many dictators that will say that--that 
is the problem and that is why we want to oppose democracy.
    I think these are pretext. I think there are fundamental 
problems that we are facing which will be there, you know, 
regardless of some of the political issues that these 
governments may raise, which is the basic desire on the part of 
these semiautocratic governments to hold on to power and to 
resist any effort from below which might challenge that power.
    But I think the answer to your question is yes, it probably 
is more of a problem today in terms of associations with U.S. 
policy than it was before, precisely because this U.S. policy 
has made democracy promotion such a central objective.
    Senator Sarbanes. Does anyone else want to add anything to 
that?
    Mr. Carothers. I would. I think you put your finger on the 
central point, which is the following. Currently, the U.S. 
Government would like to make democracy promotion central to 
American foreign policy. Yet it is doing so at a time at which 
America's credibility as a democracy promoter, both due to the 
war in Iraq and due to American actions on the war on 
terrorism, I believe is at an historic low. There is a central 
contradiction there.
    If American democracy promotion organizations are held too 
close to the U.S. Government, they are going to be contaminated 
by that contradiction. I think some space is important. And I 
think that there are differences between operating, let us say, 
NED funding than operating with State Department funding. The 
greater the independence they have at this current juncture, 
the greater they are going to be able to stay away from the 
accusation that they are simply carrying out the policy of the 
government whose democracy credentials are suspect in many 
parts of the world.
    Senator Sarbanes. Did you want to add anything?
    Dr. Halperin. Just let me say I think the--I agree with all 
of that. I think this additional point, which I think was 
actually made before, that because our policy is selective, 
that is, we seem to press governments that we do not like about 
their democracy policies and shy away from criticizing 
countries that we do like, even when we do start down that 
path; and I think Egypt is the clearest case. You know, the 
President said, I think correctly, that the policy of many 
different administrations since the end of World War II to 
support dictatorships in that region had to be seen as a failed 
policy and our policy was now going to be to support a 
transition to democracy.
    And then Egyptians, I think partly responding to that, 
tried to organize and participate in the election. The Egyptian 
Government did not permit that. And the U.S. Government turned 
a blind eye to that and suggested it was satisfied. And I think 
all of those elements of being tougher with our enemies than 
with our friends, promising and encouraging people to come out 
and then, in effect, not supporting them. All of those, I 
think, undercuts the effectiveness of a democracy policy.
    Senator Sarbanes. Do you think to be perceived as 
consistent, we have to have a program in every country? Suppose 
we significantly reduce the list and said we can only do a few 
things, and so we will focus on a few countries and get away 
from doing something everywhere, which then raises some of 
these related questions that you have now talked about. Or does 
the pressure to demonstrate consistency require that there be a 
position and a program in every country?
    Dr. Halperin. If I could start, Senator, I do not think we 
need a program in every country. I think my view is we ought to 
be consistent, again in what President Bush has said, to make 
it clear that we have aspirations to see democracy established 
in every country on the globe, but that we recognize that that 
has to be a largely indigenous effort of the people in each 
country, and that we will try to provide support to the degree, 
(A) that our resources permit it; and (B) to the degree that 
the people in that country working for democracy want our 
support.
    And taking those two elements in account, I think we can 
have very different policies in different countries and still 
be consistent with our basic principles.
    Senator Sarbanes. Mark, you wanted to speak to that?
    Mr. Palmer. I think we should have a program in every 
country. It is possible. The intelligence community, the 
academic community, the journalistic community, everybody has 
failed consistently to predict any single democratic transition 
from a dictator to democracy. I do not know of any exception to 
that. We totally miss every prediction.
    What does that mean in this context? Well, to me what it 
means is that you simply do not know which of these many 
countries--let us say there are 100 countries still out there 
that are still either not free or very partially part-free. You 
do not know which one is coming next. You know they are coming 
but you do not know which. And you do not know where, 
therefore, some extra effort could make a difference to the 
local people who are trying to have a breakthrough.
    So, I would say that at a minimum, we need to be present in 
all 45 dictatorships, not-free countries using Freedom House's 
definition of not-free. And then beyond that, I think--and I 
take the point that Mort made earlier--that it is not enough to 
just get the dictators out. You have to stay the course. And I 
think very often you have to stay the course for a full decade, 
sometimes maybe longer. Democracy does not, as we know in this 
country, always come very fast.
    So, I would say that particularly in key countries in 
transition, after the dictator has gone, like Serbia today, we 
should stay the course. We at Freedom House are very concerned 
that the U.S. Government is cutting back its funding for 
democracy promotion in Serbia. And I think personally that is a 
mistake. It is too soon in Serbia. And that would be the case, 
I think, in a number of other critical situations.
    Mr. Gershman. Senator, I think in responding to your 
question, it is just very important to distinguish between what 
the Government does and what can be done through institutions 
like the National Endowment for Democracy. And the Government 
is--and this is one of the reasons why we were taken out of the 
Government again. The Government is going to have many 
different kinds of interests, security interests, economic 
interests, and so forth. And it is going to pursue those 
interests with some governments that are not democratic. That 
is inevitable.
    And should it be pushing for democracy? How should it push 
for democracy in those situations? The Government will have to 
decide what it can do. But we know what our job is and our job 
is to be engaged in those countries, supporting democratic 
forces, democratic movements, regardless of whether they are 
friendly tyrants or unfriendly tyrants. We have to have a 
consistent approach.
    And in a certain sense, the establishment of an institution 
like the NED allows our country to walk and chew gum at the 
same time. It can do what governments have to do. It can do 
more than what governments generally do, when it has 
ambassadors like Mark Palmer and a country like Hungary. But 
also, it has the capacity, independent of the government, to 
pursue a consistent approach to supporting democratic forces in 
the world.
    Mr. Carothers. If I could comment. I think the perception 
and the reality of inconsistency comes much more from American 
diplomatic statements and stances than it does from whether or 
not we have programs in particular countries or not. When the 
United States President or the Secretary of State singles out a 
list of countries and says these are the six or eight greatest 
tyrannies in the world, and those countries happen to only be 
countries that are unfriendly to the United States, whereas 
other countries, which are equally or in some cases more 
tyrannical, like Saudi Arabia, are not on that list, people in 
the world see and are facing a reality of inconsistency and 
double standards.
    And so the perception of double standards comes much more 
at the diplomatic level. When critical statements are made 
about Belarus, but then soft-pedal statements are made about 
Kazakhstan, people in the world watch that and say the 
explanation is obvious. Where there is oil, you soft pedal. 
Where there is no oil, you come down hard. How else can we 
understand this?
    Senator Sarbanes. Mr. Chairman, I see my time is up. Thank 
you very much.
    The Chairman. Well, thank you very much, Senator Sarbanes.
    Let me just pick up on the dialog that just ensued with 
Senator Sarbanes' question. It would seem to me, although it 
may be a historic time, inaccurate that, picking up your point, 
Mr. Gershman, governments sometimes are inconsistent in terms 
of either their idealism or their practical realities. In other 
words, they have a problem, day by day, of managing the 
security of the country and the rest of the world.
    And as you gave us the idea of walking and chewing gum at 
the same time, so there may be a very important role to be 
played by NGOs--that they are really able to maintain maybe 
more consistency with regard to the democratic dream, if we 
know in a sophisticated way how that might be furthered. And 
sometimes they are going to be at variance with some of the 
governments that are supporting them and giving them money, or 
by the context of legislation in which they are involved, and 
that--that is understood. In other words, it may be that the 
Secretary of State will not be furious at the NED because you 
have a program that is running off somewhere, even while the 
diplomatic corps may have been countenancing some activity 
which would seem to be very adverse to that.
    And I suspect that in the best of all worlds, there would 
be a purity of truth and justice in all of this, but that has 
not characterized American diplomacy in any administration I 
can remember, having heard a good number of people testify 
before this committee. At this particular stage, I am intrigued 
by Mr. Halperin's observation, which I think is impractically 
true, that there may be a difference between the embrace that 
we give to democratic advocates in Egypt for the moment and 
those in Iran.
    Now, in this Aspen Institute conference I just mentioned in 
which some of us have been arguing about this type of thing, 
those arose specifically with regard to those two countries. 
And the thought that was that however ardently we feel about 
democracy in Iran, embracing those who are on the firing line, 
so to speak, out there, it can be deadly for them. They may 
need to get out of the country rather rapidly.
    On the other hand, we have been discussing today, student 
radio and the Internet, freeing that up and so forth. This is 
somewhat more of an indirect way of support for persons who may 
not really want to be embraced by a United States organization. 
But it is an important point, because there are many arguing in 
the Congress right now that what we ought to be involved in 
doing is, in fact, organizing people in Iran, or people outside 
of Iran, to go to Iran. And at least many people that I listen 
to, who are very sophisticated, say that just is not a very 
good idea in this particular instance.
    In Egypt, maybe there is a variety of responses that are 
different, given the context. I am just curious because you, 
all four of you, deal with these issues every day. Is there 
this degree of sophistication in the NGO movement? What kind of 
advice do you give those who are, say, in the diplomatic 
movement with regard to this? And is there some dialog, whether 
it be covert, quite apart from overt, so that we all understand 
each other, because it seems to me very important that we do.
    Mr. Halperin, do you have any observations, having sort of 
intrigued us to begin with, with this Egypt-Iran contrast?
    Dr. Halperin. Yes, I think people do. Certainly the NGOs 
understand the difference. And Egypt, you know, is a major 
recipient of American economic and military assistance. The 
Egyptian Government is eager not to lose the congressional 
support for that assistance. And I think that people in Egypt 
understand the degree to which the government is cracking down, 
if it is noticed in Washington that the government is cracking 
down, the government is also going to be able to crack down on 
those people because it needs the support of the United States 
Government.
    In the case of Iran, the government exists on anti-
Americanism. And if we taint the people struggling for 
democracy, I think we hurt them. And they say that to us. I 
mean, there are many people who have informal contact with 
people in Iran. And I think it is the overwhelming majority of 
the people in that country who want democracy. And they will 
tell you every statement by us about regime, by the U.S. 
Government, about regime change and the hint that we are 
secretly providing money to those people undercuts their 
efforts and strengthens the dictatorship.
    So, you do not have to listen too carefully to hear those 
clear messages. Now, that does not mean that we should not be 
doing things about Iran. I think we should be broadcasting. I 
think we should be supporting the student broadcasters. I think 
if there are groups in Iran that want money from the National 
Endowment for Democracy, there should not be a budget 
constraint on how much money comes.
    So, I am not suggesting that there are not things that we 
cannot do to support Democrats in Iran and other countries in a 
parallel situation.
    The Chairman. Yes, Carl.
    Mr. Gershman. Senator, just first on Iran, what we have 
heard from many people is that even though the government lives 
off of anti-Americanism. When people go to Iran, they say that 
the people are more pro-American than almost any other country 
in the world. And what they want to hear--they would like to 
hear some words of support. They would like the United States 
and Europe and other countries to recognize that they exist and 
to endorse their aspirations. That can be done. I do not think 
that is necessarily going to hurt them. And this is what we are 
hearing from people, which is what they want. Obviously, we 
will tailor what we do to what is possible in terms of 
providing assistance.
    One other point that I just want to make. When I talked 
about the different functions of government and nongovernmental 
organizations, I want to underline that one of the central 
points in the report that we presented to you is the policy of 
linkage. And we hope that even where our Government has 
relatively friendly relations with other countries, that it 
will use those friendly relations or whatever relations exist 
to provide support for the kind of work that we do.
    And that may very well mean that it cannot do both at the 
same time. But we need ambassadors. We need a State Department. 
We need a government, even economic ministers, as I mentioned 
in my testimony, where Russia right now is going to be looking 
to the West for economic cooperation, that we will get their 
attention if we note that democracy and political rights are 
necessary if a country is going to move into the WTO, if it is 
going to make its currency convertible and so forth that we 
need to use all the leverage that we have on these governments 
to keep the spaces open. And that is a governmental 
responsibility, as well as a responsibility of private 
organizations and citizens to speak out.
    The Chairman. Yes. Mark.
    Mr. Palmer. I entirely agree with what Carl just said. And 
let me just take it one step further, that it is really 
critical for us to be present as a government in Tehran, and I 
would add in Pyongyang. In any dictatorship, by definition it 
is much harder to help create the space and to have a dialog 
with the people that you most care about if you are not there. 
When I arrived in Budapest as Ambassador, almost the first 
thing I did in 1986 was to sit down with the two leading 
Democrats in the country and ask them what I could do to help 
them. And I think that is the beginning of wisdom, in answer to 
your question, of how to avoid doing things that are going to 
harm young Iranians or young anybody else.
    You ask them what they want you to do and what they are 
comfortable with doing. And if they are comfortable with being 
associated with you, either in the form of NED, or Freedom 
House, or the U.S. Government, or whatever, then you do it. If 
they are not, you do not. But you have to at least be able to 
talk to them. And right now, we are not even there.
    There are 35 Iranian diplomats in this town right now, 
working in the Pakistani Interests section. There is not a 
single American in the Swiss Embassy in our Interests section 
in Tehran. I mean, that is just absolutely ridiculous. And I 
have met repeatedly the Iranian diplomats who are here in 
Washington, and they are doing what an embassy should do. They 
are going around. They are doing public diplomacy. They are 
having meetings. I just sponsored--I just hosted a dinner for 
two ayatollahs. And these guys from the embassy from their 
Interests section were there, doing what I would have--what I 
did do in Budapest.
    I mean, why are we not in Tehran? Why are we not in 
Pyongyang? I think you agree with that, Senator. But anyway, I 
just wanted to say as an NGO representative today, it is very, 
very important for us to be on the scene in these places, never 
to withdraw, voluntarily at least.
    Dr. Halperin. Senator, can I just make one point? I want to 
strongly endorse the comments about the ADVANCE Democracy Act. 
I think it can play an enormous difference. And I would hope 
that we could support that and find a way to move it forward.
    The Chairman. Let me just ask, picking up from a comment 
that Carl Gershman made, just playing the devil's advocate for 
a moment. Some commentators in Russia would say that although 
they certainly would not favor what they see to be an 
authoritarian push by the Putin Government, on the other hand, 
they appreciate that in approval-disapproval polls of Vladimir 
Putin, he is doing well in Russia. He does much better than 
most other Russian leaders presently.
    So, we ask: Why is this so? Well, some people would say 
that he has brought a degree of stability and security to the 
situation. He has cracked down on robber barons or however one 
wants to characterize those, who at least ordinary people feel 
have taken off the assets of the state in abnormal ways, and in 
sort of a popular way has fought for the populace. Some would 
even say he has brought back a prestige for Russia that might 
have been lost in the aftermath of the breakup of the Soviet 
Union.
    So for example, in that particular instance, without 
prejudging what is going to occur there, presumably somebody 
else will be elected president of the country in the next 
election. But at the same time, if he were to run for 
reelection, many people would say he would be very likely to be 
reelected in a free and fair election.
    He could--much as Ferdinand Marcos as cited before. After 
we had all these hearings in our committee, President Marcos 
went on American television in a November talk show, and called 
a snap election, and challenged everybody to come over and 
watch it, to observe that he was going to win, and that he was 
popular, and so forth.
    Now, probably, President Putin would not resort to those 
sorts of situations but, nevertheless, this is a reasonably 
popular regime. Having said that, why are we concerned about 
that? And you raise the question, perhaps as the WTO membership 
is sought or currency convertibility or--these are points of 
leverage. But then others would argue that, after all, it might 
be better for Russia, as we have already accepted China into 
the WTO, to come into the trading atmosphere, that if you are 
really looking for dialog, openness, people rubbing shoulders, 
that Russians as a part of this would be healthier than 
Russians outside of it.
    And so, you know, again and again we get into arguments 
over what are the points of leverage or what are the points of 
openness. I do not have a strong belief one way or another. I 
am just raising the fact that it appears to me that some 
arguments that we have not heard today sort of transpire on 
this.
    You know, getting back to just the Russian case itself, and 
we raised the WTO and that business, some would say that for 
years we have been watching the Jackson Vanik Act. We have 
finally liberated Ukraine from that in the last few months but 
it was an arduous procedure. That was the single most important 
element in dialog most of us had with Ukrainian officials in 
the post-election period with President Yvschenko. You know, it 
is very difficult to get one of those things on. A lot of 
people see a lot of leverage in various ways, for whatever 
cause that may be involved.
    And so I ask you, you know, stick with me for a moment, 
where does leverage lie in these things? Because in the report 
that NED has given, and you brought some pretty stringent 
points, when you get to the action steps for Congress, if we 
enacted all of that simultaneously, we might be accused of 
being fairly heavy-handed or obtuse or not really opposed to 
openness and dialog but inhibiting it very substantially.
    Can you give some more thinking to that?
    Mr. Gershman. Well, I think the point was made in the 
report that each of these situations has to be addressed on a 
case-by-case basis. And there will be different points of 
leverage in every one. And I do not think we are recommending a 
policy that you would consider to be rash. But we are 
recommending that where we do have that leverage, we should use 
it.
    There is going to be a meeting in Moscow, July 11 and 12, 
as I said, called the ``other Russia.'' There is another 
Russia. I am not suggesting or saying that it represents the 
majority. Nobody knows that. But it is the ``other Russia.'' It 
is the democratic Russia. If we have leverage in that situation 
because of the issues that you mentioned, I think that we 
should try to use that leverage so that when they implement 
this NGO law, they do not put these civil society groups out of 
business. That is what they can do. They have given themselves 
leverage over them. We have leverage in this situation. I 
believe we have to, and we should, use that leverage or use the 
leverage that Mort talked about in Egypt. I mean, where we have 
it, we should use it.
    On the issue of popularity, I just want to say that in some 
countries today, that popularity rests on a sea of oil and 
higher oil prices. When I was just in Russia, I did see all the 
things you just said about the return of Russia to greatness 
and so forth. I also saw a country that is in deep trouble over 
demographics, over many, many serious problems. The long-term 
future is not necessarily a bright future. And I believe it is 
in the interest of Russia and it will be good for Russia to 
really become a more democratic country and to become more 
integrated into the world. But it is not going to do that if it 
is allowed to move forward with Putin's economic program while 
at the same time it crushes political opposition, civil 
society, and all the other institutions that we associate with 
democracy.
    The Chairman. Yes. Mark.
    Mr. Palmer. I think if we look at the record of broad-scale 
economic sanctions on the whole, they have not worked very well 
and that we really need to rethink the whole area of sanctions. 
What we most want to help the Democrats inside these countries 
is to open the countries up, to integrate them, to increase the 
space for personal freedom. Investment and trade help in that 
regard; it is not the full answer but it helps.
    I think we need new sanctions, smart-targeted sanctions at 
the people who are responsible for the depredations, at the 
dictator and the people, the support mechanisms around him. And 
it is possible to design those smart sanctions. We are doing 
some of them already. The Treasury Department's asset program, 
I think is great. We have begun to develop a practice of 
actually bringing these guys to justice with Taylor and 
Miloscevic.
    I personally strongly favor the creation of a ``crime of 
dictatorship'' under which we would collect data and eventually 
indict and try all dictators for violations of basic human 
rights, which are guaranteed under the Universal Declaration of 
Human Rights, under their own constitution.
    So, I think there are a new set of sanctions that would 
make a lot more sense than keeping people out of the WTO.
    The Chairman. Thomas.
    Dr. Halperin. Senator, I agree with that. I think that we 
need to use our leverage effectively where we have it and not 
use it in ways that cut access. I think it is not an accident 
that most of the surviving dictatorships in the world are 
countries that we imposed an economic embargo on. I think that 
just does not work.
    But I think what we need to do is to work more towards 
positive incentives for countries to get on the path of 
democracy and stay on the path of democracy. And I must say 
participation in the G-8 seems to me should have been one of 
those. And when we invited the Russians in, it seems to me they 
were very close to the line. They have long since gone in the 
other direction. And I think we should have considered, much 
more carefully, telling the Russians that this was not the 
moment for them to chair the G-8, after all. ASEAN said that to 
the Burmese Government. And even the African Union said it, at 
least temporarily, to Sudan.
    So, I think we lost a real opportunity there to send a 
message. We heard strong support today for the Community of 
Democracies. I think we ought to be doing more to make that 
something that countries really want to be a part of and that 
therefore they will question whether they can participate. And 
I think linking that to NGO standards is a good idea, in saying 
to countries: You will not be able to continue to be part of 
the Community of Democracies if you move against allowing your 
NGOs to operate.
    The Millennium Challenge Corporation is, I think, another 
program that moves very much in that direction. It says to 
countries: Substantial American economic assistance requires 
you to govern justly and to involve your NGOs in the process of 
designing the program that we are going to support.
    So, I think positive incentives to countries, that if you 
behave as democracies, there is a path to better economic 
development, to greater participation in the world, is likely 
to be more effective than broad sanctions.
    The Chairman. Let me just ask this question, because a 
comment has been made about the importance of dialog with 
leadership. As you just mentioned, Mr. Halperin or Mr. Palmer, 
that sanctions, per se, may not work with many situations. It 
is possible, however, that if we were able to enter into some 
dialog with countries, even those that are very hostile, there 
would be some entry. Now, by and large, you are correct in 
engaging my prejudices in that direction. But it is a 
legitimate argument.
    For the moment, obviously, our Government has decided in 
the case of Iran--and we have discussed Iran a good bit today--
to become more involved, to come up to the table with the 
European three. Thoughts have been given that Russia and China 
have been broadly consulted about a common program that we 
might be able to support, both in those negotiations and 
perhaps in further United Nations Security Council activity. 
And that has been characterized as new.
    And there are many reports about how Secretary Rice has 
been persuasive with the President. Only history will tell.
    But just to take another more difficult example in North 
Korea, certainly the Chinese have taken the position that they 
do not want to see so-called regime change. They do not want to 
go through the process of many North Koreans heading into 
China. If there is to be a miserable government, they want it 
to be in North Korea, to deal with it, even to the point of 
providing huge resources of food and energy to keep everybody 
alive.
    Younger South Koreans feel about the same way. They do not 
want to see a violent overthrow. They want to see an evolution, 
apparently, which makes diplomacy very difficult in the Six 
Party Talks without there being some more direct engagement 
with the North Koreans.
    And yet this is clearly not a process that is going to 
necessarily lead to democracy in this particular case. It may 
be a national security or international security problem 
dealing with weapons of mass destruction and some movement back 
into the world community. And therefore, as you make 
distinctions, Mr. Gershman, of countries that are 
dictatorships, as opposed to those that are in between or 
hopeless or so forth, it is probably important to try to think 
through where we head, quite apart from how we advise others.
    This may be beyond the scope of the NGOs and the democracy 
movements. To what extent could you make the case that the 
NGOs, in fact, even if our official diplomats are not involved 
in direct dialog or communication, serve a very helpful purpose 
in being involved? It occurs to me there have been many cases 
in which NGOs have had contacts with governments, not on behalf 
of our country or anything, but they have sort of kept the 
conversation alive. They have made suggestions that were 
helpful. This may lead to world peace or to some equanimity in 
cases that may have been very, very difficult. And is this 
still a further item in the case to be made for NGOs and 
democracy, that there is a diplomatic front?
    Yes, Mr. Carothers.
    Mr. Carothers. I think it is. A good example of that comes 
in the Muslim world, where a number of U.S. democracy promotion 
organizations have been able to develop pretty fruitful 
contacts and relationships with modern Islamist groups, who are 
often not comfortable having direct contacts with the U.S. 
Government or want to keep that to a minimum but do participate 
in programs.
    I was in Indonesia doing some research. And I met with the 
small Islamist party, which is quite a fundamentalist party 
there. And they are very hostile to the U.S. Government in 
various ways. Yet they are participating in U.S. party training 
programs. I asked them, ``Who would you rather have as your 
closer friend, the International Republican Institute or the 
Muslim Brotherhood in Egypt?'' And they laughed a little bit. 
And they said, ``Well, the International Republic Institute 
seems to be able to teach us a lot more about how to win an 
election. So, we enjoy taking part in the training.''
    And by being included, they did not feel quite as hostile 
as their instinct is towards the U.S. Government and realized 
something about the U.S. approach democracy, which is something 
about tolerance, and tolerance of different points of views, a 
message they are not getting from other parts of the U.S. 
Government at this point.
    So, I think there is a role for U.S. nongovernmental 
organizations that have a fair amount of independence from the 
U.S. Government to go out and make those kind of contacts and 
facilitate a broader dialog with other societies.
    Dr. Halperin. Mr. Chairman, in relation to North Korea, I 
think it is more complicated, because I am favor of the U.S. 
Government both engaging more with North Korea. I think we 
ought to negotiate a peace treaty. I think we ought to open an 
embassy there. And at the same time, I think we ought to speak 
out more forcefully about the human rights situation in North 
Korea. It is probably the worst country on earth now. And yet 
you hear much less about the human rights situation there than 
you do in other countries.
    Congress has spoken a little bit about it. But I think 
there is more to be done. I think we need to put pressure on 
them and on the Chinese, who are not honoring their obligations 
under the Refugee Act to allow refugees from North Korea who 
come there, be seen by the U.N., and move to other countries. 
And we have only begun to take refugees from North Korea.
    But I think in terms of NGO contact, certainly third party 
contact with the government, to try to understand better what 
it is about is perfectly legitimate and useful but I am really 
about what might be viewed as contacts with NGOs in North 
Korea, because I do not think there are any. I do not think 
that is a country which leaves any space for legitimate NGOs. 
And therefore, I think we need to be careful that we do not 
seem to be giving legitimacy to what are, in fact, government 
entities by having our NGOs have relationships with them.
    The Chairman. That may be so. So, let me just add a 
footnote. For instance, the World Food Program works in North 
Korea. Now, this is not a democracy NGO. But my good friend, 
Jim Morris, as head of that, I know, has made a number of trips 
there. This has been helpful for my understanding. I learn what 
he has seen, who he has visited with.
    Likewise, we have had staff members from our committee who 
went with the distinguished group to the Yongbyon facility in 
North Korea. They were looking at weapons of mass destruction 
situations. But nevertheless, it was an unusual dialog with 
some people who are right on the front of one of the major 
things we are doing. And this appears to me to be important. 
And this is why I sort of zeroed in a little bit on that.
    Granted, they were not talking about democracy or 
performing in the next election. But if North Korea is the 
worst case, the question is, how do you open it up at all? Who 
gets in and begins to talk? This is important.
    Yes, Mark.
    Mr. Palmer. Armand Hammer, who was my teacher in a way in 
this field, who was a great scoundrel, he knew more dictators 
than anybody else I ever met. He knew Lenin and Stalin. He knew 
King Idris. He knew Qaddafi. I mean, he--Occidental Petroleum 
and Armand, dealt with everybody.
    The Chairman. Yes.
    Mr. Palmer. And Armand said to me about dictators--that 
they are extremely distrustful and lonely men. They do not 
trust their own family. They do not trust their security 
services. They do not trust those who are supposedly part of 
their regime, whatever it is.
    So, I think almost any way that you can get in and talk 
both to that lonely man, evil man, but any way, to that man and 
at least as important to those around him, the better it is. 
Because what we really know now from watching these systems 
collapse is that they are weak, really weak. And there is every 
opportunity to implode them, if you can get in their knickers. 
But you have to get in the knickers. And if it is NGOs that do 
that, terrific. But in any way that you can get in there and 
fool around, the better it is.
    The Chairman. Carl.
    Mr. Gershman. North Korea--one point I would like to make 
is that it is a unique situation. It is, as Mort suggested, 
probably the most closed country in the world. But it also 
exists across the border from South Korea. And you have a 
single culture divided by a political system, which I think 
underlies more clearly than anything else the relative virtues 
of those systems.
    And what makes the situation in North Korea so incredibly 
unstable, in my view, is that they have imposed a complete 
information blockade in order to enforce the view, which the 
regime constantly feeds to the people, that they live in 
paradise and that across the border people live in hell.
    If you can break the information blockade, even in a 
marginal way--and I think it is happening even with people 
leaving, refugees, and then going back. And now North Koreans 
who have left are broadcasting back into North Korea. If you 
break the information blockade and it becomes clear that 
everything that the regime has been saying is a complete lie, I 
think that is a very destabilizing factor. And that is part of 
the reality. There is nothing we can do to change that because 
there is no way, under current circumstances, whether you 
support engagement or whether you support human rights, 
ultimately that isolation is going to be ended. And that is a 
very destabilizing thing.
    One final point, though, which I think in this case some 
NGOs, more policy groups than NGOs working on democracy, have 
been promoting, but some of them are human rights 
organizations, is to begin to explore the possibility of a 
Helsinki process for Northeast Asia involving North Korea, so 
that you can begin to link the security negotiations to the 
basket three human rights provisions in the way that Helsinki 
did back in 1975.
    I realize that there is, in a sense, a certain 
contradiction in that, because North Korea is such an insecure 
regime. But part of the Helsinki process, as we know, had to do 
with recognition of borders, state-to state relations. This 
would be part of the package. But it should not be part of the 
package if it is not linked, in my view, to opening up human 
contacts. And I think that is possible. And I would hope that 
the Congress would even consider a way in which a Helsinki 
process dealing with North Korea can be initiated. I think the 
administration might even be very interested in that.
    The Chairman. Well, that is a good suggestion along with, 
once again, reinforcing the communications suggestions that 
several of you have made today that are really critically 
important. I suppose that there are cases that are not as 
extreme as North Korea in all of this. It is very possible 
that, as some of you have pointed out, there has been greater 
preoccupation with students, as well as exchanges of all sorts, 
scholarships, this sort of thing.
    One of the things we have been gripped with here in this 
committee is the problem since 9/11 imposed by Homeland 
Security or the visa regime or immigration or so forth, in 
which a number of foreign students coming to the United States 
have been inhibited in that quest and have gone to other 
countries instead to pursue their studies.
    And furthermore, as opposed to boosting the numbers, we 
have been doing well just to maintain the numbers or to get 
back to where we were. That has been particularly true of 
students from Middle Eastern countries, but sometimes it has 
been even more difficult for Chinese students and others whom 
we are discussing today.
    Now there are clearly, and I accept the fact, we have heard 
it vividly from testimony, problems with many young people. 
Some are maybe studying to be terrorists and to do us in, in 
the process. So, I appreciate those who are arguing in terms of 
our security that we really cannot have just sort of a free 
coming and going.
    On the other hand, there is clearly a case to be made that 
the students who have come to the United States, whether they 
like this or not, or whether they imbibe in all of our culture, 
make a difference upon their return within their home 
countries. So, I am really hopeful that we can move strongly in 
that direction, too, as part of the democracy movement. And the 
NGOs in various ways are extremely important in this aspect, 
quite apart from the technical work you may be doing in 
democracies generally.
    I think likewise in Russia--and I had a conference not long 
ago with Mr. Karagonov, who many of you know is a very 
interesting and sometimes leading intellectual. He was 
lamenting the fact that the dialog among intellectuals, among 
persons of very diverse views, has not broken down. It has just 
almost dissipated entirely, with regard to the United States. 
Those who are talking about the ``other Russia'' or the ``new 
Russia'' or so forth, they would be like Mr. Karagonov. They 
are very much involved always in each Russian regime or each 
iteration of this. And that is true of others who are survivors 
of the process.
    But I have a feeling they are lonely. They are looking for 
a dialog. They would like to see more visitors and persons such 
as yourselves and others who come from the NGO community, as 
well as Members of Congress and others. And it is one of those 
circumstances in which you cannot do everything at once. Today 
this is a good opportunity to catalog a list of things to think 
about, to do in terms of our Government or in terms of our 
legislative effort or at least our understanding and support of 
what you are able to do independently with the finances that 
come from right-thinking people who want to help.
    Well, let me thank you again for your interesting testimony 
and, more importantly, your responses to our questions and the 
dialog that we have had. We look forward to staying in close 
touch with all four of you and your organizations. And as you 
have suggestions, do not wait for the next hearing. Write to me 
or the committee or our staff, because we are eager to hear and 
are receptive.
    Thank you and the hearing is adjourned.
    [Whereupon, at 12:26 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


   Prepared Statement of Human Rights First Submitted for the Record

    Human Rights First thanks the Foreign Relations Committee for 
convening this important and timely hearing on the role of 
nongovernmental organizations in the development of democracy. We are 
grateful for the opportunity to share with the committee not only our 
own views, but also the perspectives and experiences of some of our 
international partners who are human rights leaders in their own 
countries. This testimony, consistent with our organization's focus and 
particular concern, centers on the role of local human rights defenders 
in the promotion of democracy.
    Democracy promotion today is championed as a remedy for many of the 
world's ills--from poverty to war and terrorism--vociferously and 
eloquently by the Bush administration, and also by an increasing number 
of the world's governments and multilateral institutions. Human Rights 
First welcomes this increased international focus on democracy 
promotion at all levels, recognizing the strong correlation between 
democratic forms of governance and respect for internationally-
recognized human rights standards.
    At the same time, we are concerned that all too often, 
authoritarian governments claim to be making progress on building 
democracy when the reality is that they are masking their 
authoritarianism with false democratic trappings. Furthermore, as the 
emergence in several countries of popularly elected governments which 
nevertheless fail to respect basic human rights reminds us, elections 
alone do not automatically guarantee improved human rights conditions.
    Independent human rights activists therefore have a dual role in 
their societies: To be both advocates for the essential elements of 
democratic development and, at the same time, vigilant watchdogs 
concerning the integrity of any democratic progress that may be claimed 
to have taken place.
    We submit that the primary measure of progress toward democracy 
must be success in the promotion and protection of human rights. Years 
of experience have taught us that exactly at the most critical moments 
of democratic transformation, when accurate reporting about human 
rights performance is most badly needed, too many governments instead 
work to stifle independent, often critical, voices.
    Human Rights First's mission to protect and promote human rights is 
rooted in the premise that global security and stability depend on 
long-term efforts to advance justice, human dignity, and respect for 
the rule of law in every part of the world. Since our establishment in 
1978, Human Rights First has worked in the United States and abroad to 
support human rights activists who, at great risk to their own liberty 
and security, fight for basic freedoms and peaceful change in their 
countries.
    It is no accident that in countries in transition from 
authoritarianism to democracy, the agendas of political reformers and 
champions of democracy and of human rights activists tend to converge. 
Indeed, the agenda championed by those fighting autocracy is rooted in 
human rights--in implementing the basic freedoms of expression, 
assembly, and association, and more broadly in restoring the rule of 
law and creating the core institutions of a functioning democracy: A 
free press, an independent judiciary, and systemic checks on executive 
power.
    Human rights activists share, and also champion, these demands 
because they are also necessary for ensuring respect for basic human 
rights. These local human rights defenders inside countries that are 
undergoing democratic transition or still contending with entrenched 
and resilient authoritarianism have an essential role to play as 
independent evaluators and guarantors of democratic progress--and their 
voices must be protected.
    We are reminded again and again that despite the efforts of 
repressive governments to maintain control over and restrict the 
activities of these human rights activists, such efforts are ultimately 
futile because basic human rights standards--the concrete objectives 
that the activists are striving to implement--exist beyond the scope of 
control of any single government, and enjoy support from governments 
and nongovernmental bodies around the world. But in many parts of the 
world, much more needs to be done to ensure that human rights defenders 
are protected from retribution for their critical work.
    Below, we illustrate several examples of the efforts being made by 
human rights defenders, and the significant challenges that many of 
them still face. The examples from the four countries cited represent 
the kinds of harassment and physical attacks on individuals, and 
actions against independent human rights organizations, that remain all 
too common across many parts of the world.

                               INDONESIA

    One of Indonesia's foremost human rights defenders, Munir Said 
Thalib, died on September 7, 2004, after he was poisoned with arsenic 
during a flight to the Netherlands. Known throughout Indonesia simply 
as Munir, this activist was known for his fearless advocacy and careful 
research on human rights violations. A trial led to the conviction of a 
pilot named Pollycarpus Budihari Priyanto on December 20, 2005. The 
judge noted that there was a need to investigate former senior 
intelligence officials implicated in the murder, but there has been 
little follow up since the verdict.
    One of Munir's greatest impacts came from his refusal to show fear, 
despite repeated threats and prior attempts on his life. His murder, 
and the failure to hold those who planned or ordered it responsible, 
remains a major setback for human rights and democratization in 
Indonesia.

                                THAILAND

    In a similar case in Thailand, leading Muslim lawyer, Somchai 
Neelaphaijit, disappeared in March 2004, just days after filing a 
complaint against the police for torturing several of his clients. His 
body has never been found. One policeman was sentenced to 4 years in 
connection with the disappearance, but he was charged only with 
coercion, not kidnapping or murder. Four others were acquitted due to 
lack of evidence following a highly inadequate police investigation.
    Somchai is one of at least 20 human rights defenders killed in 
Thailand in the last 5 years. Most were local activists who organized 
their communities to take on locally powerful figures in conflicts over 
land, forests, or other natural resources. One local activist, who had 
survived multiple bullet wounds in one attack and later watched a 
colleague die as a result of another, told Human Rights First, ``This 
is government by force, not democracy. Defending our rights, we started 
with a small issue and began to fight, and found big men.''

                                 RUSSIA

    Over the past year, Russian authorities have stepped up efforts to 
weaken independent nongovernmental organizations (NGOs) involved in 
promoting democracy and human rights. On January 10, 2006, President 
Putin signed a new law regulating the activities of all NGOs operating 
in Russia. Under this law, government agencies are authorized to deny 
registration to domestic and foreign organizations--or force them to 
close down altogether--on loosely defined grounds. Using the vague and 
sweeping provisions of this law, human rights defenders who have been 
the target of politically motivated prosecutions or smear campaigns 
could be prohibited from holding leadership positions or being actively 
involved with human rights groups.
    No single case exemplifies the mounting legal pressures exerted on 
Russian human rights organizations better than the multifaceted 
persecution endured by the Russian-Chechen Friendship Society (RCFS). 
The government campaign to discredit and ultimately close the 
organization has included the use of tax and administrative challenges 
and the criminal prosecution of Stanislav Dmitrievsky, the managing 
director of RCFS, under a counter-extremism law. On February 3, 2006, a 
court in Nizhny Novgorod convicted Dmitrievsky, who is also editor-in-
chief of the newspaper, Pravozaschita, of violating a law intended to 
combat religious and nationalist extremists who incite hatred and 
violence against minority groups. The conviction sets a dangerous 
example for all Russians--including human rights defenders and 
independent journalists--who exercise their right to question and 
criticize government policies.

                                COLOMBIA

    A central premise of Colombia's 3-year-old ``democratic security 
policy'' is that there is no internal armed conflict, but rather simply 
a ``war against terrorism.'' As part of the government's ``war on 
terror,'' hundreds of nonviolent human rights defenders, community 
leaders, and trade unionists have been arrested and arbitrarily 
detained, often based solely on the information provided by paid 
informants. On September 17, 2004, sociologist, Alfredo Correa, was 
killed by alleged paramilitaries in Baranquilla, Atlantico Department. 
He had been detained by the security forces in June and released in 
July after claims that he was a member of the FARC guerrilla group 
proved unfounded.
    On May 24, 2006, 22 individuals on the front lines of the fight for 
democracy and human rights around the world came together at the third 
annual Human Rights Defenders Policy Forum cohosted by Human Rights 
First and the Carter Center. This year's Policy Forum, a 3-day 
conference in Atlanta followed by 2 days of meetings attended by many 
of these leading human rights defenders in Washington, focused 
specifically on the relationship between democracy promotion and 
respect for human rights. Participants identified the following trends 
in democracy promotion efforts:

    (1) Rather than rejecting democracy outright, many authoritarian 
governments adopt the language of democracy and human rights for their 
own purposes. Imitation or ``hollow'' democracies, where dictators pay 
lip service to democratic ideals, have allowed autocratic governments 
to receive the support of the international community, including many 
democratic states. Authoritarian governments may also create state-
sponsored ``nongovernmental organizations'' to provide the 
international community with a false sense of the freedom with which 
civil society operates inside the country. External donors may 
inadvertently help to create and sustain imitation democratic 
institutions that consolidate authoritarianism, rather than diminish 
it.
    (2) Authoritarian governments also suggest that ``premature'' 
democracy would produce negative effects for the country and delay the 
transition to meaningful democracy. Western governments accept this 
self-serving reasoning all too readily and therefore hesitate to push 
for democratic reforms.
    (3) Other factors tend to encourage the international community to 
overlook undemocratic state practices, such as the exploitation of 
natural resources, including oil and gas, and strategic partnerships in 
the ``war against terror.''
    (4) Inconsistent messages in democracy promotion result from these 
influences. Such double standards undermine the impact of these 
programs, while fueling cynicism and rising anti-Western and 
antidemocratic sentiments in authoritarian states.
    (5) Authoritarian governments propagate the idea of being a 
``fortress under siege surrounded by enemies,'' which enables them to 
subvert their internal critics from civil society and independent media 
and to dismiss external criticism of poor human rights conditions as 
aimed at undermining national interests and sovereignty.
    (6) Democratization is seriously undermined when democratic 
governments that seek to promote democracy and human rights abroad fail 
to respect human rights in their own practices, such as by condoning 
torture, secret detention, detention without trial, or other denials of 
due process.
    (7) Elections without attention to long-term, sustainable, 
institutional human rights safeguards, including civic education, an 
independent media, enjoyment of basic freedoms of expression and 
association, and an independent judiciary risk the election of populist 
leaders who do not respect human rights and who actively undermine 
democracy once in office.
    (8) In many countries, the transition to democracy has been 
accompanied by economic hardship and a growing gap between the rich and 
the poor, leading to erosion of public support for democratization. 
However, poverty is not always caused by a lack of resources, but often 
linked to poor management of public resources and an absence of 
democratic control on public goods.
    (9) Provision of technical assistance to governments has been 
meaningless in countries where civil society is being suffocated and in 
contexts where governments lack the political will to implement human 
rights reform. The training of journalists in the absence of a free and 
independent media, or of judges where there is no independent judiciary 
is ineffective or even counterproductive. Training and other programs 
should be geared toward the creation of a free media and an independent 
judiciary as priorities.
    (10) Where human rights standards and principles are not enshrined 
in a constitution and safeguarded by an independent judiciary, 
nominally democratic structures--such as local and national elective 
bodies--are passing laws that infringe on the rights of women and 
minorities.

    In short, while free and fair elections undoubtedly offer a sign of 
hope to many, they alone are not enough. Strengthening of rule of law 
and democratic institutions, and ensuring a greater focus on 
implementing and upholding human rights in transitional societies, are 
necessary to better ensure democratic progress. What is needed most is 
a renewed commitment to uphold international human rights standards 
through both bilateral and multilateral channels, long after the 
headlines and media spotlight on elections have faded.

                            RECOMMENDATIONS

    To address the above concerns, the Policy Forum participants 
crafted the following recommendations directed at leading democracies 
and other institutions at the forefront of democracy promotion:

    (1) Demonstrate consistency in promoting human rights and 
fundamental freedoms in each region, applying the same standards across 
the region yet using different tools in different countries depending 
on the specific national context, human rights track record, and 
participation of respective governments in international organizations.
    (2) Democratic states should work together--unilateral calls for 
democracy are less effective. The United States and the European Union 
have to elaborate detailed, well-conceived, and clear policies aimed at 
reversing authoritarian developments and deterioration of human rights. 
Ideally, this should be a common policy implemented by the United 
States, the European Union, and other leading democracies.
    (3) Do not abandon new democracies simply because an election has 
taken place; rather, continue supporting human rights defenders and 
work with them to develop independent human rights organizations and to 
build state institutions that legitimately protect human rights and 
promote democratic principles. International funding commitments to 
promote democracy should likewise prioritize long-term, sustainable 
support for true democratic institutions.
    (4) Focus support on promotion of media that is independent of 
political or commercial influence and provides information on public 
affairs, governance, and international standards. Access to information 
is universally cited as one of the most important aspects of a true 
democracy.
    (5) Ensure that indigenous and other disadvantaged or marginalized 
groups with limited access to democratic institutions and education are 
included in all democratic processes.
    (6) Democratic governments and intergovernmental organizations 
should demonstrate their strong solidarity with human rights defenders 
and effectively intervene on all levels in those cases when defenders 
come under threat from authoritarian regimes. They should increase the 
visibility of human rights defenders, and engage them in regular dialog 
as effective monitors of democracy promotion programs.
    (7) Governments should stop using security concerns as pretexts to 
undermine democracy and human rights; such efforts are ultimately 
counterproductive and self-defeating.
    (8) Democratic governments should reaffirm their own commitments to 
human rights standards, including cooperation with international and 
regional mechanisms, and call for the same by democratizing states. The 
U.N. human rights protection system should be reinforced. The newly 
created Human Rights Council should renew and strengthen the mandates 
of the special procedures, including special rapporteurs and 
representatives.
    (9) Human rights organizations promote, defend, and sustain 
democracy. Besides providing resources and aid directly to such 
organizations, the international community should exact prompt and 
effective pressure on governments that attempt to restrict NGO human 
rights activities--including through adoption of legislation--and 
maximize their opportunities to build strong roots and constituencies 
of support within their own countries.
    (10) Democratic countries should adopt targeted diplomatic and 
economic sanctions against individual public officials from 
authoritarian states that are responsible for gross human rights abuses 
and involved in corruption.

    Human Rights First appreciates the interest of the committee in 
these important issues, and welcomes this opportunity to submit our 
testimony in writing as part of the hearing record.
                                 ______
                                 

         Prepared Statement of SUMATE Submitted for the Record

    SUMATE thanks the Foreign Relations Committee for convening this 
important hearing on the role of nongovernmental organizations in the 
development of democracy. We are grateful for the opportunity to share 
with the committee our own views. This testimony centers on the role of 
NGOs in the promotion of democracy and the challenges that human rights 
defenders face in their work.

                            I. INTRODUCTION

    SUMATE is a Venezuelan citizens' movement that defends democracy by 
the permanent exercise of citizens' rights and the demand for faithful 
observance of the law.
    SUMATE has pursued the following activities toward building a 
culture of democracy in Venezuela:

    1. Promote citizens' participation in public affairs.
    2. Promote citizens' supervision over governmental administration.
    3. Provide support to democratic institutional systems, especially 
to carry out transparent electoral processes.
    4. Broaden awareness of Venezuela and of SUMATE's programs among 
citizens at international level.
    5. Manage aptitudes and resources of the organization to ensure 
feasibility.

 II. THE SITUATION OF HUMAN RIGHTS DEFENDERS ENGAGED IN ACTIVITIES FOR 
   THE PROMOTION, PROTECTION, AND IMPLEMENTATION OF HUMAN RIGHTS AND 
                               DEMOCRACY

    The human rights instruments enshrine rights and fundamental 
freedoms that the states must respect, protect, promote, and guarantee 
for all persons under their jurisdiction, individually and in 
association with others. The work of human rights defenders is 
fundamental for the universal implementation of those rights and 
freedoms, and for the consolidation of democratic institutions.
    This vital role of human rights defenders has over the years become 
more recognized. However, this progress has been achieved at a high 
price: The defenders themselves have increasingly become targets of 
attacks and their rights are violated in many countries. Human rights 
defenders are often subjected to physical attacks, acts of 
intimidation, and other forms of repression.
    In some cases, criminal prosecution and judicial repression are 
being used to silence human rights defenders and to pressure them into 
discontinuing their activities. In other cases, laws, regulations, and 
administrative practices impose lengthy registration procedures or 
restrictions on the right to obtain funding for human rights 
activities, particularly from outside the country.\1\ Freedoms of 
speech, association, and assembly are being threatened by these 
actions. SUMATE firmly believes that the denial of rights, such as 
freedom of association as well as repressive actions against human 
rights defenders, has serious implications for the promotion and 
protection of human rights and democracy.
---------------------------------------------------------------------------
    \1\ Human rights defenders need adequate resources to carry out 
their activities. They frequently depend on donations from individuals, 
private foundations, corporations, and governments to conduct their 
work, but often face extensive government control and arbitrary 
limitations. Restrictions on receiving funds by human rights 
organizations have often been imposed as a measure to impede their 
activities for the protection of human rights. States have often raised 
this as an issue of national security or sovereignty. But promotion of 
human rights and fundamental freedoms can hardly be seen as 
interference in the internal affairs of the state or an infringement of 
the sovereignty of the state.
---------------------------------------------------------------------------
    In this context, it is important to note that the work of human 
rights defenders has been recognized by several international 
organizations:

    1. The Declaration on the Right and Responsibility of Individuals, 
Groups and Organs of Society To Promote and Protect Universally 
Recognized Human Rights and Fundamental Freedoms \2\ (hereinafter ``the 
U.N. Declaration'') establishes: ``Everyone has the right, 
individually, and in association with others, to promote and to strive 
for the protection and realization of human rights and fundamental 
freedoms at the national and international levels.'' \3\ It also 
provides that:
---------------------------------------------------------------------------
    \2\ General Assembly resolution 53/144.
    \3\ Article 1.

  <bullet> Everyone has the right, individually, and in association 
        with others, to participate in peaceful activities against 
        violations of human rights and fundamental freedoms.
  <bullet> The state shall take all necessary measures to ensure the 
        protection by the competent authorities of everyone, 
        individually, and in association with others, against any 
        violence, threats, retaliation, de facto or de jure adverse 
        discrimination, pressure, or any other arbitrary action as a 
        consequence of his or her legitimate exercise of the rights 
        referred to in the Declaration.
  <bullet> In this connection, everyone is entitled, individually and 
        in association with others, to be protected effectively under 
        national law in reacting against or opposing, through peaceful 
        means, activities and acts, including those by omission, 
        attributable to states that result in violations of human 
        rights and fundamental freedoms, as well as acts of violence 
        perpetrated by groups or individuals that affect the enjoyment 
        of human rights and fundamental freedoms.\4\
---------------------------------------------------------------------------
    \4\ Article 12.

    2. The human rights organs of the inter-American system have 
repeatedly highlighted the importance of the work of those persons who 
promote and seek the protection and attainment of human rights and 
fundamental freedoms, as well as the oversight of democratic 
---------------------------------------------------------------------------
institutions. These organs have emphasized that:

  <bullet> ``Human rights defenders play a leading role in the process 
        of pursuing the full attainment of the rule of law and the 
        strengthening of democracy''; and
  <bullet> ``Human rights defenders play an irreplaceable role in 
        building a solid and lasting democratic society.'' \5\
---------------------------------------------------------------------------
    \5\ IACHR, Report on the Situation of Human Rights Defenders in the 
Americas (OEA/Ser.L/V/II.124 Doc. 5 rev.1, March 2006).

    3. On June 15, 2004, the Council of the European Union established 
the Guidelines on Human Rights Defenders, \6\ which underline that 
individuals, groups, and organs of society all play important parts in 
furthering the cause of human rights, and support the principles 
contained in the U.N. Declaration.
---------------------------------------------------------------------------
    \6\ The full text of the Guidelines is available at http://
ue.eu.int/uedocs/cmsUpload/GuidelinesDefenders.pdf.
---------------------------------------------------------------------------
    However, it must be noted that despite these international 
mechanisms of protection, in recent years the danger and insecurity 
human rights defenders face have worsened in many countries.

           III. PROBLEMS FACED BY THE HUMAN RIGHTS DEFENDERS

1. The use of legal actions against human rights defenders
    SUMATE would like to draw particular attention to the situation of 
human rights defenders in Venezuela, where judicial processes are 
increasingly being used to punish them and impede their work.
    Since 2003, criminal charges have been filed against several 
Venezuelan human rights and prodemocracy NGOs for having raised and 
utilized funds from foreign sources. Our case clearly illustrates this 
point.
    On February 15, 2004, the President of Venezuela publicly accused 
SUMATE of ``conspiracy and treason.'' On March 4, 2004, in clear 
response to the above accusation, the Sixth National Prosecutor opened 
an investigation against the most visible members of SUMATE: Its 
founders--Alejandro Plaz and Maria Corina Machado, and Luis Enrique 
Palacios and Ricardo Estevez. They were charged with ``conspiracy to 
destroy the country's republican form of government.''
    The sole basis for this accusation was having sought and obtained 
funding from the National Endowment for Democracy (NED). Funds from the 
NED were used exclusively for educational activities such as: Workshops 
on democratic principles and citizen's rights, and television and radio 
ads, which were designed to inform the general public on the various 
mechanisms established in the Bolivarian Constitution for political and 
civic participation.
    Plaz, Machado, Palacios, and Estevez were also charged--under 
Venezuelan Criminal Code, Article 132--of requesting foreign 
intervention in Venezuela's domestic political affairs. An unlikely 
charge given that SUMATE's sole intention was to raise funds to finance 
the legitimate exercise of constitutionally and internationally 
recognized citizens' rights and the legal promotion of political 
participation.
    According to the law, Plaz, Machado, Palacios, and Estevez should 
be tried by a mix court consisting of three (3) people: A judge and two 
citizens designated randomly (the jurors). Nevertheless, on Nov. 2, 
2005, in clear breach of the law, Judge Elias Alvarez ruled that the 
SUMATE trial would be judged by him--without the participation of 
jurors.
    On February 9, 2006, the Court of Appeals upheld the motion 
presented by the defense of Maria Carina Machado, against the 
constitution of the Seventh Trial Court as a unipersonal court. The 
appeals court found that Judge Alvarez's pretension was inappropriate 
and it decided as follows:

  <bullet> It voided the act which constituted the court without 
        jurors.
  <bullet> It ordered a new call to potential jurors, and if this were 
        not feasible, mandated a new drawing.
  <bullet> It ordered the case to be sent to a different court.

    While the above ruling delayed the case for a few months, the case 
is set to resume in the very near future as a new judge has now been 
selected.
    The context of the renewed proceeding is likely to be quite 
different now that the government has introduced--and will likely force 
passage of--a highly restrictive draft Law on International 
Cooperation.\7\
---------------------------------------------------------------------------
    \7\ Anteproyecto de Ley de Cooperacion Internacional.
---------------------------------------------------------------------------
2. The use of legislative measures against human rights defenders
    In Venezuela, a new draft law regulating NGOs strengthens control 
over civil society institutions, in particular those that are funded 
from abroad.
    It is our opinion that a number of the provisions in the draft law 
do not conform to international legal standards governing freedom of 
association and basic civic liberties. The likely adoption of this 
restrictive instrument will result in the gross violation of human 
rights and will have a harmful impact on civil society and democratic 
practices in Venezuela. Our main areas of concern are as follows:

    1.1. The draft law imposes restrictive conditions on civil society 
institutions in violation of constitutional and international law.--The 
current draft violates the constitutional precepts related to the 
freedom of association and citizen's right to participate in public 
affairs. Articles 52, 62, and 132 of the Venezuelan Constitution 
provide:

    ``Article 52: Everyone has the right to assemble for lawful 
purposes, in accordance with law. The state is obligated to facilitate 
the exercise of this right.''
    ``Article 62: All citizens have the right to participate freely in 
public affairs, either directly or through their elected 
representatives.
    ``The participation of the people in forming, carrying out, and 
controlling the management of public affairs is the necessary way of 
achieving the involvement to ensure their complete development, both 
individual and collective. It is the obligation of the state and the 
duty of society to facilitate the generation of optimum conditions for 
putting this into practice.''
    ``Article 132: Everyone has a duty to fulfill his or her social 
responsibilities and participate together in the political, civic, and 
community life of the country, promoting and protecting human rights as 
the foundation of democratic coexistence and social peace.''

    Additionally, SUMATE notes that according to the Inter-American 
Commission on Human Rights (IACHR), any act that tends to impede the 
association of human rights defenders, or in any way impedes the 
purposes for which they have formally associated, is a direct attack on 
the defense of human rights.\8\
---------------------------------------------------------------------------
    \8\ IACHR, Report on the Situation of Human Rights Defenders in the 
Americas . . . op.cit . . .
---------------------------------------------------------------------------
    Furthermore, the draft law restricts the right of freedom to 
association as guaranteed under the International Covenant on Civil and 
Political Rights (ICCPR). Article 22(1) of the ICCPR states: ``Everyone 
shall have the right to freedom of association with others, including 
the right to form and join trade unions for the protection of his 
interest.''
    In addition to this, it is counter to the U.N. Declaration, which 
establishes:

    ``Article 13: Everyone has the right, individually and in 
association with others, to solicit, receive, and utilize resources for 
the express purpose or promoting and protecting human rights and 
fundamental freedoms through peaceful means, in accordance with article 
3 of the present Declaration.''

    1.2. It is not necessary. Venezuela already has a legal framework 
that governs NGOs activities.--A complete and effective regulatory 
frame already regulates the activities of Civil Society Organizations, 
universities, unions, companies, and cooperative organizations. In 
addition to the standard requirements placed on NGOs to acquire legal 
status, these organizations will also have to register in a new, 
integrated registry controlled by the government. Registration would be 
a precondition to achieve national recognition to be able to perform 
activities of cooperation to receive funding and to enjoy tax benefits.
    1.3. It provides for excessive government intervention in the 
activities of NGOs. The current draft imposes a wide range of 
restrictive conditions on the management, operations, and financing of 
NGOs and will allow authorities to intervene relations at the 
international level--including funding and activities at the domestic 
level.--Under the terms of this draft, specifically, as it refers to 
the creation of the Integrated Registry System, rigorous state control 
is guaranteed. Far from promoting the civil society, such controls 
would significantly hamper the participation of citizens in social 
matters. For instance, given the intent of article two, the national 
government would have a say on the decisions of NGOs, universities or 
unions in matters as basic as receiving donations or provisioning of 
bibliographical material or even the purchase and use of computers. The 
exchange of information among international entities would also be 
subject to controls. The issue of invitations for speakers, and the 
attendance to international forums, would be controlled by the state in 
those cases in which the resources for these activities come from 
international cooperation.
    1.4. It promotes bureaucracy. The draft law contemplates two 
governmental agencies to control the NGOs activities.--The first one 
will be the entity charged with receiving all documentation and 
incorporation files of the NGOs. NGOs will have to inform this entity 
on their organization and management, sources, and uses of their 
resources. This entity would be in a position to audit any aspect of 
the NGOs operation at any point in time. A second entity would be 
charged with providing financing for programs, projects, international 
attendance, and any other activities that the government undertakes in 
the area of international cooperation. The disbursement of these funds 
would be according to the priorities set by the government's foreign 
policy (and its interpretation of ``the national interest'').
    1.5. It is selective in scope. Instead of imposing restrictive 
conditions on civil society institutions, the Venezuelan National 
Assembly should regulate the disproportionate use of public monies in 
other countries.--The awarding of grants for not-for-profit civic 
projects and activities by foreign donors is a practice commonly 
accepted throughout the world. Our country, with its deep democratic 
tradition, should not be an exception. If this source of financing is 
ultimately banned, it would be impossible for organizations working in 
the area of human rights to operate. History proves that at this stage 
of political, social, and economical development, countries such as 
ours benefit from the constructive involvement of individuals and NGOs 
focused on the promotion of democratic practices. It is unconscionable 
to respond to this natural development and expectation with a 
legislated witch hunt against those seeking greater freedom.
    It must be mentioned that it is essential to establish strict rules 
to ensure the transparency and adequate oversight of the government's 
discretionary international ``cooperation'' activities. These unchecked 
flows need to be brought under better supervision. Here we refer to 
such things as the $100 million oil donation to Bolivia and Argentina; 
the oil agreements with Cuba; the donation of heating oil to ``the poor 
people'' of the United States or England, the urea shipments to 
Nicaragua's Sandinista party, and the funding of Bolivarian circles 
around the world.

     IV. TOWARD MORE EFFECTIVE PROTECTION OF HUMAN RIGHTS DEFENDERS

    Based on the international standards established by the legal and 
normative instruments in the field of human rights:

    1. SUMATE emphasizes the important role that individuals, 
nongovernmental organizations, and groups play in the promotion and 
protection of democracy, human rights, and fundamental freedoms.
    2. SUMATE expresses its gravest concern over efforts to suppress 
democracy promotion activities and demand these actions should cease. 
Furthermore, any existing legal restrictions in this regard should be 
expeditiously repealed.\9\
---------------------------------------------------------------------------
    \9\ Legislation in the name of national security, public order, or 
emergency must not be allowed to silence dissent.
---------------------------------------------------------------------------
    3. SUMATE has identified the following priorities for a strategic 
approach to the situation and role of human rights defenders:

    3.1. Governments must acknowledge the legitimacy and value of the 
work of human rights defenders.
    3.2. In accordance with human rights instruments adopted within the 
United Nations system, as well as those at the regional level, all 
members of the international community shall fulfill their obligation 
to promote and encourage respect for human rights and fundamental 
freedoms for all without distinction of any kind.
    3.3. All countries must adhere to and comply with the relevant 
international norms and standards, in particular the U.N. Declaration. 
States must fully implement the principles included in this Declaration 
through the following actions:

  <bullet> The adoption of the Declaration by national parliaments;
  <bullet> The dissemination of human rights information; and
  <bullet> The implementation of awareness-raising and solidarity 
        campaigns with defenders.

    3.4. The international community should exert effective pressure on 
governments that attempt to restrict NGO activities (including through 
adoption of legislation). Sufficient attention has not been given to 
modification of national laws that contradict the principles of 
international instruments and commitments applicable in the field of 
human rights.
    3.5. The international community should adopt a mechanism of 
systematic alert on cases of repression against human rights defenders.
    3.6. The collaboration between universal and regional mechanisms 
for the protection of human rights is fundamental for ensuring a 
coordinated and effective strategy of protection of human rights 
defenders worldwide.

    4. SUMATE would also like to recommend the following actions in 
support of the aforementioned objectives:

  <bullet> Condemning threats and attacks against human rights 
        defenders; and
  <bullet> Maintaining contacts with human rights defenders;
  <bullet> Attending and observing trials of human rights defenders;
  <bullet> Providing, as and where appropriate, visible recognition to 
        human rights defenders;
  <bullet> Assisting in the establishment of networks of human rights 
        defenders at an international level, including by facilitating 
        meetings of human rights defenders;
  <bullet> Seeking to ensure that human rights defenders can access 
        resources, including financial, from abroad.

    SUMATE appreciates the interest of the committee in these important 
issues, and welcomes this opportunity to submit our testimony in 
writing as part of the hearing record.
                                 ______
                                 

  Responses of Barry Lowenkron to Questions Submitted by Senator Biden

    Question. Please clarify your reply regarding the current status of 
OFAC licensing regulations for the work of United States 
nongovernmental organizations to financially support a broad range of 
civil society, cultural, human rights, and democracy-building 
activities in Iran.
    (a) If there is a general license covering nongovernmental 
organization activities, please describe which organizations are 
eligible and what activities are permitted.
    (b) If there is not general license, please describe the average 
wait time for nongovernmental organizations to obtain specific 
licenses, the number of license applications received and the number of 
licenses issued since January 2002. Do you believe the absence of a 
general license and specific licensing process has prevented NGOs from 
applying for specific licenses. Does the administration intend to issue 
a specific license for NGO activity in Iran?

    Answer. Under the Office of Foreign Assets Control's (OFAC) Iranian 
Transactions Regulations, most commercial and financial activities with 
Iran by United States persons are prohibited absent a license. In order 
to facilitate democracy-building activities, OFAC issued a license to 
the Bureau of Democracy, Human Rights and Labor (DRL) and its grantees 
in July 2005 to cover DRL-funded programs in Iran. Currently, the 
license is limited to DRL ``and U.S. persons receiving grants from 
DRL.'' DRL awarded S4 million to six different grantees for programs in 
Iran; these programs represent the first Department-funded democracy 
and human rights programs in Iran since 1979.
    As the fiscal year 2006 foreign appropriations bill and the fiscal 
year 2006 supplemental provide funding to the Bureau of Near Eastern 
Affairs (NEA) and DRL to advance democracy in Iran, in order to 
facilitate Iran democracy programs, DRL and NEA will ask that OFAC 
issue a new license to cover activities funded by both NEA and DRL 
under this program. In addition, the Bureau of Educational and Cultural 
Affairs (ECA) will ask that OFAC issue a separate license to ECA and 
its grantees, modeled on the existing DRL license, to cover ECA-
sponsored human rights projects, democracy, educational and cultural 
exchange programs, and other programs aimed at furthering Iranians' 
appreciation of democratic values and practice through exchange and 
other activities.
    In order to better facilitate non-USG-funded NGOs applying for a 
license from OFAC to do work in Iran, OFAC will issue a Statement of 
Licensing policy to be posted on OFAC's Web site. The State Department 
will also post information on its Web site explaining the process and 
directing potential applicants to the OFAC Statement of Licensing 
Policy. OFAC retains records of all license requests. For more specific 
information regarding licensing processing we would refer you to the 
Office of Foreign Assets Control.

    Question. The administration requested funds in the fiscal year 
2006 supplemental for democracy programs in Iran.
    (a) How do you plan on identifying partners inside of Iran? How 
will you assess their capacity and credibility? Is there a way to 
provide funding without stigmatizing or undermining their work?
    (b) What role do you anticipate Iranian exile groups will play in 
implementing this program? Please identify and describe those Iranian 
exile groups you have consulted.

    Answer. The Department of State will spend the S20 million 
Democracy Fund to promote human rights and democracy in Iran. The two 
Bureaus managing these programs, the Bureau of Democracy, Human Rights 
and Labor (DRL) and the Bureau of Near Eastern Affairs (NEA) will 
concentrate programming on political party development, labor, civil 
society, human rights and rule of law. DRL-funded programs administered 
by my Bureau support respect for freedom of association and speech, and 
more open and free participation in the political process. Presently, 
DRL grants funds to established United States NGOs and academic 
institutions that work with individuals and organizations inside Iran. 
Projects focus on influential democratic actors and groups, including 
labor, women, and students. For practical reasons of safety, we are 
cautious about publicizing our work with governments and activists 
across the globe to protect human rights. We would, of course, be happy 
to provide a classified briefing for the committee.
    The desire for an active civil society in Iran has not been 
diminished by the numerous attempts by the Iranian Government to 
silence human rights and democracy activists. Iranians know that their 
government may punish them for voicing their views on the Internet or 
in the newspaper, and yet journalists continue to write provocative 
pieces that demonstrate tremendous moral courage, and thousands of 
other Iranians post their thoughts on Web blogs every day. They gather 
on the streets to demand better working conditions and equal rights for 
women although the forceful reaction of the regime's thugs is a bitter 
reality. Iranians have found ways to endure in a system that strives to 
deprive them of their legitimate rights--and we are confident that they 
will also find ways to change that system.
    The State Department regularly meets with members of the Iranian 
diaspora community. We see exile groups as one of many sources of 
information about Iran and Iranian people, but recognize that many 
individuals have not been back to Iran since the revolution. Although 
the funding of exile groups has not been a major focus of these 
efforts, we are willing to consider qualified proposals submitted by 
any credible organization.

    Question. Russia has been hostile to the use of Organization for 
Security Cooperation in Europe (OSCE) election monitors in former 
Soviet republics. Recently, Moscow started financing its own group of 
election ``monitors'' who routinely ignore the findings of other 
international observers and return results that match the Kremlin's 
desired outcome. The most glaring example of this phenomenon occurred 
recently following Belarus' so-called elections.
    (a) What is the United States doing to preserve the integrity of 
election monitoring missions mounted by the OSCE and other 
international bodies?
    (b) What can be done to ensure that the findings of legitimate 
election monitors are not obscured by the claims of politically-
motivated observers?

    Answer. Russia has used two different approaches to try to undercut 
the reports of Office of Democratic Institutions and Human Rights 
(ODIHR) election monitoring missions: Sending separate Commonwealth of 
Independent States (CIS) monitoring teams to cover elections in some 
CIS states, for example Ukraine and Belarus, and routinely publicly 
criticizing ODIHR for alleged bias and methodological flaws--a claim we 
completely reject. Under the first approach, for instance, the CIS 
teams issued separate reports proclaiming the first round of the 
October 2004 Ukrainian Presidential elections and March 2006 Belarusian 
elections ``free and fair,'' in marked contrast to ODIHR's very 
critical reports. In addition, Russia has recently decided to 
participate more actively on ODIHR observation missions, and sent a 
considerable number of Russian observers to ODIHR missions, including 
Kazakhstan and Azerbaijan late last year. We welcome Russian 
participation in ODIHR monitoring missions, because it will help Moscow 
better understand the methodology and recognize the strengths and 
impartiality of the process, and that the standards applied are 
identical in the West as well as CIS countries. However, Russia also 
clearly hopes to influence, i.e., tone down, ODIHR's criticism of the 
conduct of elections particularly in CIS states. Russia has used the 
reports of its own observers as a basis for accusing ODIHR of making 
biased, predetermined negative politicized evaluations of various 
elections, and has further argued that ODIHR team evaluations should 
have no standing in OSCE because they do not represent participating 
state consensus positions.
    The United States, the European Union and other OSCE states 
publicly, emphatically, and consistently reject such Russian (and other 
CIS) accusations against DDIHR. We believe that the current methodology 
of the OSCE, which is the ``gold standard'' emulated by other 
international monitors such as those from the European Union, provides 
objective and unbiased assessments of electoral practices in 
participating states both east and west of Vienna. If an evaluation is 
critical, it is because the concrete circumstances of the election 
required it, and not because of any inherent bias or predetermined 
conclusion. Critical comments have been made, for example, of some 
aspects of recent U.S. elections that were assessed by DDIHR.
    We believe that ODIHR's methodology itself works to protect against 
tainting by politically motivated observers within its missions. Its 
assessments are objective and accurate precisely because ODIHR's 
missions include large numbers of observers all operating under the 
same rules that get a statistically meaningful sample. In addition, 
ODIHR makes every effort to organize its observers into mixed 
nationality teams, which must reach consensus on their observations, to 
dilute any politically motivated reports made by individuals or 
secondees of particular countries. ODIHR has also codified its practice 
of limiting the total number of participants of a given nationality in 
an electoral monitoring mission to 10 percent of the overall team's 
size, preventing any one country from unduly swaying the evaluation of 
an election mission.
    Efforts to make significant changes in how ODIHR conducts election 
monitoring, in particular how it appoints election mission heads and 
when and with what focus it issues its evaluations, can only be 
achieved via an OSCE consensus decision. The United States, joined by a 
majority of other participating states, has made unambiguously clear 
that it will reject any proposal that might undermine ODIHR's election-
related efforts.

    Question. Mongolia has been heralded by many as a success story of 
democratic development. Yet, endemic corruption continues to prevent 
Mongolia from qualifying for participation in the Millennium Challenge 
Account, and the institutions of democratic and governance programs 
remain very weak. The administration reduced support for democracy and 
governance programs from $10 million in fiscal year 2004 to $7.5 
million in fiscal year 2005. The same amount was requested in fiscal 
year 2006. Why are we reducing United States funding for democracy 
programs in Mongolia at this pivotal moment in its political 
development?

    Answer. Currently, all United States economic assistance to 
Mongolia is distributed by USAID, which has identified two priorities: 
Private sector-led economic growth and more effective and accountable 
governance. Over the past 3 years, good governance assistance has 
remained constant at $2.7 million. The decrease in USAID funding from 
$10 million to $7.5 million can be attributed to a decline in economic 
growth assistance from $7.22 million to $4.8 million in fiscal year 
2006.
    Mongolia's Millennium Challenge Account (MCA) proposal is also 
currently under review. To address Mongolia's worsening performance on 
corruption, the Millennium Challenge Corporation (MCC) has officially 
notified Mongolia that passage of anticorruption legislation is a 
prerequisite for signing a compact. MCC has underscored the importance 
of fighting corruption and strengthening the rule of law as essential 
to the success of any MCA program in promoting economic growth and 
reducing poverty. If Mongolian authorities are responsive in enacting 
anticorruption legislation, Mongolia also stands to gain aid through 
the Millennium Challenge Account.
    Mongolia's transformation from authoritarian communism to 
democratic governance is a remarkable ongoing success story. But this 
transition is far from complete, and many development challenges 
remain. Despite achieving peaceful and constitutional transitions of 
power between governments since the early 1990s, holding elections that 
are largely free and fair, and recording impressive 6-10 percent GDP 
growth rates over the past few years, Mongolia's continued democratic 
and economic success hinges on its ability to manage a series of ``good 
governance'' issues, including establishment of greater accountability, 
transparency, and anticorruption measures.
    Senior Mongolian officials have also expressed concerns about cuts 
in economic assistance levels for Mongolia. We will continue working 
actively with Mongolian officials to develop a balanced assistance 
program, and given our concerns of corruption, our funding level over 
the past 2 years reflects a sustained commitment to helping Mongolia's 
democratic development.

    Question. Please provide information on positions abroad, by post, 
that were designated as ``labor'' positions in fiscal year 2004 and are 
currently so designated (in fiscal year 2006).

    Answer. The following positions were designated as ``labor 
officer'' in fiscal year 2004: Ankara; Beijing; Berlin; Bridgetown; 
Canberra; Geneva; Guatemala City; Jakarta; Johannesburg; La Paz; Lagos; 
London; Mexico City; Nairobi; Ottawa; Paris; Rome; San Salvador; 
Santiago; Sao Paulo; Tokyo; Tunis; USEU Brussels; and Warsaw.
    Officers assigned to some other political or economic positions 
overseas have labor responsibilities in their portfolios. Some of these 
positions are ``dual designated'' as either political/labor or 
economic/labor, including, for instance, ones in Baghdad, Bangkok, and 
Hanoi.
    All positions designated as ``labor officer'' in 2004 continue, 
with the following exceptions:

  <bullet> Bureau of African Affairs--The Lagos position was abolished 
        in 2004. AF has agreed that a new political position in Abuja 
        will also have labor responsibilities. This is in process.
  <bullet> Bureau of East Asia and Pacific Affairs--The Tokyo position 
        has been abolished as of July, 2006.
  <bullet> Bureau of European and Eurasian Affairs--The full-time 
        Berlin labor position will be eliminated in July, 2007. A lower 
        ranking economic position will be designated as having labor 
        responsibilities. The Warsaw position is being eliminated.
  <bullet> Bureau of Western Hemisphere Affairs--A labor position was 
        established in Brasilia, while the labor position in Sao Paulo 
        was abolished. By virtue of global repositioning, there will be 
        a new political officer position established in Managua. This 
        position will also have labor responsibilities.

    Question. Please describe how the Secretary's ``transformational 
diplomacy'' initiative will affect labor-designated positions. What is 
the process for reviewing such positions, and what are the criteria 
being used?

    Answer. Secretary Rice defined the objective of transformational 
diplomacy this way: ``To work with our many partners around the world 
to build and sustain democratic, well-governed states that will respond 
to the needs of their people--and conduct themselves responsibly in the 
international system.''
    One important way of helping to realize the Secretary's objectives 
is through repositioning our employees globally to successfully meet 
the challenges that transformational diplomacy presents. We are 
expanding the role and function of the
current labor officer positions to include a wider range of 
transformational responsibilities in such areas as human rights, 
democracy, and other regional and transnational political and economic 
issues. In many cases, this reflects a continuation of a process that 
had already begun.
    Under the Global Repositioning Initiative, an integral element of 
the Secretary's vision of transformational diplomacy, the Department is 
shifting its resources to more effectively and efficiently deal with 
transformational issues globally. The Department is reviewing the work 
and location of current labor officer positions. Positions with 
significant labor responsibilities will continue to be labor-designated 
assignments for which officers will receive labor training.

                                  <all>

</pre></body></html>
